<html>
<title> - GSA'S PUBLIC BUILDING AND COURTHOUSE PROGRAM</title>
<body><pre>[Senate Hearing 105-921]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-921

 
              GSA'S PUBLIC BUILDING AND COURTHOUSE PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 17, 1998

                               __________

  Printed for the use of the Committee on Environment and Public Works

                               ----------

                     U.S. GOVERNMENT PRINTING OFFICE
53-126 CC                    WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402





               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 17, 1998
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........    12
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     2
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    36
Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........    19

                               WITNESSES

Burleigh, Hon. A. Peter, Acting U.S. Representative to the United 
  Nations, U.S. Mission to the United Nations....................    22
    Prepared statement...........................................    58
Edenfield, Hon. B. Avant, Judge, U.S. District Court, Southern 
  District of Georgia............................................    26
    Prepared statement...........................................    55
Peck, Hon. Robert A., Commissioner, Public Buildings Service, 
  General Services Administration................................     2
    Prepared statement...........................................    37
    Responses to additional questions from:
        Senator Graham...........................................    40
        Senator Sessions.........................................    43
Ponsor, Hon. Michael, Judge, U.S. District Court, District of 
  Massachusetts..................................................    24
    Letters, exchange with U.S. Marshals Service.................    54
    Prepared statement...........................................    53
Stahl, Hon. Norman H., Judge, U.S. Court of Appeals for the First 
  Circuit; Chairman, Committee on Security and Facilities, 
  Judicial Conference of the United States.......................     6
    Prepared statement...........................................    44
    Priority list, U.S. Courthouse projects, Judicial Conference 
      of the United States.......................................    48

                          ADDITIONAL MATERIAL

Statement, Bernard H. Berne, Arlington, VA.......................    59

                                 (iii)

  


              GSA'S PUBLIC BUILDING AND COURTHOUSE PROGRAM

                              ----------                              


                      THURSDAY, SEPTEMBER 17, 1998


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:10 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Warner, Allard, Sessions, Baucus 
and Wyden.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. We're here to take a look at Federal 
buildings policy, how it's developed, how it's put into action 
each fiscal year.
    Today we will hear from the General Services 
Administration, the Federal Government's landlord and real 
estate expert on the management of Federal property in general 
and more specifically on the various projects that GSA would 
like to undertake in fiscal year 1999.
    We will also hear from the Judicial Conference of the 
United States regarding the needs of the Federal judiciary as 
they work for the administration of justice now and in the 
future, and we will take a look at the projects that they are 
recommending for the coming fiscal year.
    The two sets of proposals before us today provide the 
committee with an opportunity to examine not only how Federal 
buildings policy is made but whether it may be improved for the 
benefit of both the tenant agencies and the taxpayer. Toward 
that end, we'll be looking at S. 2481, the Public Buildings 
Reform Act, legislation put forward by Senator Baucus with 
Senator Warner and myself joining in, to establish a clear 
process for Federal buildings policy. I believe it's a good 
bill and look forward to comments from the panels on that 
proposal.
    I believe the physical characteristics of Federal buildings 
should be commensurate with the duties that are carried on 
therein. Often, it's appropriate for a Federal building to 
convey to those who enter or pass by a sense of dignity, 
solemnity and indeed, beauty.
    At the same time, obviously we have a real duty to all 
Americans to get the most out of the property the Federal 
Government uses and that means we have to look at the most 
effective use of space at the very best possible deal.
    In general, and when it comes to courthouses in particular, 
I do not believe the two elements need to be mutually 
exclusive. Surely we can have buildings that inspire pride in 
the heart as well as confidence regarding our expenditures 
policy. Toward that end, this committee has pressed the 
Judicial Conference and the GSA to work closely together to 
guarantee that all recommended projects are meritorious and 
worthy of taxpayer funds. To their credit, both of these groups 
have worked together. Just recently, the Judicial Conference 
agreed to prioritize its requests which has helped greatly in 
our efforts to ensure wise use of public funds.
    I believe that the GSA-courts partnership and the 
additional steps taken by the judiciary are slowly restoring 
whatever lack of confidence might have existed regarding 
courthouse projects. There has been, in the past, some 
criticism of some of the courthouses that have been built.
    I look forward to hearing about how the partnership is 
progressing and hearing from our witnesses.
    I know Senator Allard has been here, so Senator, do you 
have any comments?
    Senator Allard. No, Mr. Chairman, I don't have any comments 
this morning.
    Senator Chafee. Senator Sessions?

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman.
    I hope that we can do a good job dealing with buildings. 
Some of the prices, and one I want to ask about today, the U.N. 
Mission, is extraordinary, beyond my imagination. I think we 
need to ask some tough questions about that. When you get $400, 
$500 per square foot, we're in Never, Never Land it seems to 
me. I've got to be convinced that is legitimate or I will do 
all I can to see that it's not approved.
    Senator Chafee. We have Mr. Burleigh here from the United 
Nations, so you'll have an opportunity. I hope you can stay and 
that's why I want to move right along.
    First, we're going to hear from Mr. Peck, Commissioner, 
Public Buildings Service. Mr. Peck, we welcome you here. Why 
don't you proceed?

    STATEMENT OF HON. ROBERT A. PECK, COMMISSIONER, PUBLIC 
       BUILDINGS SERVICE, GENERAL SERVICES ADMINISTRATION

    Mr. Peck. Thank you, Mr. Chairman, and other members of the 
committee.
    As you noted, my name is Bob Peck, I'm the Commissioner of 
the Public Buildings Service at GSA. I have a statement which 
I'd like to submit for the record and I will summarize orally.
    Before I go into our program, I'd like to briefly give you 
some background on the Public Buildings Service because we 
haven't been in front of you for quite some time and we have 
initiated a number of reforms I think since you last hear from 
GSA, one of which is most relevant to what we're meeting about 
today.
    I want to remind you that the Public Buildings Service 
provides work space for approximately 1 million Federal 
employees nationwide, about 39 percent of the Government's 
owned and leased office space and in addition, we provide the 
Nation's Federal courthouses, border stations, many of the 
laboratories and warehouse space. It's more than 300 million 
rentable square feet of space. We have a budget of over $5 
billion and we're the largest real estate organization in the 
United States.
    One of the great things about the Federal Buildings Fund, 
which the Congress did to us in 1972, was to put us on a 
businesslike basis. We have an advantage that very few 
government officials have. We take in revenues and we have 
expenses. We can measure our bottom line and we can manage it 
and that is precisely what we are doing.
    We can track a net income, a financial bottom line. Our net 
income is not a profit as it would be in business, of course, 
but it is nonetheless crucial. Our income, net of fixed 
expenses and our revenues, I note, are the rentals we take in 
from Federal agencies who occupy our space and that in itself 
gives them an incentive to economize on the space they occupy.
    Our income net of fixed expenses is the funding we depend 
on to carry out major repairs, renovations and some modest new 
construction in our program. We can and should operate in a 
businesslike manner, measuring our efficiency in terms of time 
and money and making our customers, Federal agencies, and our 
shareholders, the American taxpayers, satisfied customers.
    We have responsibility for more than 1,800 government-owned 
Federal buildings. It's a large real estate inventory and an 
unusual one as well. The average age of the buildings in our 
inventory is 47 years. By comparison, if you talk to people who 
manage real estate investment trust and other large commercial 
inventories, they start thinking about selling their buildings 
when they approach 15 years. Again, ours average 47 years.
    What that means is that we have a very large inventory that 
needs a lot of repair work and modernization because our job is 
to provide modern work space for Federal employees.
    We have put into place, and this is one of the reforms I 
alluded to before, a system by which we decide where and how 
much we will invest in Federal buildings in terms of repair and 
alteration. We have set up a return on investment measure, much 
as private businesses do, to determine which projects meet a 
threshold test for putting our money into them.
    For fiscal year 1999, we have proposed a capital 
improvement program in our inventory which consists of ten 
prospectus level repair and alteration projects. They are 
budgeted at approximately $257 million and we have nine 
prospectus level R&A project designs for future projects 
estimated at $16.7 million; six prospectus level design and 
construction projects estimated at $44 million; and nine 
prospectus level replacement operating leases for the proposed 
annual cost of not to exceed $37.6 million. I'd just remind you 
that under the Public Buildings Act, we also have to bring you 
leases over the prospectus level amount.
    Again, I emphasize that in our capital inventory, it is the 
annual revenues of the Federal Buildings Fund and not money out 
of the general fund of the Treasury that we use to pay for 
renovations to our Federal buildings.
    We now have some 26 years of experience with the Federal 
Buildings Fund and I can tell you the experience tells us the 
following. We get enough money in revenues each year to fund 
the basic operations of our buildings, which includes heating 
them, cooling them, and providing security, an ever increasing 
important business these days unfortunately. It's enough money 
to pay private landlords for the leases that we have in 
buildings--that's almost half of our $5 billion, lease payments 
to lessors--and it gives us enough money generally to keep up 
with the repair and alterations needs of our inventory.
    How do I know that it's enough? We do benchmark against the 
private sector and we look at people who have private sector 
inventories. We know if you have an inventory of a certain 
value, you want to reinvest a certain amount in keeping up your 
buildings. That's how we decide on the overall amount of money 
we're prepared to spend on repairs and alterations.
    Finally, I'd note that although when you read the history 
of the Federal Building Fund enactment in 1972, the Congress 
was hoping there would be enough money as well in the Fund to 
provide for new construction projects. The history of the Fund, 
for various reasons included the imposition of rent caps at 
various points during our existence, a form of rent control 
which is strange when you're trying to operate a market system. 
We have not had enough money to undertake much major 
construction and when we do have major construction programs, 
as we do at the moment with the courthouse program, Congress 
generally does appropriate additional funds.
    The analogy in the private sector would be that when you go 
to build new buildings in the private sector, do major capital 
investments, you go out and borrow. We don't do that in the 
Government. In essence, of course, we do borrow when we take 
general appropriations.
    I'm talking a lot about repairs and alterations because 
they get lost but just as operating expenditures and repairs 
can lose out in other Federal programs too to the more 
noticeable, glitzier new construction projects, our bread and 
butter is keeping up the inventory in which we house the 
Federal work force. So I urge you to continue to give us the 
support you have in the past for approving our repair and 
alterations projects.
    With respect to new construction and acquisition, in the 
fiscal year 1999 budget, the Administration proposed a modest 
new construction program which includes two border stations, 
the design of a new U.S. Mission to the United Nations, 
additional funding for remediation at the Southeast Federal 
Center which would close out our remediation needs on that site 
in Washington, DC, and the design of a new headquarters 
facility for the Department of Transportation.
    I recognize that we have had extended discussions with you 
and staff about the Department of Transportation. You and I 
believe the Congress have clearly indicated your desire about 
how we proceed on that project and so I don't propose to talk 
about it anymore at this time.
    I will just say this about the courthouse construction 
program. As you know, this year the Administration did not, in 
fiscal year 1999, propose a construction budget but I want to 
tell you about the program a bit anyway because I note that 
both appropriations committees have recommended significant 
funding for the program.
    About 10 years ago, the Judiciary came to GSA and told us 
they recognized a tremendous need for expanded courthouse 
capacity in the United States. They came up with a program 
which they have now put in priority order with a total of 160 
projects spread throughout the country. We have completed 16 of 
the projects without 24 under construction.
    We are proud of the courthouses we are producing. Effective 
project management is allowing us to bring in very high quality 
buildings within the appropriated project budgets. This is the 
largest Federal building program since the 1930's, the largest 
building program as opposed to other public works.
    In partnership with the Judiciary and the design and 
construction industries, we are producing landmark Federal 
courthouses that are worthy of the American people and their 
pride in the American judicial system and their belief in the 
rule of law.
    We are commissioning America's best architects and winning 
praise for the courthouse design and functionality from 
architecture critics, most importantly from the judges and 
other building users and from local community leaders.
    I can report to you that we are conscientious about the 
budgets we set in buildings. We have a very sophisticated 
system of cost benchmarks to make sure we maintain cost and 
quality parody among projects with varying functional 
requirements and different site conditions in locations 
dispersed throughout the country.
    I can tell you that in fiscal 1998, we have completed seven 
courthouses within the aggregated budgets for those projects. 
In the first month of fiscal year 1999, we will complete two 
more courthouses which we will bring in for $11 million under 
the project budgets.
    In determining how we layout the courthouses, we rely on 
the Design Guide produced by the Judicial Conference. I think 
it's a good guide. Courthouses are complex buildings. They have 
three separate circulation systems to provide security; they 
have high-ceilinged courtrooms much in line with the traditions 
in this country and in England for courtrooms, providing them 
the requisite dignity that you need to conduct courthouse 
proceedings.
    They are complex buildings. They are not efficient by 
commercial standards because of the varied circulation systems 
and the need for public spaces, but we are squeezing them as 
tough as we think we can consistent with the need to produce 
landmark buildings in which the public can see the majesty of 
justice carried out.
    We do believe there are some other cost refinements we 
could make but I have to tell you we believe with our cost 
benchmarking process, which has produced about $31 million in 
avoided expenditures since 1995, we have a program that we can 
all be proud of.
    I will note since the bombing in Oklahoma City, we have 
added security features to buildings. Some I can talk about 
such as our attempts to set more of the buildings back from the 
street. We have put in security measures which are visible to 
the public and some that are not so visible, including some 
changes in glazing in various parts of our courthouses.
    I will just note we have about $5 billion remaining that 
needs to be funded for the 120 courthouses in the program left 
to be done. In previous years, Congress has provided funding at 
an average rate of about $500 million.
    Again, I would note to you that our projected revenue in 
the Federal Buildings Fund is not sufficient to carry out that 
sort of a program and appropriations would be necessary. I'd 
just note that appropriations to the Federal Building Fund for 
new construction between fiscal years 1990 and 1997 have 
already amounted to over $2.8 billion. I believe Congress has 
recognized that is the way you do support a large Federal 
construction program.
    Finally, I will just say I am as proud as I can be of the 
progress that GSA has made with our partners, the courts, in 
producing buildings that no longer say to the American people 
that they should not have confidence in the Government or our 
system of justice. We are looking forward to continuing our 
work on that program in the future.
    I'm happy to answer any questions you have.
    Senator Chafee. I think what we'll do is hear from Judge 
Stahl and then ask questions of both of you. Judge Stahl is a 
member of the First Circuit and has been indefatigable in 
working in connection with the funding for courthouse 
construction and the general problem of courthouses overall.
    Judge if you would proceed?

 STATEMENT OF HON. NORMAN H. STAHL, U.S. COURT OF APPEALS FOR 
    THE FIRST CIRCUIT; CHAIRMAN, COMMITTEE ON SECURITY AND 
      FACILITIES, JUDICIAL CONFERENCE OF THE UNITED STATES

    Judge Stahl. Mr. Chairman and members of the committee, my 
name is Norman Stahl. I serve as a judge on the First Circuit 
Court of Appeals and as Chairman of the Judicial Conference 
Committee on Security and Facilities.
    I'm appreciative of the opportunity to appear before all of 
you today to discuss the Judiciary's continuous efforts to 
improve management of the courthouse construction program and 
to discuss the fiscal year 1999 courthouse construction 
projects that have been prioritized in our 5-year plan.
    Senator Chafee. Judge, just one question: when you're 
speaking before us now, you're not wearing a hardhat solely as 
a representative of the First Circuit? You're speaking for the 
Nation as a whole?
    Judge Stahl. I am not speaking really as a First Circuit 
representative except as I am on the committee. I am speaking 
for the Judicial Conference in my position as Chairman of the 
Committee on Security and Facilities.
    Senator Chafee. So you speak for all the districts?
    Judge Stahl. Not parochial. It is the entire country.
    In my formal statement, I've included a listing of the 
projects needing authorization for this year and more detailed 
justification for each of the projects. As you know, on panel 
2, Judge Edenfield, who has been delayed by 2 hours this 
morning but I think will make the hearing, and Judge Ponsor 
will be available to discuss their case specific projects.
    Over the past several years, we have worked cooperatively 
with the General Services Administration and your committee to 
respond to issues that have been raised about the courthouse 
construction program. I believe that our joint efforts have 
been both productive and mutually instructive. We have what I 
would view as an excellent working relationship with the 
committee and the staff.
    The Judicial Conference has marshalled a number of 
initiatives that will further improve our management and 
control costs to the entire courthouse program. We will 
continue to do this as the program proceeds.
    We are most grateful for Congress' willingness to work with 
us this year to secure funding for courthouse projects. 
Notwithstanding my numerous contacts with OMB prior to the 
submission of the Executive's budget, when I believed that we 
would have funding in the 1999 budget, that funding was 
abruptly withdrawn and it was up to Congress to take the 
necessary action to ensure that funding for the 1999 projects 
would be in this year's budget.
    As I said, we have prioritized all of our projects in 
accordance with the 5-year plan. The prioritization system was 
requested by this committee. We were somewhat unsure as to how 
it would work and it has worked very well. It has received the 
acceptance of the entire judicial family and is no longer an 
issue for the Judiciary.
    Each year we seek comments from courts about the 5-year 
plan to determine if any of the factors affecting a project 
score have changed. By a continuous review of priorities, we 
are able to ensure that changing circumstances at a particular 
location are taken into account so that necessary adjustments 
to the plan can be made.
    We have also discussed and adopted a policy through the 
Conference on courtroom sharing that balances the essential 
need for judges to have an available courtroom to fulfill their 
constitutional duties and responsibilities with the economic 
reality of limited resources.
    We continue the standard of providing one courtroom to each 
active district judge. In addition, with regard to senior 
judges who do not carry full caseloads requiring a substantial 
use of a courtroom, and visiting judges at a particular 
courthouse, the policy sets forth a number of nonexclusive 
factors for circuit councils to consider when determining the 
number of courtrooms needed at a particular facility.
    Each judicial council has the statutory authority to 
determine the need for court accommodations, and has developed 
a policy for sharing courtrooms by senior judges and that 
policy is fully in effect.
    We have had a comprehensive 2-year review of the Design 
Guide. The Design Guide was first published in 1991 and 
contains the necessary information for GSA, private sector 
designers, builders and members of the judiciary about the 
special requirements of Federal courthouses that will make them 
functional, secure and quality public buildings.
    The comments received from users indicated the Guide was 
accomplishing its purpose. The judiciary has also received a 
number of excellent suggestions for improvements including 
recommendations for your committee.
    We believe the most recent revisions will avoid certain 
construction costs by about 5 percent, $2 million for an 
average sized $40 million project and they will be incorporated 
into new projects as they are designed.
    As part of the judiciary's commitment to cost containment 
and program assessment and evaluation, we are now planning to 
embark upon a major top-to-bottom review of our entire space 
and facilities program. We anticipate contracting with a major 
independent consulting firm to assist us with this review.
    The study will include an assessment of our planning and 
design assumptions, recommendations on appropriate management 
roles and responsibilities of court personnel and others in the 
courthouse construction process, further examination of the 
issue of courtroom sharing and utilization and funding 
mechanisms and resource allocation strategies.
    We will consult with this committee, others in Congress, 
GSA, OMB and the General Accounting Office during the course of 
the study. We intend to move as quickly as possible but it will 
take some time to award the contract to a consulting firm due 
to the broad scope and special skills needed to perform our 
analysis. Once the contract is awarded, however, we hope to 
have a final product in 9-12 months.
    You have also asked that I address the subject of the 
public building reform legislation, Senate Bill 1005, which I 
understand was reintroduced yesterday.
    Previously, we had raised two or three issues about the 
bill which we felt should be changed. Section 6 of the bill 
directs GSA in consultation with the Director of the AO to 
submit a report that specifies the characteristics of court 
accommodations that are essential to the provision of due 
process of law and the safe, fair and efficient administration 
of justice by the Federal court system and to develop design 
guides and standards for Federal court accommodations based on 
the report.
    We have done that. This provision of the bill seems to me 
to be completely superfluous to where we are going today. We 
have an excellent Design Guide. I think the General Services 
Administration would agree the Design Guide does its job, that 
it is effective, and there seems to be no need to try to 
reinvent a wheel we already have working.
    Section 5 of the bill requires a 10 percent reduction in 
aggregate office space by Federal agencies, including the 
judiciary. That is for the judiciary probably an impossibility. 
Our caseload grows exponentially as the committee knows and we 
need some more space because of that. I would hope if this bill 
goes forward, the judiciary would be exempted from the 
requirement to achieve a 10 percent reduction.
    Finally, Section 5 also directs the GSA to prepare uniform 
standards for housing needs for establishments of the Judicial 
Branch. This is somewhat unclear but the Thurgood Marshall 
Federal Judiciary Building, which was built by and is presently 
under the oversight of the Architect of the Capitol as is the 
Supreme Court building, are not subject to GSA and we would 
hope it would be clarified that they would continue to be 
subject to the Capitol Architect and not the General Services 
Administration.
    I understand that the Chief Justice is strongly opposed to 
this provision.
    Finally, there is a matter which is not in my written 
statement which I'm prepared to discuss. The judiciary has 
requested a change in the way our budget goes to Congress. We 
have suggested that OMB be taken out of the picture in the 
sense that now it has the ability to zero us out of the budget 
and makes our work much more difficult. We are not attempting 
to change any relationship with Congress, with the GSA, 
oversight or anything else. We'd like the budget to come over 
here with the money in it so we don't have to do what we did 
this year and that is all that we're trying to do. We think 
that it would make everyone's task significantly easier, and 
I'm prepared to speak to that if the committee wishes me to.
    Senator Warner. Mr. Chairman, if I could have a word on 
that subject. I'm glad you brought it up.
    As you know, this is a reproduction of what we put together 
under the Chafee-Warner administration and it's my 
understanding that your efforts are largely directed to open 
the appropriations cycle. Would that be correct?
    Judge Stahl. Let me put it to you this way, Senator. It's 
late in the year and we needed a method to try to do this, so 
we thought putting it on the Treasury-Postal appropriations 
bill in conference would be a way to do it, but we had no 
intention of changing--I think the language makes it clear--we 
have no intention of changing any of the relationships.
    Senator Warner. I would have to respectfully disagree with 
you on that. I would say up front as you've said up front, I 
will interpose my objections to this. I think the system works 
pretty well.
    It's true this year the Congress, in a sense, is 
circumventing OMB's decision but I think that shows you how the 
system can work with checks and balances.
    Judicial people, we forget, are politicians by nature. 
People often ask me how I got interested in politics. I was a 
law clerk to a Federal circuit judge and he was a brilliant 
politician and a jurist. That's where I learned my first 
lessons. I admire you fellows for going to the appropriators. 
They're always out there ready to solve everything.
    I would hope, Mr. Chairman, that our committee would take a 
look at this de novo, as we say.
    Judge Stahl. Senator Warner, I hope that the committee 
will. I've had a chance, not to speak with you about it, but I 
have spoken with Senator Chafee and he has asked me some very 
hard questions as he has the habit of doing. I'm prepared to 
respond.
    As you know, one of the reasons why we are interested in 
this is in 1998 and again in 1999, there was no money for 
buildings. I have a reasonable suspicion that in the year 2000 
unless a miracle occurs, you will get a budget without any 
money for Federal buildings from OMB. I have had numerous 
conversations with OMB; they're interesting; they're 
informative; and when all is said and done, it's zero. That was 
why we were trying.
    Senator Warner. What a great boon to Members of Congress to 
say when they go back home and get the courthouse, I overruled 
the President and got it for you.
    Judge Stahl. That's politics also, I guess.
    Senator Chafee. It wasn't my intention to get into this but 
it has been raised. We're now in the question period. Have you 
completed, Judge? Why don't you finish up?
    Judge Stahl. I was just going to say that we've learned a 
lot over the past several years. I think we're building very 
high quality, functional court facilities that are going to 
last for decades to come. I think the public is being well 
served. I think we can all be proud of the buildings we're 
putting on line.
    I have my chambers in Concord, New Hampshire and that 
courthouse is a wonderful building.
    Senator Chafee. Which one is this?
    Judge Stahl. That's the one in Concord, New Hampshire, been 
on line for about a year.
    Senator Chafee. I think it's called the Rudman Courthouse, 
isn't it? You can't go too far wrong with that. We encourage 
naming courthouses after members of the Senate.
    Judge Stahl. I saw the Senator yesterday afternoon and he 
asked me how the courthouse works, and I said it works very 
well. I told him I was going to see all of you this morning and 
he asked me to send his regards.
    Mr. Peck. Mr. Chairman, we just dedicated the Howard Baker 
in Tennessee.
    Senator Chafee. Well, you're on a roll and I suggest you 
keep it up.
    Let me just say this. I think although courthouses are not 
a major part of the daily work you do, Mr. Peck, obviously they 
attract the most attention.
    I'm very sympathetic of the problems that you're 
encountering in trying to address the security, traffic flows, 
and circulation. It's just a very difficult problem. We watch 
them around the Senate buildings trying to provide security. In 
Oklahoma City a truck and some fertilizer did tremendous 
damage, but we can't have every public building set back 100 
yards from the nearest street. So it's a very difficult task 
that you are undertaking. I'm very sympathetic with the 
challenges you face.
    Mr. Peck, I don't want to get into a long back and forth on 
the proposal that Judge Stahl is talking about but could you 
give us your thoughts on that. Basically, what the courts are 
suggesting is taking OMB out of the review process.
    Mr. Peck. I have to say we haven't cleared any 
Administration position through OMB but it's fairly safe to 
assume that the Administration and OMB, in particular, would 
object.
    I have to agree with Senator Warner, the system works 
right. I happen to have made the same political argument to the 
people in the Administration of my own party about the specter 
of having the Administration oppose and the Congress take 
credit for all the projects, but I have to say just in terms of 
good public policy, I'll put it this way. If we were to build a 
new GSA headquarters building, I would come to you and suggest 
that someone else take a look at our layout and our budget so 
that someone other than us could set the budget.
    One of my concerns in this proposal is that one of the 
advantages of having OMB in the process is that we do have to 
answer some hard questions about the cost on all of the 
projects and are asked hard questions about balancing 
functionality and cost. I think that's a useful thing to do.
    That would sum up why I would be concerned about this 
proposal.
    Senator Chafee. Let me say that it's been extremely helpful 
to us since you've adopted this prioritization process. Having 
the list in the order of priority is very helpful to us. 
Obviously this committee can't tell whether San Jose comes 
ahead of Savannah. That's something you know much more about 
than we do. Such prioritization has only been going on for the 
last couple of years, and it's much better now than it was in 
the past.
    Mr Peck, one of the questions I had is the question Senator 
Sessions raised about the U.N. Mission. I know there's going to 
be testimony from the representative U.S. Mission. Could you 
tell us your thoughts on the proposal for the U.N. building?
    Mr. Peck. Yes, sir. The issue is this. We have a small 
building on a site across from the U.N. that houses the U.S. 
Mission to the U.N. It is some 40 years old.
    Senator Chafee. How old?
    Mr. Peck. Forty. The electrical systems are out of date, 
the security systems are out of date, we can't provide 
sufficient heating, ventilation and air conditioning in the 
building. So it's obsolete. We need either to completely 
renovate or abandon, quite honestly.
    It is a quite valuable site, both in terms of its location, 
obviously, and I would also note it is a free site to the 
Government, which is very important. It was donated to the 
Government by the Rockefeller family.
    To take the mission somewhere else in New York, we would 
certainly have to pay a pretty penny for a site, so it's the 
right location. We really underutilize the site. You would see 
that's surrounded by rather tall buildings and this one is 
rather short.
    Senator Sessions rightly calls attention to the fact that 
it is an expensive job and there are several reasons for this. 
There is a demolition expense on the site, it is a very tight 
site which means that to build it, because it's surrounded by 
other buildings, the construction equipment can't back away and 
you pay a premium for constructing on that kind of site.
    By our estimate, the construction cost, sort of comparing 
apples to apples, is about $305 per gross square foot, which I 
will tell you is not cheap but in New York City for high end 
office construction with security requirements we would have in 
a building like this, we think that's the fair estimate of 
those costs.
    Again, I would just note that the Mission obviously has to 
be housed someplace. When we did our analysis of leasing 
buildings somewhere else or building on this site, our analysis 
actually concluded that this is the cheapest, long-run 
alternative for the Government. I stress in the long run you're 
looking at 30-year costs total and our prospectus reflects that 
analysis.
    Senator Chafee. My time is up. Senator Baucus, did you have 
a statement?

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    [The prepared statement of Senator Baucus follows:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Thank you, Mr. Chairman for holding this hearing.
    Mr. Chairman, today we will examine the public building projects 
requested by the General Services Administration for Fiscal Year 1999. 
We will also be discussing 14 courthouse projects that were not 
requested by GSA but that are the Fiscal Year 1999 priority projects of 
the Administrative Office of the Courts.
    I have long been a proponent of the need for close oversight of the 
public buildings construction and leasing process. This committee takes 
its role in approving public buildings projects very seriously. This 
hearing will allow us to focus on not only the individual projects, but 
the process for proposing the projects to Congress.
    Three years ago, the Senate unanimously passed a reform bill that I 
authored with the support of this committee. Unfortunately, the House 
failed to take any action on this measure. But we haven't given up. I 
am very pleased that the Chairman of this committee and the Chairman of 
the subcommittee are also interested in reforming the public buildings 
approval process.
    I thank Senators Chafee and Warner for joining me yesterday in the 
introduction of the Public Buildings Reform Act of 1998. It is very 
important that Congress take the necessary steps to ensure that all 
public buildings projects especially courthouses are appropriately 
reviewed by GSA and Congress. This bill is a step in that direction.
    Mr. Chairman, I intend to ask Mr. Peck from GSA to assure this 
committee that all of the projects we are discussing today have been 
closely examined by GSA. As you know, the courthouse projects are not 
part of the GSA budget proposal. That is fine. Congress can set its own 
priorities separate from GSA.
    But courthouse projects must still be accompanied by the 
appropriate justification documents even if those documents are 
unsigned prospectuses.
    We need to be sure that the courthouse projects have been scrubbed 
and reviewed by the experts at GSA. There have been some well planned 
and designed courthouses--Alexandria, Virginia and St. Louis are fine 
examples. We need more such projects. We owe it to the Senate and we 
owe it to the taxpayers.
    Again, I thank you for holding this hearing and look forward to the 
testimony of our witnesses.
    Senator Baucus. Mr. Peck, obviously we're a little 
concerned because these prospectuses are unsigned, it doesn't 
have the GSA review. Can you assure us that these projects have 
the same scrutiny that a signed prospectus would have in terms 
of costs, cost overruns, quality control and so forth? 
Obviously, we're concerned about what we're doing here because 
these are not signed.
    Mr. Peck. The 11-Bs, yes, they have gone through the same 
benchmarking process that all of our other projects have gone 
through, so they are scrubbed as much as we can scrub these 
projects, yes, sir. The answer is we think that they are fair 
prices and about as inexpensively as you can do them and get 
the job done.
    Senator Baucus. So for the purpose of the taxpayers getting 
their money's worth, there's no difference whether they're 
signed or unsigned with respect to the review that you've given 
them?
    Mr. Peck. Yes, sir.
    Senator Baucus. That's the only question I have at this 
point.
    Senator Chafee. OK. By the early bird rule, I think Senator 
Allard was first.
    Senator Allard. Thank you, Mr. Chairman.
    I'd like to pose a couple of questions to Judge Stahl. How 
much do judges enter into the negotiating of a new building, 
new office space and whatnot? We've had some controversy in the 
State of Colorado where a new judge came onto the bench and he 
said, ``When I come onto the bench, I'd like to have this, this 
and this.'' A newspaper reporter got hold of it and said, ``You 
know, this seems like it's inappropriate.''
    Our office had to deal with it. And so my question to you 
is, when judges take on these duties, do they use office space 
to negotiate, whether they assume the duties or not?
    Judge Stahl. First of all, the Colorado situation I think 
was somewhat unique and as you know, that ultimately never 
happened.
    Senator Allard. Yes.
    Judge Stahl. I can only tell you that when I became a 
Federal judge, the space that I was given to occupy had not had 
any work done on it in, I think, 17 years. There was falling 
concrete, torn rugs and unpainted walls. I believe we spent 
something like $5,000 in 1990 to paint the rooms and to put new 
rugs on the floor. I didn't negotiate with anybody except the 
Boston office of GSA.
    Senator Allard. I know, but when you got started, I'm sure, 
but I just wondered if things have changed to date?
    Judge Stahl. I don't think so. We are very careful about 
this. The circuit councils do have the oversight. I routinely 
get things circulated to me saying, ``Will you approve this?'' 
I ask questions and I think everybody does.
    I think that by and large, most of the judges I know are 
very, very conscious of these issues and we try to be careful.
    Senator Allard. The only reason I bring it up is just to 
call everybody's attention that these projects do get 
scrutinized and I think you have to be careful.
    Judge Stahl. I agree with you, Senator. I couldn't agree 
more.
    Senator Allard. The other thing I wanted to ask you about 
is when a decision is made to build a courthouse for a 
particular area, are people other than the judiciary itself 
consulted? For example, in a large State like Texas, maybe 
Alaska, Colorado, some of the larger western States, access to 
the courts by law enforcement, for example, gets to be an 
issue. Sometimes they have a need just for transportation from 
some distant part of the State. I think sometimes the pressure 
is where to locate it, and judges like to live where there's a 
metropolitan area but there may be a need for outlying areas.
    I'm just asking, is there a way for law enforcement and 
maybe prosecutors and whatnot to have some access and some 
input into the process?
    Judge Stahl. Congress sets forth the places where courts 
are held. One of the cost-containment programs the judiciary 
has undertaken in recent years has been to close courthouses 
which are not used very much.
    My State of New Hampshire is a good example. The State runs 
north to south and if you know New Hampshire at all, the 
northern part of the State is relatively sparsely populated. We 
had a lovely courthouse which Senator Chafee mentioned to me 
the other day in Littleton. In the late 1970's, the decision 
was made by the judge sitting there simply was not enough 
business in Littleton to warrant having a place of court.
    Senator Chafee. Because you have to have the clerks there, 
all the retinues that go with it?
    Judge Stahl. Exactly. It was too much money for the amount 
of use we were giving it. It was a great place to go in the 
fall or in ski season but we didn't think it was appropriate. 
That was closed and is now used by the State as a courthouse.
    Senator Chafee. And now everybody has to go down to Nashua 
or Concord.
    Judge Stahl. Yes. It is true that in that sense, I think 
that law enforcement officers, lawyers, and the public. I 
travel every day to Concord. I don't live in Concord. I travel 
on the interstate every day to get to my office.
    Senator Allard. I'm not disputing the question, I'm just 
wondering if they have an opportunity. I'm not disputing your 
decision, I'm just wondering if they have an opportunity to 
make some comments.
    Judge Stahl. In our State, yes, they would have had--in our 
district they would have been able to talk with us about it, 
but ultimately the decision is made here, the places of court 
are made here.
    Senator Allard. I see.
    Judge Stahl. Sometimes we add them and sometimes we close 
them and you have input into when we want to close places of 
court.
    Senator Allard. When the recommendation comes to the 
Congress, who has major input on that recommendation?
    Judge Stahl. It will ultimately come through the Judicial 
Conference. My committee, for instance, will get a 
recommendation from a circuit as part of our budget saying that 
we should close a courthouse in ``X'' location.
    Senator Allard. And the judges in that circuit basically 
put that proposal together?
    Judge Stahl. Right.
    Senator Allard. My suggestion to you is when they're doing 
that, have them reach out a little bit. Maybe they do but I 
think it's important that they reach out and at least get some 
input from these side groups that may have an interest.
    Judge Stahl. We just had an experience like that in the 1st 
Circuit where there was a lot of input from the public, from 
the local lawyers, and the court is still open.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Chafee. Thank you very much, Senator.
    Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman.
    Mr. Peck, with regard to the U.N. Mission building, the 
design, planning, construction cost is $53 million which would 
be a cost of $378 per square foot. Would you dispute that?
    Mr. Peck. No, sir. What I stated before was actual 
construction. That includes demolition and design costs, 
management and inspection.
    Senator Sessions. You say that's going to come in at $300?
    Mr. Peck. No, sir. I said the construction, just 
construction, the cost of the construction contractors and 
fitout is $305. You are correct that you then add to that 
design, demolition and all that and it comes up to $378.
    Senator Sessions. So the real cost is $378 because if 
you're going to tear it down, you've got to do the demolition?
    Mr. Peck. Yes, sir.
    Senator Sessions. In addition to that, you don't have in 
this costs, fortunately--no real estate costs. You don't have 
to purchase any real estate?
    Mr. Peck. That is correct.
    Senator Sessions. In addition to that, I understand the 
State Department intends to contribute $24 million in addition 
for security. Is that your understanding.
    Mr. Peck. Yes, sir.
    Senator Sessions. So we're talking about, as I calculate 
it, $548 per square foot. Let me ask you, in the history of 
Federal construction, have you ever heard of a building costing 
$548 per square foot for an office space?
    Mr. Peck. If you'll allow me, let me compare apples to 
apples. The extra money the State Department contributes, we 
don't track that generally in our system, but I can still give 
you an answer that $378 a square foot, even $305, is high. As I 
said, it is a large amount of money and it has to do with 
security and the tight site and construction costs in New York 
City, quite honestly.
    Senator Sessions. I don't know what we can do about it, but 
I don't see how we can spend that. I think you're just going to 
have to reevaluate the project. Maybe renovation is going to 
have to be necessary. Maybe some of the space can be shifted to 
noncritical, it doesn't have to be right onsite, could be 
separated from the project.
    I noted, Mr. Chairman, in my office I just ran a total. It 
looks to me like for the U.N. Mission of 292 employees, that 
would be 470 square feet per employee whereas in our office in 
Russell, we have 131 square feet for employees. There may be a 
need for more storage or something that would go in with this 
building but that's 3.5 times as much square footage per 
employee. Maybe we ought to use some modern techniques to 
utilize our space better.
    It would seem to me being able to renovate the air 
conditioning system would not be impossible to do.
    Mr. Peck. Senator, let me suggest how we would go about 
that because we've already looked at some of these and I could 
get some additional cost figures.
    Because there's not enough space, we would probably lease 
space somewhere nearby in Manhattan. That's expensive in and of 
itself. I think there is need for some space in the building 
for receptions and other kinds of purposes which is what drives 
up the space per employee when you do it on that basis. I think 
probably Ambassador Burleigh could probably talk to that better 
than I can.
    Senator Sessions. Sometimes you have to lease hotel 
ballrooms for receptions and things. Businesses have to do 
that. They can't always have one in their main office building.
    That to me is one of the most extraordinary figures I've 
seen that I can imagine.
    Senator Chafee. Instead of doing it just in square feet, 
what does the project work out to, Mr. Peck, roughly?
    Mr. Peck. The total project cost?
    Senator Chafee. The total project cost that you envision. 
In effect, as I understand it, the proposal is to take the 
existing building and remodel it, is that it?
    Mr. Peck. No, sir. We would demolish this building and 
build a new one.
    Senator Chafee. Demolish it and start from scratch. When 
it's all said and done, what would the overall cost be?
    Mr. Peck. It's $53.5 million, not including the $24 million 
that the State Department would add for security and other 
aspects. If you add that, it's $77 million.
    Senator Sessions. That's a lot for small office space for 
300 employees.
    Judge Stahl, let me say I like the priority list and I 
agree with you that courthouse space ought to reflect the 
augustness of the Federal Court system and that sort of thing. 
As Senator Allard mentioned, Federal judges sometimes are 
pretty tough on GSA and pretty demanding and I wonder whether 
three circulation systems are really necessary, how much 
security is really necessary, but fundamentally let me ask you 
a question.
    I just want to ask don't we need to be tougher about how 
much courtroom space is allocated per magistrate and per senior 
judge? Isn't it possible that judges could share space, share 
courtrooms and even the ceremonial courtrooms could be reserved 
not just for the presiding judge but for the major trials in 
the courthouse and people have to, on occasion, do a little 
working together? Couldn't we save some space in that regard?
    Judge Stahl. I'm glad you asked me that, Senator. It's a 
reasonable question to ask.
    You've asked several different questions but let me speak 
to the last one first, the courtroom sharing. It's something I 
know something about because when I became a Federal judge, we 
did not have a courtroom for me and I shared a courtroom with 
an active judge. We had two active judges. I shared my space 
with the other two judges and we worked out a system and the 
system was that I had 2 weeks, they had 2 weeks.
    The difficulty with that is that is not the way trials 
really work. I used to begin with a list. Assume I had ten 
cases on my list. There were two active judges and we had one 
senior at the time and we had two courtrooms. The result was 
that we had a very, very long list of cases. I had over 400 
active cases all the time and I think I was working pretty 
hard.
    Today, each active judge in the District of New Hampshire 
has available to him a courtroom. Each judge carries about 140 
cases. The cases get decided more quickly, so the backlog has 
been reduced. It works much more efficiently, it works 
smoother. You don't have the problems of having a list collapse 
and then not being able to get space, the cases to fill up the 
list, you don't have a situation where a judge goes into the 
next judge's time and his cases get canceled.
    For active judges, I think the Judicial Conference policy 
is absolutely right. For senior judges who are not carrying a 
full caseload, yes, you can work out sharing and we're doing 
that. That's exactly what our program intends to do as we 
design the new courthouses.
    The courtroom itself is one of the least expensive parts of 
our courthouse. There is a need for chambers for every judge. 
We are the most expensive part of the process. You want to make 
us as efficient as you can. I think our system does do that.
    I'll speak briefly to the triple circulation. I cannot tell 
you how many times I sentenced someone, got on the elevator 
with a member of the family, a defendant's girlfriend or 
someone else. I cannot tell you how many times we had jurors 
mixing with lawyers and witnesses. I cannot tell you how many 
times I stepped on the elevator and was confronting a man or a 
woman in an orange suit and in chains. It is uncomfortable. 
Federal judges are at risk these days.
    I can tell you that I am much more comfortable, and I'm not 
an easily scared person, not going to work in the morning and 
being on the same floor as Pretrial Services, Probation and the 
like. It makes a difference. That's why we have the triple 
circulation.
    Senator Sessions. I appreciate that, Mr. Chairman. My time 
is up. I just know that we have magistrates and senior judges 
and many times they're reluctant to give up or share a 
courtroom that may be in use less than 10 percent of the time. 
It can make a difference in whether a courthouse is inadequate 
or whether or not it can be rearranged in a way to preserve it.
    Judge Stahl. If I may add one thing. In Concord, our 
courtrooms are unassigned. No judge has a courtroom. They are 
assigned to the cases. In other words, the clerk starting a 
week says to Judge X, you will be in Courtroom 3. If you have 
the large case, we don't call it the ceremonial courtroom, we 
call it ``special purpose'' for the big cases, the 
multidefendant trials. That's how we do them. They are not 
assigned to judges. That's happening in many districts.
    Senator Chafee. Also you have a system, as I understand it, 
for the senior judges. There's not a courtroom available for 
them on a regular basis. They have to share with the active 
judge, is that right?
    Judge Stahl. That's what we're doing. That is the program 
we have adopted for our new courthouses--to take a look at all 
of this and sizing them, yes. Those senior judges who do not 
carry a full caseload will not, in the normal course, have a 
courtroom. They will share. That's the purpose of the policy. 
We are attempting to implement that.
    Senator Sessions. I think we've got to look at that and I 
do know of circumstances in which you couldn't get a grand jury 
room because nobody would give up, a senior judge or whatever, 
a little used courtroom to be made into a grand jury room. I 
think we've got to use the space wisely.
    My general philosophy is we ought to wait until we 
absolutely have to have a courthouse and then build a great 
courthouse and not start building them before it's necessary.
    Judge Stahl. I think that's what we've been trying to do. I 
think what the Senator says is accurate. I think that is our 
whole approach today with the prioritization, the way we go 
about prioritization, the way we make the determination of this 
list. We are not doing it the way it sometimes happened in the 
past. I think we've made, at this committee's request, 
tremendous strides in doing this more rationally.
    Senator Chafee. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    For the benefit of the committee, and I cleared this with 
the Chairman and the Ranking Member, but my subcommittee will 
hold a hearing on the Patent Trademark Office consolidation, 
Mr. Peck, on Wednesday, the 23rd at 2:30. There's been a great 
deal of criticism directed at that project which is before this 
committee, both within the Congress and elsewhere. I just want 
to give everybody an opportunity to get all the facts on the 
table. We welcome you to attend, Mr. Peck.
    Mr. Peck. I will be here next week.
    Senator Warner. I appreciate that. By the way, I think you 
do a wonderful job and we're fortunate to have you.
    Mr. Peck. Thank you, sir.
    Senator Warner. It's not an easy one.
    Judge I hope this committee has the benefit of your 
services for an indeterminate number of years to come. You're 
the prototype of the man who can get this job done.
    Judge Stahl. Like Robert Peck, I believe that the----
    Senator Warner. You say you like him.
    Judge Stahl. I both like him and as Robert Peck says, I 
think that when we're all done with this, we want to look back 
at what we did and say we gave the public a real good project, 
one which will last for not 10 years but 100 years. I want 
these buildings that we build to be good enough so that when 50 
years comes up, people will say you can't do anything except do 
some rehabilitation. It's too good. I think we are building 
appropriate buildings in the public spaces.
    Senator Warner. I think you've done a marvelous job. It's 
been my privilege to be a modest part of the procedure through 
these years.
    I share fully your concern about the triple circulation. 
It's essential that we do that, absolutely. You're going to get 
my full support.
    Judge Stahl. Thank you, Senator.
    Senator Warner. On the question of the U.N. Mission 
headquarters, I'm very much in support and I recognize this is 
the high dollar figure and I listened very carefully, Mr. Peck, 
when you responded to Mr. Chairman's question about the cost of 
it and you said a phrase which may be known in the real estate 
business but I think we need to revise it for those of us just 
in everyday life, my understanding of this cost is it is 
commensurate with comparable construction for the commercial 
side, given that you've got to have an added cost for security 
which the commercial side would not likely incorporate. Is that 
a phrase you could adopt?
    Mr. Peck. Yes, sir. What I was trying to say was when you 
just throw out the number figure unrelated to cost in New York 
City and the cost of this kind of construction, sure, it's a 
big number. I'd like to say on all of our projects, they are 
not inexpensive.
    Senator Warner. You accepted and the record is clear. I 
also think each of us here in the Congress has had more than 
one opportunity, I'm sure I've had many, to visit the U.N. It's 
a unique organization, it's the object of great criticism. 
Nevertheless, I personally think it's essential for the United 
States to be an integral part of it and to have headquarters 
which reflect the leadership role we must take.
    There's some suggestion that this facility incorporate 
space for the housing of the Ambassador and the Deputy Chief of 
Mission. Can you comment on that?
    Mr. Peck. I'd rather defer that to the State Department. 
They have more information about it. The proposal we've put in 
is that the Deputy, Ambassador or some other high official 
would occupy a residential space in the building.
    Senator Warner. I'll divert quickly to another question, 
Mr. Peck. On the DOT, are you going to go ahead with that 
before November 1, that leasing arrangement?
    Mr. Peck. Yes, sir. Well, let me put it this way. As I 
understand the language in both appropriations bills now in 
conference direct us to go out on the market with a lease by 
November 1. Assuming that is the language that comes out in the 
bill, that's what we will do.
    Senator Warner. Good. It's very important that we proceed. 
That's a badly needed project.
    I thank the Chair and the Ranking Member. That concludes my 
questions.
    Senator Chafee. Senator Wyden?

             OPENING STATEMENT OF HON. RON WYDEN, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. I just 
have a brief comment.
    I'm very pleased that you've scheduled this hearing. As you 
know, Senator Gordon Smith and I have teamed up on a bipartisan 
basis on the matter of the courthouse in Eugene, Oregon. I was 
taking note of Senator Sessions' important comments.
    The Marshals service and the GSA have found that the 
current situation in Eugene, Oregon is life-threatening and 
note that the staff memo deems it one of the worse security 
situations now in the United States.
    Senator Smith and I note in a recent letter, there have 
been prisoner escape attempts and a variety of security 
problems associated with this.
    We just want to assure you, Mr. Chairman and members of the 
committee, on both sides of the aisle, that Senator Smith and I 
want to work very closely with all of you to get this project 
moving with site and design very quickly because we do think 
it's urgent in one of the fastest growing parts of our State, 
Eugene, Oregon.
    I thank you for the time.
    Senator Chafee. You've noticed it is No. 4. Anything else?
    Senator Wyden. No.
    Senator Chafee. Senator Baucus?
    Senator Baucus. Thank you, Mr. Chairman.
    Judge Stahl, I'd like to address a little the questions 
raised by Senator Sessions. First, let me tell you I have the 
highest regard for the Federal judiciary. When I grew up, law 
school, I thought, boy, that's it, to be a Federal judge, maybe 
a Court of Appeals judge, the Federal judiciary is the 
protector of American freedoms.
    In fact, a course I took in college called Civil Liberties, 
basically a constitutional law course, is one of the events 
that got me interested later in public service, with just a 
deep reverence for civil liberties, particularly as protected 
by the Constitution. So that's the base.
    Senator Sessions did ask a couple of interesting questions, 
that judges don't give up their space. They're so proud of it 
and they want to use it, it's their's and so forth. We all know 
sometimes judges can be judges and don't give up their space. 
What do you do about a problem like that?
    Judge Stahl. Maybe I come from a benign area of the world 
but in New Hampshire, we don't have that kind of a problem. 
When I became a district judge, Judge Loughlin, who had taken 
senior status, said to me, ``You need the chambers. I will give 
up the chambers and you take my chambers because you need more 
space than I'm going to need.'' He took some temporary space, 
we built a small office for him in the old courthouse and 
that's what happened in New Hampshire.
    When I came on board, I was the third judge. We only had 
two courtrooms as I explained and each judge had a courtroom 
but there was no problem. I shared. It was not efficient but 
they gave up their space.
    Senator Baucus. I appreciate that but I'm not talking about 
New Hampshire. I'm talking about just where those problems do 
occur in other parts of the country, what does the Federal 
judiciary do about it?
    Judge Stahl. The Circuit Council can do something about it. 
The Chief Judge of the district can do something about it.
    Senator Baucus. Do they?
    Judge Stahl. I think in some cases, yes, they do.
    Senator Baucus. I asked the question because I know lots of 
cases where judges are not carrying their load and it is 
extremely difficult to get a judge who is not carrying his fair 
caseload and as a consequence puts that load on other judges, 
to get the judge who is not carrying his fair share to change. 
They're judges, they're independent judges. It's extremely 
difficult.
    I know from experience if that's the case in this 
situation, it probably is the case in the situation that 
Senator Sessions is talking about.
    Judge Stahl. The only thing that I can say is this. If you 
are talking about a senior judge who has a courtroom that is 
underutilized, our push is not to have that happen. If you are 
talking about active district judges, at least in the districts 
I know of, the cases are assigned on a wheel and a judge who is 
not performing well may be further behind but we keep on them.
    I can tell you that every quarterly session of our Circuit 
Council, and I'm sure it's true of every circuit council, we 
review judges who are behind in their work. Under the Biden 
bill, all that has to be reported.
    It's not perfect, I will grant you and I will also grant 
you that some people are not reasonable. However, I think there 
are efforts made to deal with this problem. It's not an easy 
problem. There have been changes.
    Senator Baucus. I urge you to work harder because it really 
is not, in my experience, near where it should be.
    You mentioned the judges' chambers, maybe you meant 
courthouses, security tends to be more expensive than other 
Federal buildings. It is for that reason I hope we can pass 
again legislation to have the courthouse applications go 
through the GSA and also OMB so that Congress has an 
opportunity to have their views as well.
    I must say, Judge, I disagree with the view that 
courthouses should be submitted only directly from the 
judiciary to the Congress without being screened by OMB or by 
the GSA. That's a view I very much disagree with and I hope we 
can get that resolved.
    I also want to say, Mr. Peck, I want to echo the views of 
Senator Warner. As you know when you came to Montana, we had a 
very difficult Federal building situation and you did a great 
job.
    I want to tell the Chairman and everyone else that Mr. Peck 
came to Montana, we'd already beat up on him for all the 
problems we were having and he was terrific. He just sat there, 
he was very direct, very straight, took all the questions and 
gave good, solid answers. Even more than that, he and his 
people sat down and worked out a solution to the problem.
    The basic problem was that people in Montana felt they 
weren't being listened to at first but now I know you've set up 
procedures. I want to tell you, Mr. Peck, in Helena, Montana, 
people feel they've been listened to.
    Mr. Peck. Thank you.
    Senator Baucus. They very much appreciate that approach you 
took.
    Mr. Peck. Could I also say that you also ran a very fair 
field hearing in a situation in which you might have thrown 
fuel on the fire and instead ran it in as fair a manner as is 
possible. We appreciated that as well.
    I was proud of the career GSA people who stood up and 
admitted they had made a lot of mistakes. I think that helped 
us a lot.
    One thing I'll note is that in Billings where we did not 
have as good an outcome, we nonetheless sent our people back 
and just last week had a session with people in the city and 
there was a very positive article in the newspaper with 
everyone talking about a better process.
    Finally, I will tell you that this has helped to prompt us 
to roll out at the beginning of next year a new community 
planning program in the public building service. We are going 
to train our folks on working with communities as early as 
possible in projects and how you do that in a way to carry out 
our responsibilities but also to make sure that we listen to 
people and in fact carry out our own guidelines so we don't get 
into those situations again.
    Senator Baucus. You've done a great job.
    Thank you.
    Senator Chafee. Thank you very much, both of you.
    Judge I just want to say that I believe the First Circuit 
is extremely well represented on the Supreme Court, your 
alumni. You have two?
    Judge Stahl. We have two.
    Senator Chafee. That's pretty good for one circuit.
    Judge Stahl. They are both fine people and good friends.
    Senator Baucus. We've got three from my law school.
    Senator Chafee. That's all right too.
    Thank you both very much.
    If we could have the next panel, we will start right off 
with the Honorable A. Peter Burleigh, Acting U.S. 
Representative to the United Nations. Judge Ponsor will be here 
and perhaps Judge Edenfield. I'm not sure.
    Ambassador Burleigh, will you proceed?

STATEMENT OF HON. A. PETER BURLEIGH, ACTING U.S. REPRESENTATIVE 
   TO THE UNITED NATIONS, U.S. MISSION TO THE UNITED NATIONS

    Ambassador Burleigh. Thank you very much.
    I appreciate being here this morning to have this 
opportunity to discuss with the committee these plans for the 
construction of the new office building for our mission to the 
United Nations in New York.
    The Department of State is actively committed to the 
efforts of the United Nations to grapple with the complex 
international concerns inherent in the post-cold war era. The 
Mission to the United Nations, our mission to the United 
Nations, is a vital and visible part of that effort. This 
mission building, which was built on land which was a gift from 
John D. Rockefeller, Jr. to the U.S. Government, constitutes 
the platform for the United States' activities and is located 
in a prime location right across the street from the main 
United Nations building.
    The existing building was constructed on a one-third acre 
site in 1959. The present structure limits the net occupiable 
floor space. Its 39-year-old mechanical and electrical systems 
are in need of replacement to avoid potentially hazardous 
conditions. The age, the cost to maintain and repair these 
systems, and the lack of energy efficiency would necessitate 
costly replacement of the equipment in the building that no 
longer serves the U.S. Government's needs.
    In an effort to determine the best solution to this 
problem, the GSA studied the building and our program needs. 
They determined that the building was in a sufficient state of 
disrepair that it could hinder our ability to protect our 
people in this vital mission they perform. There was no 
acceptable means of renovating the structure or adding onto it 
that would meet our current and future requirements.
    In June 1997, GSA proposed that the existing building be 
demolished and a new building be constructed on the same site 
with the U.S. United Nations, our Mission staff, relocated in 
nearby, temporary leased space. The new building will maximize 
use of the site to provide additional space while improving the 
net to gross occupiable square footage.
    It will further enhance the physical security of the 
building and provide essential protection to the information we 
manage. I cannot overemphasize the importance of protecting 
information which is integral to the diplomatic negotiation 
process. Due to lack of space in the existing building, much of 
the existing special purpose space has been converted to office 
use, resulting in staff being displaced for meetings, events 
and by visiting dignitaries. In addition to meeting the U.S. 
U.N. Mission needs, the proposed building would allow us to 
provide consolidated office space for the U.S. Information 
Agency and the Department of State's Office of Foreign 
Missions, both of which are currently housed in separate leased 
buildings in Manhattan. The resulting rent savings will offset 
some of the increased annual charges for the new building.
    As stewards of this asset, GSA recommended the demolition 
of the existing building and construction of a new, larger 
building. Our desire to remain at this site is a sign of the 
U.S. commitment to the United Nations and a valuable symbol of 
our leadership in that organization. The Department of State 
approved GSA's proposal and seeks your support and funding of 
this essential project.
    GSA stands ready to proceed with the A&E design of the new 
building in fiscal year 1999. We are exploring options to lease 
temporary space for our mission in mid-1999 with planned 
occupancy in January of 2000. If all the funding is provided 
and the schedules are not changed, we would take occupancy of 
the new building late in 2003 or early 2004.
    Mr. Chairman, we're very aware of the financial constraints 
in this budget environment and we continually strive to be good 
stewards of public funds. We believe this is an appropriate 
time to undertake this project and request your support and 
that of the committee for the GSA budget of approximately $55 
million.
    The Department of State will have additional costs for this 
project as we heard earlier. These relate to construction 
security, above standard construction, telecommunications and 
other associated modifications. Funding for these items will be 
requested through the Department of State's normal 
appropriations process.
    Let me close by stressing that with the end of the cold 
war, U.S. multilateral diplomacy has become more critical and 
more demanding than ever before as we strive to ensure global 
peace. A state-of-the-art facility that provides enhanced 
security and telecommunications technology, as well as 
additional space to accomplish our mission is key to continued 
U.S. leadership in the new U.N. in the new millennium.
    In that regard, Mr. Chairman, I would like to say how much 
I appreciated hearing what Senator Warner said in his very 
strong statement a few moments ago, that the U.N. must play a 
key role in our U.S. foreign policy pursuits. Similarly, we 
agree with him that the structure we work from, the platform we 
work from in New York, it has to be something we're proud of; 
reflecting our leadership role.
    Mr. Chairman, if you'll allow me, I'd like to respond 
briefly to some of the questions that Senator Sessions raised. 
I just want to make two or three points about them and then of 
course I'm happy to answer any questions you or Senator Baucus 
may have.
    I am a career diplomat and I am not an expert in 
construction. I do have with me here, Mr. Vincent Chaverini, 
who is our Deputy Assistant Secretary of State for Projects for 
foreign building operations. If you have detailed questions 
about the costs, I would like to ask him to help me respond to 
these.
    I want to make an appeal to the committee which is, one, 
the comparisons here should be to embassy construction costs 
overseas. We have the same standards in New York and we are 
insisting that we have the same standards for all the obvious 
reasons that we are well aware of now with the blowing up of 
our two embassies very recently with our colleagues endangered. 
We have the same kinds of threats. This is a diplomatic 
mission. It happens to be in New York, but we have the same 
kind of security standards, so some of that additional cost 
that is coming out of the State Department budget is directly 
targeted to that. That is No. 1.
    No. 2, there are construction security costs which are very 
unusual and as I understand it, in domestic construction, and 
we follow FBI standards, so we are required to do so and that 
means we have intense supervision of the entire construction 
project as it is proceeding in New York.
    Senator Chafee. To make sure somebody is not putting a 
listening device in the eagle?
    Ambassador Burleigh. Yes. Senator, we have the same 
security standards inside the building, that is, the required 
protection of national security information as any embassy 
would overseas. These are requirements that are dictated by the 
intelligence community. This is not an option for the State 
Department. If we're going to have a full functioning embassy, 
which is what this is, we have to have special procedures which 
we can brief the committee on if you would like maybe in 
another forum about exactly what those standards are, but these 
are not optional.
    If our Ambassador to the United Nations is going to have 
the information he needs to do the job in New York, we have to 
have those facilities within this structure. That adds to costs 
as well.
    We have to worry about the threat level. This is not unique 
to State Department buildings around the world but it's 
something I noticed you were discussing with regard to the 
courthouses in the country. After Oklahoma City and the World 
Trade Center bombings and the bombings of our colleagues in 
Nairobi and Dar es-Salaam recently, this is very much on our 
minds that we have to keep constantly under review the threat 
to our employees in New York. Even though we're here in the 
U.S., we are targets and we are vulnerable.
    I'd request the committee take that into consideration as 
well as you look at these cost questions.
    With that, Mr. Chairman, I'd like to stop my presentation 
and I'd be happy to field any questions.
    Senator Chafee. We will go with the two judges and then 
come back and ask the panel questions. I think Judge Ponsor, 
you're next.

 STATEMENT OF HON. MICHAEL PONSOR, JUDGE, U.S. DISTRICT COURT, 
                   DISTRICT OF MASSACHUSETTS

    Judge Ponsor. My name is Michael Ponsor. I'm the United 
States District Court Judge for the District of Massachusetts, 
sitting in what we call the western section which is the four 
counties of western Massachusetts, about 900,000 people and 100 
cities and towns.
    I'm here to present my views with regard to the proposed 
new Springfield courthouse and to describe to you why I think 
it is very important that courthouse be built.
    Senator Chafee. Judge, we have before us, as you know, the 
courts' prioritization. We see that Springfield is on the list. 
I think what would be helpful for you to tell us some of the 
issues you are encountering with your courthouse. We don't need 
a pitch for Springfield because it's already on the list and 
indeed, if it wasn't on the list, no matter what you said, I 
don't think I'd be persuaded to put it on the list.
    We have this new prioritization list that comes from GSA 
and the Judicial Conference, and we have confidence in that. 
Since there's no way in the world for us to judge why you come 
ahead of San Jose, why don't you just tell us how you go to be 
No. 6 on the list, and what are some of the problems you're 
encountering. That would help me.
    Judge Ponsor. Very good. Briefly, and in a single word, the 
concern is security with regard to the Springfield courthouse.
    We are in a corridor from New York to Hartford through New 
Haven for gang-related violence, which has been moving into 
western Massachusetts over the past decade in ways that have 
been very upsetting.
    My caseload in the last 10 years has been virtually, at 
least on the criminal side, taken over by gang-related 
prosecutions. Two young boys shot in a drive-by shooting--
that's a case I had a few months ago. I have a gang-related 
case right now, a so-called RICO conspiracy involving eight 
defendants. It will be a 3-month jury trial. We have a number 
of witnesses in the witness security program. Part of the 
charges in this RICO case involve conspiracy to murder a State 
trooper and actual murder of another gang member. So the 
security concerns with regard to our courthouse are very, very 
close to my heart.
    We have situations where we've actually had gang violence 
in the neighborhood of the courthouse. We had 40 gang members 
fighting in front of our courthouse, spilling over into the 
courtyard in front of the courthouse.
    Senator Chafee. In nice Springfield, all this occurring?
    Judge Ponsor. Well, it's a beautiful area, but we have 
problems as just about any locale does.
    For example, one of the things that brought it to my 
attention perhaps the most dramatically, was in 1994 and again 
in 1997. I came into my courtroom in the morning and found what 
appeared to be bullet holes in the courtroom windows shot from 
an adjoining garage. The glass had to be replaced on both of 
those occasions and it's an unsettling experience if you're a 
juror to look across the courtroom and see something that looks 
like a windshield out of an Al Capone movie. We had to keep the 
blinds drawn during that period of time.
    You talked about these circulation of patterns. I'd be 
happy to have two circulation patterns. Right now, we have one 
circulation pattern in our courthouse. Prisoners are moved in 
one circulation pattern, and members of the public have to have 
physical contact with those prisoners as they move through 
these public corridors. I have had many experiences as Judge 
Stahl has.
    Just about 2 weeks ago, I finished a 1-month, major drug 
conspiracy trial, got on the elevator to go home and the wife 
of the defendant, whom I had just ordered to be confined after 
his being found guilty, stepped onto the elevator with me. I 
didn't feel physically threatened but I can tell you there were 
an awkward few moments as we went down to the first floor with 
this defendant's wife sobbing hysterically for the entire trip.
    These types of encounters in my courthouse are practically 
a daily occurrence and we have been told since 1985, following 
a study by the U.S. Marshals Service, that we are essentially a 
disaster waiting to happen. The quote from the Marshals Service 
contained in my letter to you, Mr. Chairman, indicates that 
``The longer the public judiciary, U.S. Marshals Service and 
other building tenants continue to operate under these 
conditions, the greater the continued risk for an incident and 
loss of life at this location.''
    There is no secure sallyport for prisoners that are brought 
in. They come into the same area where we unload the furniture 
and the mail. They have to be surrounded by marshals as they 
are being taken out of their van. So there is no area we can 
close off for prisoners. There is no secure elevator to get 
them into the marshals' lockup. Once they are up in the 
marshal's lockup, they have to move through public corridors to 
get to the courtrooms where they're being tried.
    These are all very serious problems that we have in the 
Springfield courthouse. That is, in essence, the reason why we 
feel we need this new courthouse in Springfield.
    Senator Chafee. We'll have some questions for you later.
    Judge Edenfield?

  STATEMENT OF HON. B. AVANT EDENFIELD, JUDGE, U.S. DISTRICT 
              COURT, SOUTHERN DISTRICT OF GEORGIA

    Judge Edenfield. I have submitted a statement and I will 
take my clue from your observations to my colleague here and 
not present it. You have it for your review. I will tell you 
why we need a new courthouse annex in Savannah, Georgia.
    We were one of the 13 original courts created by the 
Judiciary Act of 1789. Through good luck and good fortune, 
Savannah has retained its historic character and we wish to 
build the courthouse annex in that area. This, obviously, makes 
us have to conform to the rigid criteria that is necessary to 
keep Savannah on the Historic Register.
    We have no security. We have had no security for 20 years. 
I've been riding elevators with everybody I sentence, and with 
the witnesses. The marshals have to blockade the street during 
times of high profile cases, and we do have high profile cases.
    In fact, the attorney general 5 or 6 years ago, Attorney 
General Barr, said we had the second worse gang in the United 
States. They had executed 26 people. One of the initiation 
requirements was to execute someone gratuitously in order to 
become a member. I tried that group. They indeed were a bloody 
group.
    So, like Springfield, Savannah can have its problems. We 
simply have no security. All of the prisoners are loaded from 
the street, they are brought in and use the same elevator with 
the judges and the jury.
    We have outgrown our facility but it is the facility on a 
lot that was designated as a courthouse lot by James Edward 
Oglethorpe and we're very proud of that and we want to keep it 
in an historic district. In order to do that, it cost money 
because we cannot exceed the height of the existing building 
and the outside of the building has to be in conformity with 
the existing building. We're trying to make these two buildings 
operate as one facility. They need to be tied together by a 
tunnel.
    We have, in the State of Georgia, three Federal districts. 
In the Southern District where Savannah is the headquarters, we 
have six places of holding court. We go out, we travel to three 
unmanned districts, that is unstaffed districts. We take the 
clerks and all with us, but our bankruptcy staffs, our district 
court clerks, and the probation officers are largely housed in 
Savannah.
    The State of Georgia has seen fit to build its new prisons 
in the southern district of Georgia and thanks to your 
legislation passing the Prison Reform Act, our load has been 
stabilized for approximately 2 or 3 years but now there are 
three additional prisons under construction, so we foresee 
there will be a dramatic rise in prisoner cases. Of course, 
south Georgia receives the spillover from Florida and showing 
significant increases in litigation and population growth.
    We need a new Federal courthouse annex. We have worked at 
it for 10 years. Nothing had been done to the building since 
1930. Until a few years ago, the electrical cords were not even 
behind the panel. We were running them around and telephone 
wires were on the interior walls of the building. There have 
been so many changes that GSA does not even know now what line 
goes to what, so we're in sad shape.
    The height of my courtroom ceiling is less than nine feet. 
I refer to it as my doublewide mobile home. It is no palatial 
place to hold court. I do think that Judge Stahl hit it square 
on the head when he said we need to build these buildings so 
that they will last for a century with only minor 
modifications.
    I would hope in your wisdom that you would fund an adequate 
building for this annex and allow us to preserve what we have 
which is a grand building. To quote Daniel Webster in the 
Dartmouth College case, he said, ``There are those of us who 
love it.''
    I will answer specific questions but that is the capsule of 
my testimony.
    Senator Chafee. Than you very much, Judge.
    I want to say to Ambassador Burleigh that I'm supportive of 
what you're trying to do. I recognize that it will be open to 
criticism because of all the additional costs that have to be 
incorporated. For instance, I never even thought of that FBI 
situation that you talked about. The question is, if we're 
going to have a building there, then we might as well come to 
terms with the fact that it's going to be very expensive.
    I'm confused whether this is strictly an office building. 
There was some talk, which I didn't quite understand, of 
including the residential quarters for the Chief of Mission?
    Ambassador Burleigh. Under the current plan that the 
committee has before it from GSA, the plan is to have my 
residence in the building--I'm the No. 2 normally in our 
Mission structure. I'm now the Acting Representative. Bill 
Richardson resigned last week to take up his new duties as 
Secretary of Energy and we don't have a replacement who has 
been nominated yet. Normally, I'm considered the Deputy Chief 
of Mission. That would be the analogy with our overseas 
embassies.
    The current plan has a residence for my successors in this 
building, not for the Chief of Mission, not for the Senior 
Ambassador, the permanent representative.
    Senator Chafee. What is the philosophy behind that? If it's 
a security matter, then what about the Ambassador? Say we go 
back a year ago, when it was then Ambassador Richardson. Under 
your proposal, would he not be living in this reconstructed 
building?
    Ambassador Burleigh. That's right.
    Senator Chafee. Just the Deputy?
    Ambassador Burleigh. Just the Deputy.
    Senator Chafee. Why?
    Ambassador Burleigh. In a kind of facetious comment, I'd 
say, and then I'll get to the more serious ones, but the 
facetious but also serious one is we haven't had many 
Ambassadors to the U.N. in recent years who wanted to live in 
the office building as these plans were under consideration.
    The serious one is that we have a long-term relationship, 
our permanent representative lives in the Waldorf-Astoria 
Towers. We have a longstanding relationship with the Waldorf-
Astoria Towers and they provide a lot more than the basic space 
there. The studies that I have seen since this question has 
been raised again with regard to this project have led me to 
the conclusion that at least over a 10-year period, certainly 
it is cheaper for the U.S. Government to continue the current 
arrangements at the Waldorf-Astoria Towers than it would be to 
add the additional space into this building.
    Senator Chafee. I'm not suggesting that; I'm taking the 
other attitude. It seems to me you've planned an office 
building and have in the middle of it a residential quarters 
which must take up a lot of space, with kitchens and so forth. 
It just seems curious.
    Also, I have to be kind of careful of the use of words, but 
I think it's kind of debilitating to live right in the middle 
of where you work. You ought to get out and see something 
different.
    Ambassador Burleigh. Well, Mr. Chairman, I can tell you I 
agree with you completely and I am glad I am not going to be 
living there, but we have been under considerable pressure.
    Senator Chafee. Is it for financial reasons that this is 
being done or for security reasons?
    Ambassador Burleigh. Not for security reasons. Financial 
reasons, I don't think those have loomed large either. Frankly, 
we've been under some pressure from some of your colleagues on 
the other side of the Congress to have more residential space 
in the building, including for the permanent representative. 
That's why I was responding to your question the way I did the 
first time around.
    As a matter of principle, I think it's a bad idea to live 
in your office space, but the current plan does have that. It 
would be for my successor, probably two successors down the 
road by 2004.
    Senator Chafee. I must say, I don't quite get the 
rationale. Let's try it again. Why are they doing this? You say 
not for security or financial reasons. For what reason?
    Ambassador Burleigh. I think the motivation is that we pay 
high rents for the apartment residences of both the permanent 
representative and the deputy permanent representative, which 
is my position. My colleagues have just passed me a note, Mr. 
Chairman, that says this was something that OMB favored many 
years ago when this project started which was 5 or 6 years ago 
the thinking for this project.
    Senator Chafee. I don't want to beat this to death. 
Obviously, it doesn't appeal to me particularly. We'd have to 
talk with GSA about what the space requirements are and whether 
the space could be better used and how it could work out.
    Judges both your courthouses are on the priority list now. 
Do you feel that the current system of classification is a fair 
one? In other words, obviously you don't know everything 
about--let's see, Savannah is number 12, Springfield is number 
6. You probably don't know whether Biloxi has a more urgent 
situation than you do or Laredo, yet they are both ahead of 
you. Nonetheless, do you have some confidence in the current 
system?
    Judge Ponsor. I have to say I do.
    Senator Chafee. You haven't been on the list before 
presumably, is that right? Last year's list, you weren't on, 
were you?
    Judge Ponsor. Yes. We are on the list for fiscal year 1999, 
in the 5-year plan. We've been on the fiscal year 1999 list for 
some time. In fact, I think we might have been in fiscal year 
1998, but because there were no appropriations for a year, we 
got bumped up a year.
    Having spoken to the people responsible for creating the 
list, I have to say that I appreciate the fact that there is an 
objectivity that goes into these prioritizations. It gives you 
a feeling of confidence that you're getting a fair opportunity 
to present your situation and have it judged by some objective 
criteria and take your place in line.
    I'd have to say I think it's been a very healthy process 
and I am comfortable with it.
    Senator Chafee. What do you say to it, Judge Edenfield?
    Judge Edenfield. I share those same feelings. I think the 
process works better than any other I've seen.
    Senator Chafee. There might be some judge representing some 
court that's been trying to get on the list who might take a 
different view for all I know but nonetheless you've made it. 
The historic element obviously is adding cost to it but I 
believe the historic element is important.
    Senator Baucus?
    Senator Baucus. Thank you, Mr. Chairman.
    Ambassador Burleigh, first of all, I want to commend you 
for all that you're doing now. You have a heavy workload since 
we don't have a permanent representative to the U.N.
    I was listening to National Public Radio not too long ago 
describing all the problems, the ins and outs and ramifications 
and the conclusion was you've got a heavy burden on you and I 
commend you for all that you're doing at this time.
    Ambassador Burleigh. Thank you.
    Senator Baucus. I'm curious, how secure would this new 
building be from a car bomb or truck bomb if it's rebuilt in 
the same location?
    Ambassador Burleigh. It's going to maintain some 
vulnerabilities but part of this construction expense we've 
been talking about, the quality of the construction and the 
materials, as I understand it, should go a long way to 
protecting us. You've seen it, I'm sure, where we're right on 
First Avenue, right across the street from the main U.N. 
building and that's where we will stay.
    I'm sorry to say we're not in a position where we can say 
we will be as safe as could be possible if we were able to have 
the setback arrangements that are now standard for our overseas 
embassies, but on balance, our judgment has been that it is 
important, given the kind of security we can get through modern 
construction procedures and materials, it's important to stay 
where we are for the symbolic as well as the convenience of it.
    Senator Baucus. You're satisfied that the safety 
requirements of the personnel are met?
    Ambassador Burleigh. I am. We have gone over this. For me, 
frankly, this is No. 1 priority and I wouldn't be here today if 
I didn't think this was what we needed to do and we need to 
have these standards. The point I was making earlier is that we 
have to treat it like an overseas embassy. We are vulnerable 
and we are targeted. We know that, so we have to have those 
standards. I would think we would not come forward with the 
proposal if we didn't think we met those demands.
    Senator Baucus. I haven't been in the building recently but 
I have several times recently been to our embassy in Beijing 
which is a rat trap. It's in terrible shape. Why aren't we 
rebuilding that embassy? I would guess it's in worse shape than 
the secretariat or the building in New York. That's my guess.
    Ambassador Burleigh. Senator, two comments. One is I was 
laughing to myself when Mr. Peck said that our current building 
was obsolete. I would say it's a dump basically and we're 
constantly having to put Band-Aids on it.
    Senator Baucus. Have you been to the U.S. Embassy in 
Beijing?
    Ambassador Burleigh. I have not but I can tell you that 
we're building a new embassy in Beijing and in Berlin. These 
are the two big State Department projects.
    Senator Baucus. I urge you to take a little trip over to 
Beijing.
    Ambassador Burleigh. I might be happier where I am.
    Senator Baucus. I think you'd be very happy where you are. 
So when are we building the new embassy in Beijing?
    Ambassador Burleigh. I can not give you the details here 
but these are the two big projects for 1999 and 2000, starting 
in fiscal year 1999, it's in our appropriations request for the 
State Department construction projects overseas.
    Senator Baucus. It's a total embarrassment, totally.
    Ambassador Burleigh. Many of our embassies are.
    Senator Baucus. I know but next to the Canadian and other 
embassies in Beijing, the American embassy is just the pits. 
It's that bad.
    I'd like to ask the judges, where do we draw the line 
between security and sort of accessibility? It's a tough one. 
We're facing it here all the time with the bombing of the 
Capitol building not too long ago and the officer who was 
slain. This is the peoples' house here, the Congress, and yet 
we want to protect people who work here. We want to be 
available to the public, which to some Members of Congress is 
an inconvenience, but after all, they're our employers. We're 
the public servants here. Where does a judge draw that line in 
designing his courthouse or where do we draw the line?
    We face irate constituents often, as we should, so I don't 
mean to be difficult here but what's wrong with seeing the wife 
or spouse of a defendant cry?
    Judge Ponsor. Nothing is wrong with seeing the wife cry.
    Senator Baucus. So where do we draw the line here?
    Judge Ponsor. I'll address that particular situation in a 
moment, but we are the court of the people. We are the place 
where people have to feel comfortable coming and bringing their 
sense of having been wronged. It's what I've decided to give my 
life to, so it's something I feel very strongly in my heart--a 
court is a secular holy place. It is a place where people have 
to be able to come and feel safe. They have to be able to know 
that when they come into that courthouse, they are not going to 
be intimidated, they are not going to be worried about getting 
attacked and they are going to be able to come into our clerk's 
office and come into our courts and testify. We have to be open 
in that way and the physical look for the courthouse has to be 
open in that way.
    In the last few years, there have been a lot of 
developments architecturally in designing courthouses that 
actually seem to reach out to the public and convey to the 
public a sense that this is where you can come while at the 
same time not turning themselves into a clay pigeon. So you're 
trying not to be inattentive to security concerns, but you 
don't want to build a pillbox and make it look like it's some 
``Tower of Orthank'' from J.R. Tolkien or something like that 
where people would be frightened to ever go into it. It's got 
to be a human entity that people can come into.
    I have no problem with people crying and people do in my 
courtrooms all the time, but I do think it is not a good 
situation where the absence of independent circulation patterns 
forces a judge or a juror day after day into close contact with 
the immediate relatives of people that you've just put in jail.
    We were fine, there was no problem. In fact, she was with 
her lawyer. They said, ``Do you mind if we come on the 
elevator.'' I said,`` I just sentenced your husband. If you 
don't have a problem riding with me, get on the elevator.'' It 
was no problem and we rode down together. I didn't mean to 
sound insensitive about the situation that she was in, but it's 
not a good idea for witnesses, jurors, and judges to be mixing 
right in the immediate emotional context of the trial with 
people who have found themselves sentenced or in danger of 
losing their liberty.
    Senator Baucus. Judge Edenfield, do you have any comments 
on where we draw the line?
    Judge Edenfield. Yes. I share your concern. I do not wish 
the United States courts to have or develop a fortress 
mentality. At the same time, there is a need for separation of 
certain judicial officials and the members of the jury from the 
witnesses.
    In many of the cases that I try and my colleagues, the 
witnesses are pretty bad people and when they circulate with 
the jury, there are complaints by the jury to me that witnesses 
or members of the family seek to intimidate through stares, 
glares and muttering on the elevators and in the corridors. We 
do need some separation.
    I think there is a 100-foot separation or setback area in 
new courthouse constructions if you are not building in an area 
like we are. So in cities like Savannah, we try to stiffen the 
building some to protect from bombs but I wish we could solve 
the problem of not having a fortress and having accessibility 
like when I began practicing law. I never saw any security; 
there was usually some bailiff who was asleep in the courtroom 
and everybody did what they were supposed to do.
    Senator Baucus. Thank you.
    Senator Chafee. Senator Warner?
    Senator Warner. Thank you, Mr. Chairman.
    Again, we express our appreciation to the jurists who have 
taken your time to come here. It enables us to more effectively 
serve the Judicial Branch in our role of trying to prepare for 
the coming generations of courthouses and the ever complex 
issue of security. Testimony like you're provided today is of 
great help to us.
    Mr. Burleigh, I thank you for taking time to come down 
here. I just stepped out to take a call from an ambassador from 
one of our principal allies to give him my views on Bosnia and 
Kosovo. I was there a week ago. In the U.N. today I think 
they're beginning to work on that very difficult situation.
    I frankly foresee the role of the United States Ambassador 
and DCM and the U.N. as ever increasing in the years to come 
with the complexity of weapons of mass destruction, terrorism, 
the dispersal of the threats, 360 degrees on the globe. It's 
quite different than when I was a young man many, many years 
ago. We knew the difference between Tojo and Hitler and where 
the problems were in Stalin's time, but not today. So much for 
that speech.
    I hope you look upon this Senator as an asset in trying to 
get through a proper structure up there, to get it done and 
done correctly.
    If I could give you a little friendly advice, because I 
have done some research, I think you need to very promptly get 
with the Foreign Relations Committee because while this 
committee has jurisdiction over the basic costs of the 
contract, the additional costs primarily for security and the 
like more or less are within their jurisdiction. You recognize 
that. If I can be of any help in that line, I would do it.
    I think that's about as much as I can say. I just thank you 
for what you're doing professionally and taking the time to 
come down on this important project. I want to see that my old 
friend, King Richard, and you know of whom I'm speaking, is 
properly housed. We don't have direct jurisdiction over the old 
suite. He'll do a good job and I have a high respect for him. 
He's a man who enjoys a little humor. I'm sorry about the 
confirmation procedure but those things take their own road.
    I've visited many times in the Waldorf and I think it's 
important. That sends a signal in that community and I hope we 
can continue that. We don't have jurisdiction over that in this 
committee.
    Mr. Chairman, I'm not going to take the further time of our 
important witnesses or the committee. I was going to deal with 
the security thing, but I think the less we bring out in the 
open on some of these things, the better.
    I'll close with the observation we're going to back the 
department with whatever I think reasonable requests they have 
about security.
    Senator Chafee. You mean the State Department?
    Senator Warner. Yes, the State Department.
    Ambassador Burleigh. Thank you, Senator. I just wanted to 
say how much I appreciated what you said earlier about the 
importance, the symbolic and practical importance of how we're 
housed and the structure from which we do our business with 
regard to the U.N. and also to assure you that we have gone to 
our appropriations committees with regard to the State 
Department costs with relation to this particular structure in 
addition to the embassies and project in Beijing and Berlin 
that we were talking about.
    Senator Warner. I share Senator Baucus' view about Beijing. 
That's a rabid barn over there.
    Senator Chafee. I think they're all that way. I think the 
one in Canada, you're liable to trip over a filing case.
    Senator Warner. I remember the old one in Moscow during the 
days of the Soviet Union when I visited there in 1971-1972.
    Ambassador Burleigh. I just wonder if we could come to this 
committee for our regular appropriations.
    Senator Chafee. Senator Sessions?
    Senator Sessions. Thank you.
    Ambassador Burleigh, I understand the need on occasion for 
additional space but we do have a responsibility if it's not a 
reasonable cost. These costs are very extraordinary when you 
talk about $578 per square foot. You're talking about an 
extraordinary cost that's difficult for us to justify.
    Just to say we need a new embassy in Beijing, I think we do 
but that doesn't say how big it's got to be, how fine it's got 
to be, how much we're going to have to cost on it.
    Judge Edenfield, it's good to see you. Do you think there 
may be some excessive sensitivity on the part of the judges to 
security? It seems to me that prosecutors have criminals come 
in their office, young probation officers, many of them female, 
have people alone with them in their office, and then a judge 
says, I might be on an elevator 1 day with one. Nobody drove me 
home when I was a Federal prosecutor.
    Don't you think sometimes there's a little bit too much 
sensitivity on that subject and there is a limit on how much we 
can spend?
    Judge Edenfield. I served on the 11th Circuit with Judge 
Vance and Judge Cox and of course you know what happened to 
Judge Vance, so I'm cognizant of security but it's not anything 
I dwell on. I was referring to Senator Baucus about the fright 
sometimes I get from members of the jury who complain about 
being mixed in the corridors, in the elevators with witnesses 
and defendants, the intimidation they feel, the fear they have 
that they are being singled out, and that's another part of our 
constituency for whom we must provide.
    Senator Sessions. Under the Victim Witness Act, they are 
required to be provided separate space. Is that not happening 
now?
    Judge Edenfield. No, we have none. We have the corridors. 
The judges use the same corridors as the witnesses and 
defendants. We simply have no security in the sense of what the 
U.S. Marshals would call a secure place to hold court.
    Senator Sessions. The Act requires that there be separate 
rooms so that our government witnesses and victim witnesses 
could be in one room and not necessarily be in the same room 
with the others as I recall.
    Judge Edenfield. We don't even have a witness room. They 
all sit out in the lobby and the marshal or bailiff goes and 
picks them up as they are called.
    Senator Sessions. Well, you'd better hope you don't get 
sued or something because the Act requires that, does it not?
    Judge Edenfield. I think it does.
    Senator Sessions. Maybe they need to use another floor or 
something.
    Judge Edenfield. The courtroom I use has less than a nine 
foot ceiling. We've just used everything and we're not in 
compliance with guidelines now but we do the best we can and so 
far we've gotten by without any bad incidents. We had a couple 
of members of the grand jury who took bribes from people in the 
hall but we found out about those, so we would like to separate 
them.
    Senator Sessions. I understand. One of the defendants was 
offering one of the jurors in my case the right to come hunt on 
his land. He hung it up 11 to 1 too, we didn't get a 
conviction. I hope he got his dogs when the time came.
    Judge Cox from the 11th Circuit, Mr. Chairman, made a 
marvelous talk to the Mobile Bar Association. He talked about 
the importance of appropriate buildings for the judiciary. Some 
of the modern buildings, I think, maybe 10 or 15 years ago 
failed to meet the appropriate standards. Would you agree, 
Judge Ponsor? Are you familiar with any you feel just are not 
satisfactory for Federal court buildings?
    Judge Ponsor. I feel like I've got a slow pitch over the 
plate there because I happen to be in one of those buildings. 
We are in a Federal office building which isn't even really a 
Federal court in any sense. A bankruptcy judge occupies part of 
the second floor and we have two district courtrooms and a 
magistrate courtroom on the fifth floor, but we also have a VA 
clinic, a Social Security office, we have recruiting offices 
for all five services and various other individuals and 
entities using the building.
    The result is that the building was not built with any 
sense of security or really much sense of the fact this was a 
courthouse, a place for people to come and try to seek remedies 
for injustice or to receive trials when they're charged with 
crimes. We're sort of a court operation that's been stuck onto 
an office building. I don't think it was well thought out. This 
was a building designed in the late 1970's and the result is we 
have security problems and space problems. We have to work very 
hard to balance all the different operations that are going on 
in the building.
    Senator Sessions. I don't know how soon it would take, Mr. 
Chairman, to fix those things. Some we're just going to be 
stuck with because somebody made a bad decision 15 or 20 years 
ago. When we do build a new building, I think it should be on 
the standards that would reflect the seriousness of a Federal 
court and the United States of America's attempt to achieve 
justice. I think the surroundings have a role to play in that.
    With regard to security, Mr. Chairman, I'm not of the 
opinion that we can guarantee everybody's security. Senator 
Warner, everybody recognizes Senator Warner, he walks all over 
town. All of us are subject to being assassinated, murdered, 
bombed or whatever. I don't see how we can double or triple 
cost of construction of every building we build because 
somebody might do something bad in there and that extra money 
might make a difference in whether someone lives or dies.
    There is just a limit and I don't know what that limit is. 
We do know that metal detectors and things like that do have 
some intimidating effect in increasing safety. A lot of study 
has been done on that and we need to be careful about it but I 
just don't know we're at a point where we can justify doubling 
our construction costs on the idea of increasing some safety.
    That's all I have.
    Senator Chafee. I think you're right, Senator. As you say, 
where you draw the line is a difficult question.
    I just want to comment, Judge Edenfield, about the Savannah 
courthouse. Originally that came in with a price tag of $27 
million and then it jumped to $42 million. I'm supportive of 
historic preservation and I know Savannah has done wonderful 
things. Your city is a major attraction, as it well should be 
because of the historic preservation that has taken place 
there. Indeed, I supported the historic preservation efforts we 
made in other courthouses like the one in San Juan, Puerto 
Rico, for example. Judge Stahl, do you know when they're going 
to dedicate that courthouse?
    Judge Stahl. I would expect next spring. There were a 
little contract problems that delayed it.
    Senator Chafee. What we did there was restore a beautiful, 
old courthouse in downtown San Juan. It could have been done 
less expensively some other place, or we could have built a new 
one, but we chose, I think rightfully, to preserve it.
    I must say I am a little worried about that jump in the 
projected costs for the Savannah courthouse. Are you familiar 
with why that took place, that quite significant jump from $27 
million to $42 million?
    Judge Edenfield. In all candor, I'm not familiar with it. 
We have gone through a number of processes for 5 or 6 years and 
how expanded, I know about $1.6 million was when there was an 
agreement reached between the Historical Commission, the 
Historic Savannah Foundation, the General Services 
Administration, with the Congressmen, that the exterior of the 
building should be clothed in the same fashion as the existing 
court building. The existing court building is clothed or has a 
skin of Georgia marble on it. I understand that cost about $1.8 
million. These figures could be wrong, I'm trying to remember. 
It might not be that much. That's about the only thing I can 
tell you about that.
    I'm not familiar with the $27 million figure. It might have 
been there.
    Senator Chafee. Regarding the cost of this project, have 
the Judicial Conference or the GSA talked to you about the 
reorganization of your offices and how things might be adjusted 
in order to achieve the goals of security plus obviously do 
what we can to hold down the costs?
    Judge Edenfield. Yes. We've had numerous discussions about 
that and we do share courtrooms. That was a matter of 
consideration earlier this morning. We have senior judges who 
have no courtroom; they share courtrooms with me and with my 
colleagues.
    Senator Chafee. You have the Bankruptcy Court in there too?
    Judge Edenfield. Yes. We have the Bankruptcy Court in there 
too and we expect to have another bankruptcy judge. Statistics 
several years ago showed or demonstrated that we need it, we've 
held off on acquiring it. For one reason, we don't have the 
space and we're getting by without it but my colleague, who is 
a bankruptcy judge, Judge Davis, and his colleagues think the 
time is long since past due for trying to get that other judge.
    Senator Chafee. OK, fine. Thank you all very much for 
coming. You've all come considerable distance and we appreciate 
that.
    Thank you.
    [Whereupon, at 11:15 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
 Statement by Hon. John Warner, U.S. Senator from the Commonwealth of 
                                Virginia
    I would like to thank Robert A. Peck, Commissioner of the Public 
Building Service of the General Services Administration, U.S. Court of 
Appeals Judge Norman H. Stahl, Chairman of the Security, Space and 
Facilities Committee, Ambassador Burleigh, Acting U.S. Representative 
to the United Nations, Judge Ponsor,U.S. District Court, District of 
Massachusetts, and Judge B. Avant Edenfield, U.S. District Court, 
Southern District of Georgia for testifying before the subcommittee on 
courthouse construction program, as well as the Federal building 
construction program.
    The committee has before it 22 official projects totaling 
approximately $211 million.
    Eight of these projects are for repair and alteration. They are the 
following: Appraisers Building, San Francisco, California; Federal 
Office Building 10B, Washington, DC; Old Executive Office Building, 
Washington, DC; Internal Revenue Service Center, Brookhaven, New York; 
U.S. Courthouse, Foley Square, New York, New York; Byrne-Green Federal 
Building, Philadelphia, Pennsylvania; J.W. Powell Building, Reston, 
Virginia; Advanced Design Alterations Projects, in a number of 
locations. Repair and alteration projects have traditionally been a 
committee priority, as they are an existing government asset.
    The Administration has proposed four new construction projects for 
FY1999. This committee has already acted on the Department of 
Transportation project request, and three additional projects are still 
before us for consideration. These include: Sault Sainte Marie Border 
Station, the Piegan U.S. Border Station and the U.S. Mission to the 
United Nations.
    Finally, we have nine leases scheduled for expiration, which need 
approval from our committee. They include the following: the Department 
of Justice, Washington, DC; Internal Revenue Service, Washington, DC; 
Department of Health and Human Services, Rockville, Maryland; Internal 
Revenue Service Regional Counsel, New York, New York; Department of 
Defense, Arlington, Virginia; Department of Defense, Arlington, 
Virginia; Department of Defense, Falls Church, Virginia; Department of 
the Army, Alexandria, Virginia; and Department of Justice, Falls 
Church, Virginia.
    As you know the Administration's budget proposal for FY1999 does 
not include funds for courthouse construction. However the Senate 
Budget Committee provided a $457 million allocation for the proposed 
FY1999 construction. At the request of Chairman Chafee, the 
Administration has released 14 unsigned courthouse construction 
prospectuses for the approval of this committee. These courthouses are 
in various stages of development and include the following: Brooklyn, 
New York (renovation); Biloxi/Gulfport, Mississippi (site and design); 
Denver, Colorado (construction); Eugene, Oregon (site and design); 
Laredo, Texas (construction); Springfield, Massachusetts (site and 
design); Wheeling, West Virginia (construction); Little Rock, Arkansas 
(site and design); Cape Girardeau, Missouri (design); Greeneville, 
Tennessee (construction); Savannah, Georgia (construction); San Diego, 
California (site); San Jose, California (site); and Richmond, Virginia 
(site and design).
    The 14 unsigned prospectuses for courthouse construction are the 
FY1999 Judicial Conference approved ranked projects. In addition to the 
14, it is my intention to move the Richmond, Virginia courthouse, which 
is ranked first in priority by the Judicial Conference in FY2000.
    Iam also pleased to announce my cosponsorship of Senator Baucus' 
Public Buildings Reform bill, S. 2481. I believe that this bill 
incorporates many valuable concepts which would sav the Federal 
Government money by imposing controls on the design and costs of 
Federal buildings, and in particular courthouses.
    I look forward to the witnesses' testimony.
                               __________
 Statement of Robert A. Peck, Commissioner, Public Buildings Service, 
                    General Services Administration
    Good morning Mr. Chairman, and members of the subcommittee. My name 
is Bob Peck, and I am the Commissioner of the Public Buildings Service 
(PBS). I am pleased to appear before you today to discuss two very 
important aspects of our proposed Fiscal Year 1999 budget: our Capital 
Improvement Program and our courthouse construction program. First, I 
would like to give you some background on PBS in general because our 
funding and operations are, in many ways, unique in the Federal 
Government and because we have initiated a number of reforms in our 
capital funding programs since we last appeared before you.
Public Buildings Program
    PBS provides workspace for approximately a million Federal 
employees nationwide and controls 39 percent of the Federal 
Government's owned and leased of floe space, in addition to Federal 
courthouses, border stations, laboratories and warehouses. We manage 
more than 300 million rentable square feet of space in which the 
Federal Government does its business on behalf of the public. Our 
revenues and expenses for Fiscal Year 1999 are projected to be just 
over $5 billion. We are the largest commercial-style real estate 
organization in the United States.
    Most years, we fund the preponderance of our budget from the Rent 
payments of our tenants, the agencies of the Federal Government, which 
are deposited into the Federal Buildings Fund (FBF). (By law, the Rents 
we set must approximate commercial rates
    found in the marketplace.) In the current fiscal year, our entire 
new obligational authority is funded out of Rents from the FBF. We 
propose no appropriation for FY 1999 so, once again, our revenues will 
support our entire budget.
    We have an advantage possessed by few other agencies in government: 
with clearly articulated revenue and expense flows, we can identify net 
income, a financial bottom line by which we can measure our 
performance. Our net income is not a profit, of course, but it is 
crucial: our income, net of fixed expenses (which are comprised of 
building operations, leasing and installment payment costs), is the 
funding we depend on to carry out major repairs, renovations and new 
construction. We can and should operate in a businesslike manner, 
measuring our efficiency in terms of time and money and making our 
customers--Federal agencies, and our shareholders--the American 
taxpayers--satisfied customers.
Capital Improvement Program
    The GSA's Public Buildings Service has responsibility for more than 
1,800 government-owned Federal buildings across the nation. More than 
half of the buildings in the total inventory are over 45 years old. In 
order to maximize the value of these assets to the taxpayer we practice 
sound financial planning and management. Decisions on investment for 
construction, acquisition, and repair and alteration of our real estate 
assets are key elements of our financial and asset management.
    Based on our decision making process we prepared the fiscal year 
1999 Capital Improvement Program, which is before you today. It 
consists of 10 prospectus-level repair and alteration projects budgeted 
at approximately $257 million, 9 prospectus-level R&A designs for 
future projects, estimated at $16.7 million, 6 prospectus-level design 
and construction projects estimated at $44 million, 9 prospectus-level 
replacement operating leases with a proposed annual cost not to exceed 
$37.6 million and the ongoing chlorofluorocarbon reduction and energy-
saving programs, each budgeted at $25 million.
Repair and Alteration
    Annual revenues of the Federal Buildings Fund--principally the Rent 
payments to us from the Federal agency tenants in our buildings--
provide sufficient funds to operate the inventory and make payments to 
lessors; however, it has never provided sufficient funds to meet all of 
our capital requirements. It has provided enough revenue in the past to 
keep up with major repair and renovation needs and to fund a modest 
construction program.
    With limited resources and an increasingly aging inventory, we have 
developed asset management strategies which include the following 
priorities for the allocation of resources:

  1. Protecting the safety and health of tenants in owned and leased 
    assets;
  2. Maintaining the operational viability of owned assets through day-
    to-day repairs and alterations below prospectus level;
  3. Altering vacant space in owned assets to relocate client agencies 
    from leased space into Government-owned space when available;
  4. Completing planned modernization of major buildings to maintain 
    and enhance their ability to support client agencies' missions and 
    to enhance their value; and
  5. Providing new housing solutions (construction, acquisition, and 
    leasing) to meet the changing requirements of client agencies.

    To better select among competing projects, we have changed the way 
we evaluate repair and alterations projects. We are using a ``return on 
investment'' measure to determine the financial impact of each repair 
and alteration project. This use of ROI is similar to the way capital 
real estate investments are screened in the private sector. The 
screening will identify, among other things, if an R&A project adds or 
detracts from net income to the FBF when the project is completed. 
Using the ROI as one of the criteria for selecting a project thus 
strengthens the long-term fiscal health of the FBF.
    We are also evaluating proposed major R&A projects to see if we can 
reduce the scope of work without jeopardizing the required results. By 
reducing the scope of a project we can often realize additional cost 
savings as well as reduce the time required. We often find that by 
scaling down planned major modernization, we are able to free up 
additional funds for more projects.
    Additional criteria used for the selection of major R&A projects 
nationwide include the timeliness of projects (follow-on phases of 
multi-phase projects) and ability to award projects within the fiscal 
year; the effect of the project related to the overall portfolio 
considerations and, finally, the urgency of execution, based on 
imminent system failure, hazardous condition or health and safety 
issues, imminent tenant requirements or avoidance of duplicate costs 
for swing space.
    By applying these criteria during the decision making process we 
are able to prioritize the R&A projects and ensure that the available 
funding is devoted to the most important ones.
New Construction and Acquisition
    In the fiscal year 1999 budget, the Administration proposed a 
modest new construction and acquisition program, all to be funded out 
of FBF revenues. It includes two border stations, the design of a new 
U.S. Mission to the U.N., additional funding for the remediation 
efforts at the Southeast Federal Center (SEFC) and the design of a new 
headquarters facility for the Department of Transportation. We 
recognize that, since the submission of the President's budget, we have 
had extensive discussions with you about the DOT headquarters and that 
you have asked us to take a different tack on it.
    Resources in the FBF are limited. Our first priority is the repair 
and modernization of our existing inventory. As I mentioned before, the 
FBF cannot support a large construction/acquisition program. At the 
same time, we are well aware of the needs and requirements of other 
client agencies, such as the Judiciary, whose needs we cannot satisfy 
through existing resources in the FBF.
    Which brings me to the second topic you asked us to address today--
namely the Federal courthouse construction program.
Courthouse Construction Program
    Need for and Scope of the Program.--Ten years ago, the Judicial 
Branch undertook a survey of its facilities and determined that one-
third of courthouses were grossly inadequate for their purpose, either 
because the space was inadequate to accommodate expanding needs or 
because of serious deficiencies in security, or both. We have estimated 
the cost of the 160 proposed projects at about $8 billion. To date, we 
have completed 16 of the Judiciary's recommended 160 courthouses, with 
another 24 under construction or soon to be.
    The Judicial Conference has produced a list of the projects in 
order of their priority and we have been using that priority list 
exclusively in determining the order in which we recommend funding and 
constructing the projects. Of course, our recommendations are subject 
to review and change as we go through the Administration's annual 
budget process; and the final funding decisions are up to the Congress, 
through this committee, its counterpart in the House, and the 
appropriations process.
    We are proud of the courthouses we are producing. Effective project 
management is allowing us to bring in high-quality buildings within the 
appropriated project budgets.
    The program is the largest such since the 1930's. I am pleased to 
report that, in partnership with the Judiciary and the private design 
and construction industries, GSA is producing landmark Federal 
courthouses that are worthy of the American people and their justified 
pride in the American judicial system. We are commissioning America's 
best architects and are winning praise for the courthouses' designs and 
functionality from architecture critics, judges and other building 
users, and from local community leaders.
    I can also report to you that we are as conscientious about budgets 
as we are about excellence in design. The courthouses are designed and 
constructed to judicious and exacting standards. We have established a 
sophisticated system of cost benchmarks to ensure that we maintain cost 
and quality parity among projects with varying functional requirements 
and different site conditions at locations dispersed throughout the 
country. If all parties hold to the fiscal discipline that the cost 
benchmarking system encourages, we are confident that we can bring 
projects in on budget.
    For example, in fiscal year 1998, we have completed seven 
courthouses, within their aggregated budgets. In the first month of 
fiscal year 1999, we will complete two more courthouses, which we will 
bring in for $11 million under project budgets.
    In determining the space requirements and layout of individual 
courthouses, we rely on the Design Guide produced by the Judicial 
Conference. Courthouses are complex buildings. To provide security, 
three separate circulation systems are incorporated into their design: 
one for judges, jurors and court personnel; another for defendants in 
custody; and a third for the public. Courtrooms are high-ceilinged to 
provide a sense of dignity and decorum and require carefully plotted 
sightlines and acoustics, while other courthouse workspaces are more 
typical office space; and the two types of space need to be meshed.
    We have found that we can achieve about a 65-70 percent ratio of 
occupied space to circulation and service space in the courthouses. We 
insist on achieving a minimum of 67 percent in each project. We 
continue to investigate various layouts that might increase the 
proportion of occupied space. We looked, for example, at ``collegial 
floors''--grouping judges' chambers together on designated floors, with 
courtrooms grouped on other floors--but we have not found that the 
layout generated a cost savings. It may have another benefit, however: 
some judges prefer the layout because it facilitates conferring with 
their colleagues.
    There are potential cost savings that we have not yet achieved. The 
most significant determinant in the cost of a building is its overall 
size. This single factor outweighs such visible items as the exterior 
cladding and the interior finishes. Accordingly, we would welcome the 
opportunity to work with the Judiciary to evaluate further how many 
courtrooms we need to build to accommodate the projected caseloads in 
new courthouses. Courtroom sharing and other strategies might allow us 
to reduce the building volumes and square footage, and thus the costs, 
that we need to provide in some locations. We need to clarify the 
options available to meet the Judiciary's needs for more courtroom 
space in a tight budget climate.
Cost Benchmarking
    GSA has a well-established, successful cost benchmarking process 
for new courthouse construction. A cost benchmark is a reference cost 
estimate which we use to evaluate the appropriateness of a proposed 
project's budget. In addition, benchmarks help unify our construction 
program nationwide by providing a method to compare project costs. 
Since 1995, benchmarking analyses have resulted in approximately $31 
million in avoided expenditures for new courthouse construction.
    The courthouses we are building today are being constructed within 
the budgets which were established based on the cost benchmark. 
Benchmarking provides for adequate, but not excessive, budgets 
following court Design Guide criteria.
    We are now exploring ways to refine the cost benchmarking process. 
Currently, benchmarks account for the specific characteristics of 
individual buildings such as building height, geographic location, 
seismic design costs, and the amount of indoor parking. The process 
does not allow us to distinguish between courthouse projects with 
varying ratios of office space to more expensive special purpose space 
such as courtrooms. Consequently, a courthouse project with many 
courtrooms would have a cost benchmark identical to a project of the 
same size, in the same location, with fewer courtrooms and a higher 
proportion of of lice space. We are evaluating possible refinements to 
the benchmarking process which will allow us to calculate cost 
benchmarks according to the mix of of floe and special purpose space in 
a proposed building. Of course, if we decide to revise the current 
benchmark system, we will brief the committee before any new 
methodology is implemented.
Security
    Courthouse security continues to be of critical importance to all 
of us. GSA is now conducting risk analyses during the design and 
construction of new courthouses and identifying appropriate security 
measures for each location. In Hammond, Indiana, for instance, the 
building is designed so that windows in judges chambers are not exposed 
to the nearby street.
    Other creative and subtle measures, such as landscaping and street 
furniture, are being used to keep unauthorized vehicles away from the 
building. In Minneapolis, artwork commissioned for the project includes 
earthen mounds which separate the building from the street, while 
allowing easy pedestrian access to the courthouse. Many of our 
courthouse designs incorporate a plinth, a raised plaza, between the 
street and the building. This allows us to maintain an accessible, open 
presence in the community, while increasing building security.
    The buildings need to be open and accessible, as courthouses 
traditionally have been, but they also need to be consistent with our 
security requirements. We estimate that security concerns, increased 
since the Oklahoma City bombing in 1995, have added between 5 and 10 
percent to the costs of the buildings we have in design.
Funding for the Remainder of the Program
    Approximately $5 billion remains to be funded for the 120 
courthouses in the program remaining to be designed and constructed. At 
the rate of $500 million per year, which is the rate at which the 
Judiciary had anticipated, 10 years will be required to complete 
funding for the program.
    As I noted earlier in my statement, our projections of income to 
the Federal Buildings Fund (FBF) over the next several years indicate 
that the Fund will have adequate resources to fund the capital repairs 
and modernizations necessary to keep our existing real property 
inventory functional and productive. Like any prudent real estate 
owner, our first priority out of operating funds is to maintain and 
improve the income-producing properties that we already have. However, 
this leaves little or no internally-generated funds for new 
construction.
    In the past, recognizing this limited availability of revenues to 
fund new construction, Congress has appropriated funds to the FBF to 
provide for a construction program of the magnitude anticipated by the 
Judiciary. Appropriations to the FBF for new construction between 
fiscal years 1990 and 1997 amounted to over $2.8 billion.
    Given the cost of the Judiciary construction program, the 
Administration believes that we must redouble our efforts to ensure 
that these new landmark public buildings are designed and built as 
efficiently and cost-effectively as possible. Only by examining ways to 
reduce the overall number of courtrooms and the amount of ancillary 
space we need to build, by refining our benchmarks, and by holding firm 
to project budgets once they are set, can we assure the taxpayers that 
these needed buildings have taken advantage of every realistic 
opportunity to save costs. Towards this end, we look forward to working 
with the Judiciary to perform an appropriately-designed courtroom 
utilization study and to seek other opportunities to ensure that these 
much needed public buildings are designed and built in the most cost-
effective manner possible as we proceed with the construction program.
    As you probably know. GSA's fiscal year 1999 appropriations bill in 
the House and Senate includes funding for approximately $500 million in 
courthouse construction for the fiscal year 1999 part of the plan. This 
would provide funding for site, design, and/or construction of 15 
projects.
    Mr. Chairman, I am pleased to have had this opportunity to discuss 
our Capital Improvement Program as well as the courthouse construction 
program with you. We appreciate the subcommittee's continuing interest 
in our capital program. I would be pleased to answer any questions the 
subcommittee may have.
                                 ______
                                 
  Responses by Robert Peck to Additional Questions from Senator Graham
    Question 1. On page 4 of your prepared testimony, you reference the 
evaluation of proposed repair and alteration projects to determine if 
cost savings can be realized bar reducing the scope of the projects. 
Clearly, costs are reduced when projects are descoped. How is this 
accomplished without compromising the desired outcome of the project? 
Please provide specific examples.
    Response: In formulating our capital budget for FY 1999, we focused 
in many cases on systems-related projects, rather than full 
modernizations. These systems replacements are less costly than total 
building renovations, yet still improve building performance While the 
work necessary for a full modernization still has to be done in the 
fixture, we are able to address the building's most critical needs in a 
timely.manner. By reducing the scope and cost of each project we can 
improve a greater number of our properties at a time within a given 
limited budget. The most important projects. such as life and safety 
projects, always receive priority attention.
    A specific example of a descoped project is the renovation project 
for the 40 Foley Square building in New York. The initial proposal was 
for a full modernization project. Due to Finding constraints GSA 
reviewed this project and decided that a full modernization was not 
required at this time. Instead, only funding for the life safety work 
associated with the building's electrical system is required.

    Question 2. With regard to the construction of the U.S. Mission to 
the U.N., the current design includes the residence of the Deputy 
Ambassador as part of the Mission. Is there not a concern that by 
locating the residence in the building, security risks are heightened/
increased? Please provide an analysis of what the square footage cost 
would be if the Deputy Ambassador's residence was not included in the 
design of the Mission.
    Response: GSA agrees that housing the Deputy Ambassador in the U.S. 
Mission might heighten the security risk; however, in order to ensure 
adequate safety and security for the Deputy Ambassador, GSA plans to 
design additional security features into the facility, such as a 
separate elevator and separate heating and cooling systems.
    GSA calculated a potential reduction in cost to the project of 
$350,153 if no residential quarters are required. This amount includes 
the cost of the residential buildout and the residential elevator. The 
total project cost under those conditions would amount to $53,181,347. 
Based on a total of 41,307 gross square feet, this reduction would not 
have a significant effect on the cost per square foot.

    Question3a. Please describe the criteria/process used to select 
designers/architects and construction contractors.
    Response: Contracting for A/E Services.--Architectural and 
engineering services are procured pursuant to the procedures in the 
Brooks Architect-Engineers Act, 40 U.S.C., 541-544, and Subpart 36.6 of 
the Federal Acquisition Regulation (FAR). GSA uses a two-step 
qualifications-based process for A/E selection known as ``Design 
Excellence'', which complies with FAR Part 36.6 and the Brooks Act.
    Step One: A public solicitation for interested firms is published 
in the Commerce Business Daily outlining specific selection criteria. A 
GSA evaluation team reviews the submissions for compliance with the 
selection criteria. The GSA team includes a representative from the 
client agency and a private sector peer advisor. The peer advisor is a 
nationally recognized expert in design and selected from the PBS 
Commissioners Register of Peer Advisors. The team identifies the 
``short list'' of 3 to 5 firms to interview.
    Step Two: The 3 to 5 shortlisted firms are interviewed by a GSA 
panel, and each firm's full production team is evaluated. The panel 
then ranks the firms and the list is submitted to the selection 
authority for final selection of the A/E firm.
    The selection criteria set out in the FAR include:

a. Professional qualifications
b. Specialized experience
c. Capacity to accomplish work
d. Past performance on government and private industry work
e. Location of fire and knowledge of locality of project

    Once the selection is made and after the proper authorization and 
required appropriation is received negotiations are held with the A/E 
firm. If negotiations are successful, a contract award is made based on 
a negotiated fixed price. If a reasonable price can't be negotiated, 
GSA will negotiate with the second preferred firm, and if negotiations 
are successful, an award will be made to that firm.
    A brochure further describing the Design Excellence Program is 
enclosed.
    Contracting for Construction Contractors.--The FAR also provides a. 
number of methods for contracting for construction contractors.
Sealed Bid
    GSA has traditionally selected its construction contractor under 
FAR Part 14, ``Sealed Bidding''. Under this method, the low priced, 
responsive, responsible bidder is awarded the contract. Non-responsive 
bids might include the failure to provide a price for every line item, 
failure to sign the bid, or failure to provide adequate bonding.
    Best Value Source Selection.--Recently, GSA has been making more 
construction awards based on FAR Part 15, ``Contracting by 
Negotiation''. Under the FAR's ``Source Selection'' provisions, GSA has 
two alternative methods to choose from.
    The first is the ``tradeoff process''. Under this method, GSA 
establishes evaluation factors which will always include cost or price 
and past performance and ranks these factors in their relative 
importance. The solicitation must state whether all evaluation factors 
other than cost or price.
    The selection then proceeds in two stages. In Stage One the 
technical proposals are evaluated and then the price proposals are 
opened and evaluated, Unless award is made on initial offers, based on 
the ratings of each proposal. the contracting officer establishes a 
competitive range comprised of all of the most highly rated proposals, 
unless the range is further reduced for purposes of efficiency pursuant 
to FAR 15.306(c).
    In Stage Two negotiations are conducted with all offerors remaining 
in the competitive range and offerors are allowed to revise their 
proposals to correct any weaknesses or deficiencies or other aspects of 
their proposals which could be altered or explained to materially 
enhance the offerors potential for award. Following, the submission of 
final proposal revisions, award is made to the offeror submitting the 
proposal representing the best value on the evaluation factors in the 
request for proposals (RFPs).
    Lowest Price Technically Acceptable.--The lowest price technically 
acceptable source selection process is appropriate when best value is 
expected to result from selection of the technically acceptable 
proposal with the lowest evaluated price. Under this process, the 
request for proposal specifies that award will be made on the basis of 
the lowest evaluated price of proposals meeting or exceeding the 
acceptability standards for non-cost factors. This selection process is 
similar to the ``tradeoff process'' described above except that 
tradeoffs are not permitted and proposals are evaluated for 
acceptability but riot ranked using the non-cost/price factors.
    Design-Build.--Design-build combines design and construction in a 
single contract with one contractor. Unless another acquisition 
procedure authorized by law is used, the criteria for using design-
build and the two-phase procedures for awarding a design-build contract 
are prescribed in 41 U.S.C. 253m and FAR Subpart 36.3. GSA establishes 
technical criteria and in Phase One, only technical proposals are 
submitted Following the evaluation of Phase One proposals, the most 
highly qualified offerors (usually not to exceed 5 offerors) are 
requested to submit Phase Two competitive proposals that include more 
detailed technical and cost or price information GSA may make tradeoffs 
regarding; the price and technical capabilities and selects the firm 
providing the best overall value to the Government.

    Question 3b. In your printed testimony, you state that a 
sophisticated system of cost benchmarks has been established. Please 
describe these benchmarks.
    Response: The benchmark is a reference cost estimate which is used 
in judging the appropriateness of a proposed projects budget. 
Benchmarking yields a reference point, or standard, to which a 
project's actual costs can be compared. GSA has adopted a cost 
benchmarking process to support the evaluation of proposed new 
construction projects and to help identify potential savings using 
private sector cost data for commercial buildings, unit cost benchmarks 
are developed for each of our proposed new construction projects. 
Benchmarks help unify GSA's construction program nationwide by 
providing a method to compare projects to one another and to ensure 
fair and equal evaluation of all projects.
    The benchmark process accounts for the specific characteristics of 
individual buildings including building height, geographic location, 
seismic design costs, and the amount of indoor parking to be 
constructed. Because construction costs change from year to year; 
benchmarks are linked to the project year of construction award, and 
are adjusted if a project is delayed. Benchmarks also are adjusted to 
reflect variations in material and labor costs across the country. 
Benchmarks do not include the cost of construction requirements that 
are driven by the site rather than the building, such as demolition of 
existing buildings, relocation of utility lines, or archaeological 
work. These costs are appropriately included in project budgets and 
prospectuses submitted for congressional approval, but are not part of 
the benchmarks.
    Since 1995, benchmarking has resulted in approximately $31 million 
in avoided expenditures in the courthouse construction program.

    Question 3c: What incentives are offered to the contractors to stay 
within and/or below budgeted costs?
    Response: In any bid construction project, including sealed bid or 
any form of source selection (see the explanations above), the 
contractor may attempt to identify discrepancies in the contract 
documents which would allow him to request additional money from GSA to 
compensate for change orders resulting from these discrepancies. 
Although GSA does not expect to eliminate change orders in its 
construction contracts recently, the agency has begun using contract 
language to provide incentives to contractors to maintain their 
budgets.
    For example, projects can be awarded requiring a Guaranteed Maximum 
Price (GMP) which sets a maximum project cost. GSA then has an 
established maximum cost for a project, This strategy can only be used 
in conjunction with negotiated procurements.
    Contracts can also be written to allow contractors to share in 
savings they identify through value engineering. The contractor 
therefore will have an incentive to keep Construction costs below the 
GMP, allowing the firm to share us the savings and generate profits 
based on the final cost of the project. GSA allows shared savings 
associated with value engineering in virtually all of its construction 
contracting.
    Incentive contracting also allows GSA to grade the quality of the 
construction contractor at various phases during the project. The 
contractor is required to pledge a significant portion of the firm's 
profits at the time the contract is awarded. GSA ranks the contractor 
in areas such as quality, cooperation, and timeliness. The firm earns 
its profits based on these factors and this acts as an incentive to 
properly construct the project and maintain project budgets. Such 
incentives can be used in conjunction with all of GSA's source 
selection contracts.

    Question 4. What are your views on S. 2481? Do you feel that this 
legislation compliments the current direction of GSA in terms of 
providing a sound and clear statutory framework for Federal Public 
Buildings policy development? Are there portions of the proposed 
legislation that, in your opinions need to be revised? Please 
elaborate.
    Response: GSA is currently evaluating the proposed bill S. 2481 We 
will be happy to provide formal comments as part of an official review 
by the Administration, initiated by the Office of Management and 
Budget. Meanwhile GSA is also in the process of developing legislative 
initiatives as part of the FY 2000 Budget Process, which we would be 
glad to share with the committee in the future.
    GSA looks forward to an opportunity to work with the committee in 
developing a Public Buildings Reform Act, which will improve the 
effectiveness and efficiency of GSA's asset management practices and 
procedures.
 Responses by Robert Peck to Additional Questions from Senator Sessions
    Question 1: Was the current design prospectus developed before the 
recent embassy bombing in Africa?
    Response: Yes, the General Services Administration (GSA) completed 
the Prospectus Development Study (PDS) on February 10, 1995 and 
prepared the prospectus as part of the FY 1999 Capital Improvement 
Program on March 11, 1998 The study was the result of a long-standing 
request to improve the building to meet the mission and goals of the 
Department of State (DOS) GSA submitted a proposal for a new building 
to the DOS on June 3, 1997, and sought the Department's support for the 
project. DOS accepted GSA's proposal on June 30, 1997.

    Question 2: What would be the occupiable square footage per each 
employee its a new U.S. Mission to the U.N. Building? What is the 
current square footage per employee?
    Response: The GSA prospectus reflects the USUN space program 
requirements and the GSA space utilization ratio (U/R) guidelines. The 
primary (office) space, excluding support space, totals 52,785 usable 
square feet (usf) and the projected peak number of employees in the 
building is 326, which equates to 162 usf per employee The remainder of 
space is identified in the prospectus as ``special purpose'', i.e. 
space for press briefings, conferences, computer networks, security; 
rooms for representational purposes, mechanical equipment; as well as 
space for a staff cafeteria 10 parking spaces and standard circulation 
areas.
    The office space in the existing building, excluding support space, 
is approximately 29,200 usf and the peak number of employees in that 
facility is current 217, which equates to 135 usf per person. Given the 
unique functions performed by the primary tenant agency, these 
utilization rates are not excessive.

    Question 3: What individual initiated the request for a new 
facility to house the U.S. Mission to the U.N.?
    Response. Improving the USUN Mission Building has been an issue for 
several years due to State Department's increasing requirements that 
could no longer be accommodated in the existing building and the 
condition of the building itself. When Secretary Albright was the USUN 
Permanent Representative, she was instrumental in making this project a 
priority DOS highlighted this project as a top priority in its FY 99 
budget request. The Department's Bureau of International Organization 
Affairs and the USUN staff worked closely with GSA to ensure that all 
alternatives were explored prior to supporting the decision for a new 
facility.

    Question 4: If Congress approves the design resolution, will there 
be a competitive bidding process for the design work? Have any 
preliminary designs been submitted to the GSA or Department of State? 
If so, were they solicited by any government agency?
    Response: GSA has entered into the process of selecting a design 
firm through our Design Excellence Program, which complies with the 
Federal Acquisition Regulation (FAR) Subpart 36.6 and the Brooks 
Architect-Engineers Act. Approximately twenty-five (25) architectural-
engineering (A/E) Firms responded to the Commerce Business Daily notice 
and the firm of Gwathmey Siegel & Associates Architects LLC (GSAA) of 
New York was tentatively selected. A design award has not been awarded 
yet. GSA cannot legally enter into contract negotiations until the 
design prospectus has been authorized and the design funds have been 
appropriated.
    The June 1997 GSA proposal included a proposed schematic for the 
building which reflected a ``blocking'' plan for maximum massing of the 
building and the height that would be attainable based on the current 
zoning and building codes This schematic drawing may have been mistaken 
for a preliminary design.
    The bid for the construction contract will be open to all U.S.-
owned contractors, with the requirement that only security-cleared U.S. 
personnel can work on the project.

    Question 5: How were the total project costs estimated? Please 
provide a detailed explanation for all estimated costs including those 
costs to be born by both GSA and the Department of State?
    Response: An project costs are estimates at this stage, since we do 
not yet have a design that can be costed out in a detailed manner. Cost 
estimates are based on the professional experience and judgment of 
government engineers. GSA's project costs reflect basic construction 
cost estimates for a standard ``courthouse-type'' building in 
Manhattan, as the security and special use requirements are Poseur 
matched to such a model DOS's cost estimates are based on experience in 
pricing out the construction and equipment required for technical and 
procedural security requirements. GSA and DOS provided a detailed 
break-out of the estimated costs to the committee during our last staff 
briefing on September 29, 1998.

    Question 6: How many employees of the U.S. Mission to the U.N. will 
be housed in the: new facility? How many employees from the U.S. 
Information Agency will be housed in the new facility and how many 
employees from the Office of Foreign Missions will be housed in the new 
facility?
    Response: The State Department planning on a ``peak-period'' staff 
in the range of 270 to 275 persons with the additional need to 
accommodate numerous visitors and conference attendees. DOS plans to 
accommodate the U.S. Information Agency staff of 46 and the Office of 
Foreign Mission's (OFM) staff of ten in the new building. Both USIA and 
OFM are currently housed in leased space in Manhattan. This 
consolidation will result in annual rental savings of approximately 
$600,000.
                               __________
Statement of Judge Norman H. Stahl, First Circuit Court of Appeals, and 
  Chairman, Judicial Conference Committee on Security and Facilities.
    Mr. Chairman and members of the committee: My name is Norman Stahl. 
I serve as a judge on the First Circuit Court of Appeals and as 
Chairman of the Judicial Conference's Committee on Security and 
Facilities. \1\ Thank you for the opportunity to appear before you 
today to discuss the judiciary's continuous efforts to improve 
management of the courthouse construction program and the fiscal year 
1999 courthouse construction projects that have been prioritized in our 
5-year plan. I have included with my statement a listing of the 
projects needing authorization this year and a more detailed 
description and justification for the projects. I am also pleased that 
Judge Avant Edenfield and Judge Lamar Davis from Savannah, Georgia and 
Judge Michael Ponsor from Springfield, Massachusetts are able to join 
me today to respond to questions you may have on their specific 
courthouses.
---------------------------------------------------------------------------
    \1\The Judicial Conference of the United States is the Judiciary's 
policy-making body. 
---------------------------------------------------------------------------
    We have worked closely with this committee over the past several 
years to respond to issues you and previous chairmen have raised about 
the courthouse construction program. I believe our work together has 
been productive and mutually instructive. We have what I would view as 
an excellent working relationship with the committee and its staff. The 
Judicial Conference has marshaled a number of initiatives that will 
further improve management and control costs of the entire courthouse 
program. We also, of course, continue our joint efforts with GSA to 
make this a more effective program.
    We are pleased by the willingness of Congress to work with us this 
year to secure funding for courthouse projects. Notwithstanding my 
understanding from meetings I had last year with the Office of 
Management and Budget that it would include court projects in the FY 
1999 presidential budget request, OMB abruptly withdrew funding for the 
courthouse program just before it transmitted the request to Congress. 
This action was taken without any consultation with the judiciary. We 
are very appreciative of the actions taken by the budget, 
appropriations and authorizing committees thus far to provide funding 
and the necessary project approvals for fiscal year 1999. We hope that 
our testimony here today will satisfy this committee as to the need and 
merit of the projects before you for consideration and enable you to 
proceed to their authorization.
    I would like to briefly summarize our progress to date and future 
plans.
Prioritizing Courthouse Projects
    The 14 courthouse construction projects before the committee for 
authorization in FY 1999 were ranked and approved by the Judicial 
Conference as part of our 5-year plan. A copy of the most recently 
approved 5-year plan is attached to this statement. That prioritization 
process and development of a 5-year plan were begun at the request of 
this committee in FY 1996 and continue today. I am pleased to report 
that the process appears to be working very well and is accepted within 
the judiciary.
    Our prioritization process requires that all courthouse projects be 
scored, considering four factors: (1) the year the courthouse is out of 
space, (2) the level of security problems, (3) the number of judges 
affected and (4) operational concerns.
    The Judicial Conference of the United States is the Judiciary's 
policy-making body.
    A courthouse project is not proposed for consideration unless the 
district's long range facility plan indicates that there is no more 
room for judges in the existing facility. In virtually every proposed 
project, this determination is made after all executive branch agencies 
and court related units (probation, pretrial services, the bankruptcy 
court) already have been moved from the existing building. The 
expansion capacity of the building is the primary consideration in 
determining the need to take some action. The lack of sufficient space 
can cause great waste and inefficiency in court operations. In worst 
case scenarios, trial courts are split into separate facilities causing 
the dual management of records, prisoners, and duplicate security 
screening.
    Security and obsolescence also are extremely important 
considerations. Security risks are a grave concern in all public 
buildings, especially Federal courthouses. Tragic events in Oklahoma 
City, Oklahoma and Topeka, Kansas underscore the need for proper 
security arrangements in Federal courthouses. In addition, we are 
finding that very old buildings cannot accommodate the infrastructure 
needed to install technological innovations without incurring 
significant costs. Although not a factor used to determine the need for 
a new building, this last consideration is very important as we move 
into the ``information age.'' I would be happy to share my experiences 
with technologies that have been installed in the new Rudman Courthouse 
in Concord, New Hampshire.
    Each year the judiciary seeks comments from courts about the 5-year 
plan to determine if any of the factors affecting a project's score 
have changed. By continuously reviewing our priorities, we are able to 
ensure that changing circumstances at a particular location are taken 
into account so that necessary adjustments can be made. For example, as 
the years pass there may be shifts in a court's caseload that might 
warrant moving a judge's duty station to another location, 
unanticipated growth in staff might require locating a clerk's office 
or some judges away from the main courthouse creating split court 
operations, or the Congress might determine that additional judgeships 
should be established at a location not initially contemplated. These 
changing circumstances can affect a project score, and thus its ranking 
in the plan.
    GSA analyses can also impact the ranking and scoring of a project. 
For example, GSA recently has been studying a number of options for 
housing the courts in downtown Los Angeles, California. Because the 
Conference was advised that GSA planned to initiate site and design 
funding for this project in FY 2000 as opposed to FY 2001 (as had been 
planned at one time) the project's position in the plan was changed. 
Until recently, some of the projects appearing in earlier years had 
lower scores than some projects scheduled for action in subsequent 
years This situation occurred because planning for the projects had 
begun prior to the adoption of the scoring and ranking process. Once 
the FY 2000 projects are funded, the new projects (i.e., those that 
have not been previously considered for site or design) appear in 
numerical order by score.
Courtroom Assignment and Use
    At its March 1997 session, the Judicial Conference adopted a policy 
on courtroom sharing that balances the essential need for judges to 
have an available courtroom to fulfill their responsibilities with the 
economic reality of limited resources. It continues the standard of 
providing one courtroom for each active district court judge. In 
addition, with regard to senior judges who do not carry a caseload 
requiring substantial use of a courtroom and visiting judges, the 
policy sets forth a non-exclusive list of factors for circuit councils 
to consider when determining the number of courtrooms needed at a 
facility. Such factors include an assessment of workload anticipated to 
be carried by a senior judge and the number of years a senior judge is 
likely to carry such a caseload, as well as evaluation of the 
complement of courtrooms throughout the entire district. Courts are 
encouraged to provide for flexible and varied use of courtrooms.
    The Conference asked each judicial council (councils have the 
statutory authority to determine the need for court accommodations) to 
develop a policy on sharing courtrooms by senior judges when a senior 
judge does not draw a caseload requiring substantial use of a 
courtroom, and for visiting judges. All judicial councils have 
developed courtroom sharing policies for senior and visiting judges. 
Implementation of these policies will assist the judiciary in its 
continued effort to contain the costs of court facilities, while 
assuring the appropriate number of courtrooms necessary to fulfill its 
constitutional mission. The Judicial Conference also has adopted a 
number of planning assumptions that are being used to determine the 
courtroom capacity in a new building.
Revisions to the United States Courts Design Guide
    Following a comprehensive 2-year review, the Judicial Conference 
approved numerous changes to the U.S. Courts Design Guide at its March 
1997 meeting. First published in 1991, the Guide contains the 
information needed by GSA, private sector designers and builders, and 
members of the judiciary about the special requirements in Federal 
courthouses that make them functional, secure, quality public 
buildings. While the comments received from users indicated the Guide 
was accomplishing its purpose, the judiciary also received a number of 
excellent suggestions for improvements, including recommendations from 
your committee.
    The revisions are expected to avoid certain construction costs by 
about 5 percent ($2 million) for an average-size ($40 million) project 
and are being incorporated into new projects not yet in design. These 
savings are in addition to the estimated $1.5 million per facility 
construction reduction effected by previous changes to the Guide. The 
new Guide also includes changes and clarifications that should produce 
more cost reductions, but these savings cannot be estimated at this 
time. For example, the new Guide will emphasize cost control and budget 
constraint both in a separate chapter and in notes throughout the 
document.
    The 5 percent construction cost avoidance was determined by the 
National Institute of Building Sciences, which assisted the judiciary 
with the Guide review, using a nationally recognized construction cost 
estimating firm familiar with Federal building construction costs. The 
firm also had been involved in the development of the 1991 edition of 
the Guide and its subsequent revisions. The approach used was to 
compare a typical courthouse project that might have been designed 
without the approved changes to the same courthouse if it were designed 
with the revisions. It is not possible to effect all of the cost 
savings in every project because the project budgets might already have 
taken into account the savings, or certain items or design features 
that would generate the savings cannot be included in a project.
    The following summarizes the changes to the Guide intended to 
control future costs:

          <bullet> A new chapter on general programming and budget 
        considerations was added to help control costs.
          <bullet> Shared use of space common to all court offices, 
        such as conference and training rooms and staff lavatories is 
        encouraged, and specific standards on the size and number of 
        these facilities now is included.
          <bullet> The sizes of chambers suites when chambers library 
        collections are shared between or among judges was reduced. 
        Also, designs that reduce lawbook costs, and that do not 
        increase rental costs, are now included as optional 
        confirmations for new construction and remodeled space.
          <bullet> Guidelines were added to assist with determining the 
        appropriate space required for satellite lawbook collections.
          <bullet> Use of exotic hardwoods is prohibited.
          <bullet> The important role that the project budget, long 
        term durability, and maintenance costs play in determining the 
        level and type of interior finishes in new courthouses and in 
        renovation projects is emphasized.
          <bullet> Staff office sizes are delineated in more specific 
        terms.
          <bullet> Circulation space, i.e., the amount of space needed 
        to move from one space to another, is defined in more detail 
        and has been reduced in a number of significant areas.
          <bullet> Narrative was added emphasizing that courts and 
        circuit judicial councils are not to take any actions that 
        would lead to extravagance in courthouse construction or 
        renovation.
          <bullet> The Congress is to be advised of any exceptions 
        approved by the circuit judicial councils to the space 
        standards included in the Design Guide.
Further Study
    As part of our on-going commitment to cost containment and program 
assessment and evaluation, the judiciary is now planning to embark upon 
author top-to-bottom review of our entire space and facilities program. 
We anticipate contracting with a major independent consulting firm to 
assist us with this review. The study will include an assessment of our 
planning and design assumptions, recommendations on appropriate 
management roles and responsibilities of court personnel and others in 
the courthouse construction process, further examination of the issue 
of courtroom sharing and utilization, and funding mechanisms and 
resource allocation strategies. We will consult with this committee and 
others in the Congress, GSA, OMB, and the General Accounting Office in 
the course of this study. We intend to move as quickly as possible, but 
it will take some time to award a contract to a consulting firm due to 
the broad scope and special skills needed to perform the analysis. Once 
the contract is awarded, however, we hope to have a final product in 
about nine to 12 months
Public Buildings Reform
    You also asked that we address the subject of public buildings 
reform. As you know, a bill passed the Senate in 1996 that was 
introduced in this committee that, if enacted, would have provided, 
among other things, the GSA administrator with the authority to set 
housing standards for the judicial branch and to determine essential 
characteristics of accommodations needed by the courts. We continue to 
be concerned about this aspect of any public buildings reform 
initiative. In our view, the user of a facility is in the best position 
to determine what it needs to do its work. There are unique design 
features for courthouses that involve proper sightlines in courtrooms, 
security requirements of U.S. Marshals, and other features that are 
best determined by those working on a daily basis in a modern day 
Federal court. Speaking from a personal perspective and based on my 
years of experience with construction of buildings prior to my becoming 
a Federal judge, it has always been my view that the most successful 
building project is one that has been determined by the needs of the 
user.
    As I said earlier in my statement, the judiciary is committed to 
working with the Congress, GSA and OMB, on any number of issues related 
to the courthouse program. That is why we are embarking upon a major 
independent review of the entire program. I would be pleased to provide 
the views of the Judicial Conference on this matter for the hearing 
record.
Summary
    Many lessons have been learned as the Congress, GSA and the 
judiciary have worked together over the past several years to build 
high quality, functional court facilities that will last for several 
decades. We have incorporated many of the recommendations made by this 
committee into our planning process and design standards in order to 
improve management of the program, and we will continue to study 
additional steps to control costs and make the program even more 
effective in the months ahead. The judiciary hopes the committee will 
recognize the actions taken by the Judicial Conference as evidence of 
the judiciary's commitment to a productive and cooperative working 
relationship. We ask that you take action to authorize the projects 
included in GSA's pending fiscal year 1999 appropriations bill.
    I would be pleased to answer any questions you might have at this 
time.
                                 ______
                                 
      Fiscal Year 1999 Courthouse Projects (In order of priority)
Brooklyn, NY (Post Office Renovation for Bankruptcy Court)
    The leased space currently occupied by the bankruptcy court is 
above a drugstore on a busy street in downtown Brooklyn. It adjoins an 
area recognized as a source of violent terrorist activity. Four 
homicides have been reported within a block of the court in the last 6 
years. The space provides little protection for the building or its 
occupants. Because of the lack of security, ``after-hours'' work by 
court personnel has been severely restricted. The building routinely 
leaks, toilets flood, and the heating and air conditioning systems 
repeatedly fail. If new facilities are not available in the Post Office 
soon, the Court will have to move to other leased space in order to 
keep up with the workload. As the building is now 100 percent occupied, 
there is no readily co-located space to house the one new bankruptcy 
judge expected to be authorized in fiscal year 1 999.
    In the meantime, the Post Office, which is already owned by the 
U.S. Government and on the National Register of Historic Places, and 
which will be renovated to house the bankruptcy court, stands almost 
empty and continues to decay and deteriorate, increasing the cost of 
the eventual restoration.
    In addition to the aforementioned operational and security 
problems, assuming a 3-4 percent rate of inflation, the financial 
impact of any delay in this project will be devastating. Current cost 
estimates place the monthly escalation figure at approximately 
$475,000. Under the most optimistic circumstances, with a further 
funding delay, the project will lose approximately $5,000,000 in value 
due to inflationary pressures. Such a loss to this truly unique project 
could very well force additional redesign and more cost. Recent 
experience in the New York market shows that the cost of construction 
is escalating faster than anticipated because of an increase in the 
number of major private sector projects currently underway.
    The Post Office renovation is designed to house the bankruptcy 
court as well as the United States Attorney's Office, which is 
currently paying top rental dollar for office space in the Pierrepont 
Plaza building which it shares with the stockbrokers it sometimes 
regulates. The project has for several years proceeded smoothly. To 
date nearly $16 million already has been committed to this project. The 
bankruptcy court is dealing with an unacceptable situation: cramped, 
dangerous, and demeaning courtrooms and offices.
Biloxi/Gulfport, MS (Mississippi Gulf Coast) (Site and Design)
    Because of the tremendous success of the casino gaming industry, 
the Biloxi and Gulfport area is growing economically, in population, in 
employment, and in requirements for the judiciary. GSA does not have 
existing space available to meet the needs of the court.
    The lease in the court's current facility terminates in FY 2003. 
Construction on a new facility, therefore, must begin early in 2000 to 
accommodate the timing of the court's relocation. Any delay in the 
authority to proceed with site acquisition and design in FY 1999 would 
create almost insurmountable problems with timing and funding of the 
court's subsequent relocation to permanent facilities in 2003.
    The current leased facility has design, construction, mechanical 
operation, maintenance, health, and safety problems. Given the 
condition of the facility, it is not anticipated that GSA will renew 
the lease. Further compounding operational and security concerns is the 
fact that of rices for a senior judge and a visiting judge's of rice 
are located outside the building. Real estate values in Biloxi/Gulfport 
are increasing rapidly due to new casino development. Because of 
muggings and a general lack of security, the U.S. Attorney has moved 
grand jury functions away from the building. Jurors regularly complain 
of eye and throat irritation. Jurors often deliberate in judges' 
chambers because the jury rooms are small and poorly ventilated. 
Heating and cooling is loud, unregulated and unreliable, often causing 
disruption of court proceedings. Roof leaks, appearance of mold and 
mildew on walls and ceilings, along with elevator failures are 
routinely documented.
Denver, CO Construction
    Any delay increases pressure on housing additional judicial 
officers within the existing building. The district court could be 
forced to house judges and staff, along with the critical jury assembly 
function, in separate facilities. Currently, the district court has 
been forced to use the jury assembly space to house the clerk's 
existing staff. This has caused the utilization of existing magistrate 
and district courtrooms for juror pools, leading to further problems 
with jury control, assembly, restroom, and lounge accommodations. 
Additionally, the court is concerned that any delay of the funding for 
the construction of this project may indirectly delay the purchase of 
the planned site for the project.
    In summary, the existing facility has operational and functional 
deficiencies, which are exacerbated with increased caseloads and added 
personnel, and will need room for more judicial officers in the near 
term. Separating court staffs, departments, and functions creates 
significant and counter-productive operational and security problems. 
Design funding was provided in fiscal year 1997; the design phase is 
well underway.
Eugene, OR (Site and Design)
    Space in the facility is so cramped that the district court has 
been forced to move all law clerks and the district court clerk's of 
lice out of the courthouse and into the adjacent Federal building 
complex. In addition, the bankruptcy court and probation office were 
forced to move out of the Federal Building in 1994-5, while pretrial 
services and grand jury proceedings continue in the distant wing of the 
Federal Building Complex. This has resulted in significant operational 
and security problems. Expansion space is desperately needed given 
these operational and security problems The U.S. Marshals Service and 
GSA have confirmed that the security problems in the building pose a 
``life threatening situation. Frequent demonstrations at the existing 
building have resulted in violence and property destruction. The court 
lacks proper judicial officer and prisoner circulation--prisoner escape 
attempts have been reported.
Laredo, TX (Construction)
    The existing courthouse was built in 1906. There is an immediate 
need for an additional courtroom and chambers for a new judge. The 
building has severe security deficiencies. It is critical that 
construction begin in 1999. Project design is scheduled for completion 
this summer.
    The civil and criminal caseload in Laredo is increasing--and 
requires additional judicial resources. The next appointed district 
judge will sit in Laredo. A judge from Victoria must now travel to 
Laredo to handle the work. In addition, bankruptcy filings in Laredo 
have more than quadrupled, increasing from 202 in calendar year 1994 to 
364 in 1995, 708 in 1996 and 884 in 1997 and show a similar trend this 
year. This expanded caseload will require the frequent presence of a 
bankruptcy judge--at least 1 or 2 weeks each month--to expeditiously 
dispose of the cases. In addition, the increased caseload places 
burdens on the facilities of the clerk's of rice. Because there is so 
much activity, the court is seeking temporary courtroom solutions for 
visiting judges. The court also must lease additional space for 
probation and pretrial services because of caseload growth.
    From 1995 to 1997, petty offenses with maximum sentences not 
exceeding 6 months imprisonment or $5,000 fines have more than doubled, 
increasing from 1,671 in 1995 to 1,770 in 1996 and 3,492 in 1997. The 
magistrate judge in Laredo must handle this increased burden, as well 
as preliminary matters in felony cases, the total of which increased 
from 1,448 in 1995 to 2,886 in 1997. In 1998, it is expected that the 
criminal caseload in Laredo will only increase: for the first 2 months 
of 1998 criminal case filings are three times the similar total for 
1997 in Laredo.
    The court is exploring the possibility of constructing interim 
space for bankruptcy functions and is seeking approval for an 
additional magistrate judge to handle the burgeoning immigration 
caseload. There is a major initiative by the Administration to enforce 
illegal immigration activity that is impacting the court's ability to 
handle its docket.
    The security in the current building is described by the U.S. 
Marshal's headquarters as among the worst in the nation. The Mexican 
border is a short 1,200 yards from the courthouse and there is always a 
potentially serious risk of flight by prisoners and defendants in 
custody. These security concerns can only be addressed with a new 
building. Delaying construction leaves the court, the litigants and the 
public at risk.
    Under the current schedule, the new courthouse will not be finished 
until the year 2001. Delaying construction prolongs the length of time 
this critical courtroom shortage and security problem exists in Laredo.
Springfield, MA (Site and Design)
    The need for a new Federal courthouse in Springfield stems from the 
serious security, structural and operating deficiencies at the current 
court facility. Any delay in availability of the funds necessary for 
this project will intensify the risks of injury both to judicial 
employees and to the public.
    Security risks became quite evident when in January 1997 bullets 
were fired into the windows of a courtroom from a parking garage 
located across the street from the building. Fortunately, no one was in 
the courtroom at the time the damage occurred. The district judges are 
increasingly confronted with gang-related, firearm and drug problems 
that many law enforcement agencies deem to be the worst in the State. 
This situation further exacerbates such security deficiencies as the 
lack of a van discharge area for the secure loading and unloading of 
prisoners; the lack of secure and separate prisoner corridors on the 
upper floors (where the courtrooms are located) resulting in dangerous 
prisoners being moved through public corridors in the presence of 
family, witnesses and other Federal workers occupying this multi-tenant 
facility. Moreover, the lack of courtroom holding cells and dedicated 
prisoner elevators accentuates the severe risks for potentially violent 
consequences facing the court. This situation is substantiated further 
by the U.S. Marshals Service's active support for the initiative for 
the new facility, citing ``egregious safety and security conditions 
inconsistent with safe court proceedings'' in the current building.
Jacksonville, FL (Construction)
    If this project is delayed, there will be several adverse 
consequences. First, GSA has already purchased the site. Part of the 
new site was obtained from the City of Jacksonville at a nominal cost 
because of its commitment to revitalize the downtown area. City Hall 
will be moving to an adjacent site in the near future. A skyway people 
mover has been built along the new site with a major stop located in 
front of the proposed courthouse. The commitment and investment made by 
the city warrant making funding available for this project immediately.
    The security concerns of the old courthouse cannot be overstated. 
The location of a U.S. Post Office facility in the existing building 
significantly affects the level of security that can be obtained. The 
mixing of judges, prisoners, and the public in the elevators and 
hallways is an accident waiting to happen.
    The inflation costs of delay will severely impact an already tight 
construction budget. Completion was previously scheduled for January 
2000. Pushing this date out further would require an increase in the 
project budget. A reduction in the size and scope of the building is 
not possible due to tremendous workload growth in this district.
Wheeling, WV (Construction)
    The present courthouse in Wheeling was constructed in the early 1 
900's and many of its systems are old. An original appropriation for an 
annex to the present courthouse was rescinded. A small portion of the 
original appropriation was preserved by Congress and this will permit 
some renovation of the existing courthouse and partial resolution of 
more serious existing security problems by some structural changes. 
However, it does not meet the future programmable space needs of the 
Court as outlined in the long range facilities plan for this district. 
Moreover, executive branch agencies, such as the U.S. Attorneys Office 
and the F.B.I., are located outside the courthouse in leased space. 
Long-term rent payments to a private sector landlord would no longer be 
necessary if an annex were built onto the Wheeling facility which could 
house these agencies. There is no space for additional judges or 
visiting judges. Finally, the current facility, in many ways, does not 
comply with the Americans with Disabilities Act.
Little Rock, AR (Site and Design)
    The court projects several additional judges to be added over the 
next 10 years. There is no space for further expansion in the existing 
building. The security situation in the existing building requires 
prisoners to be transported on public elevators and through public 
hallways.
    The project needs to proceed as currently scheduled so that space 
will be available as the new judges come on board.
Cape Girardeau, MO (Design)
    There are six judges (one resident magistrate judge and five St. 
Louis-based judges) who currently hold court in the Southeastern 
Division of the Eastern District of Missouri, plus a bankruptcy judge 
who travels to Cape Girardeau every month to hold court. This is 
expected to be the judicial staffing in the division for the 
foreseeable future. The existing building was constructed with only one 
full size courtroom. While renovation of a small hearing room recently 
has been completed and that space is now used as a second jury 
courtroom for civil trials, it is terribly undersized for a courtroom 
and is not capable of accommodating criminal trials because the jury 
box only has seating for six jurors. The criminal caseload in the 
division has grown substantially in the past 3 years. Not only do those 
cases create pressure for additional courtrooms, but the higher volume 
of criminal cases highlights the substantial security deficiencies in 
the existing building.
Greeneville, TN (Construction)
    Four courtrooms are needed immediately to handle the district, 
magistrate, bankruptcy and visiting judges because only one courtroom 
in the existing facilities has a jury room or facilities for the jury. 
During breaks and deliberations, juries must be moved to other areas in 
the building. There are no witness rooms, attorney conference rooms, or 
any spaces available for any parties during trials. The recently 
acquired annex located three blocks from the courthouse can be used 
only for civil trials and has no security facilities whatsoever (sally 
port, holding cell, parking, etc.). Basement space in the courthouse 
has been utilized by the judiciary to a maximum, but the space is 
substandard and not acceptable as office space.
    The operations of all court units and court-related agencies that 
use the courthouse are being driven by the limitations of the 
inadequate facilities at Greeneville. It has become exceedingly 
difficult to make this 94-year-old structure meet the demands of the 
expanding judicial needs in this division of the court. The court is 
having to ``shoehorn'' its constitutional responsibility into a 
physically limited environment.
    The site has been acquired and design will be completed well before 
the end of FY 1998. Delay severely handicaps and threatens this project 
as market forces will begin to erode the already limited budget.
Savannah, GA (Construction)
    There is no room for expansion or growth of any court or court-
related agency, in terms of either equipment or personnel. Given the 
ever-rising bankruptcy docket, this is a particular cause for concern. 
Most distressing to the court is the fact that prisoners are routinely 
paraded through hallways routinely interacting with courthouse 
personnel, the United States Marshals Service, and the public in 
general. With (1) the caseload expected to swell; (2) the anticipated 
addition of judgeships in the near future; and (3) current judges 
facing the prospect of taking senior status, the provision of 
construction funding is critical. The design is nearing completion; any 
delay will have negative impact on the overall cost to the government.
San Diego, CA (Site)
    The proposed site is one of few remaining blocks of land in 
downtown San Diego which has not yet been renovated and is the only 
site for the proposed annex. If GSA does not acquire the site, 
operations for the courts and related agencies will be impacted and 
will be forced to function in separate areas throughout San Diego 
County in the future. This action will increase the annual operating 
costs to the judiciary and all other related agencies in the City of 
San Diego. With San Diego's strong economy, vacancy rates continue to 
fall, increasing the cost of space in the city. It is public knowledge 
that the Federal Government intends to acquire this property. Recent 
demolition and subsequent site improvements by the current property 
owner are under way. These improvements and trends are increasing the 
marketability of the site. It would be shortsighted to delay and then 
be faced with the monumental task of finding another site.
San Jose, CA (Site)
    The largest concern in delaying site acquisition beyond 1999 is the 
disappearance of building sites in suitable areas of San Jose. This 
theme is stressed in courthouse planning documents prepared by GSA. The 
existing building is included in the area that has been designated for 
redevelopment by the city of San Jose's Redevelopment Agency. In recent 
years, downtown San Jose has experienced substantial new retail, office 
and hotel development. The city of San Jose's Redevelopment Agency has 
become active in selling desirable sites in the area surrounding the 
existing building, and plans are being made for their future 
development. This activity will limit the General Services 
Administration's ability to acquire a site in close proximity to the 
existing facility. Whether a site can be obtained in close proximity to 
the existing building impacts GSA's ability to recommend the continued 
use of the existing courtrooms. Because of this limited availability of 
sites and to allow co-location of court activities at the present 
location, a site should be acquired while vacant or undeveloped sites 
still remain.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
Statement of Judge Michael A. Ponsor, U.S. District Court, District of 
                             Massachusetts
    Dear Mr. Chairman: In response to your letter of September 11, 
1998, Chief Judge Joseph L. Tauro has designated me to testify at a 
hearing before your committee on September 17, 1998 regarding, among 
other things, the FY99 courthouse construction requests of the 
Administrative Office. I want to thank you for giving me this 
opportunity to appear.
    At the suggestion of Amy Dunathan, I am presenting, in thin written 
form, an outline of the remarks I intend to make at the September 17 
hearing.
    As I understand it, your committee wishes to hear, from someone 
with direct knowledge, the reasons supporting the authorization of 
funds for construction of a new courthouse in Springfield, 
Massachusetts. The justification for such an authorization can be 
briefly summarized: the current building housing court operations in 
western Massachusetts presents a clear and present danger to the 
physical safety of persons using it.
    Over three and a half years ago the Marshals Service concluded that 
``the current Springfield Federal Building should not house the Federal 
courts'' due to numerous, substantial security deficits in the 
building. In a letter of May 23, 1995, Wendell C. Shingler, Chief, 
Administrative Services Division of the United States Marshals Service 
concluded, in reference to the Springfield told Federal Building, that 
``the longer the public, Judiciary, U.S. Marshals Service and other 
building tenants continue to operate under these conditions, the 
greater the continued risk for incident in loss of life at this 
location.'' See Attachment A appended, at page 3.
    The building occupied by our court facility is not, properly 
speaking, a courthouse at all. It is a Federal office building 
featuring a large glass atrium with multiple entrances, and numerous 
other incompatible uses, to which our court operation has been 
awkwardly joined. Its problems include multiple unsecured entrances, 
the lack of any secure van sallyport for prisoners, the absence of any 
secure prisoner corridors, the inadequacy of secure prisoner/attorney 
interview rooms, a shortage of courtroom holding cells, the absence of 
any dedicated prisoner elevators or secure circulation systems, and the 
inadequacy of the U.S. Marshals central cellblock.
    Springfield is located on a corridor leading north from New York 
City to New Haven and Hartford. Connecticut, through which the 
contagion of criminal gang-related activity has flowed to Western 
Massachusetts. A large number of my criminal cases now involve drug and 
gun-related gang prosecution involving acts of violence. I have tried 
cases where gang members have been convicted of drive-by shootings. 
Currently before me in a 3-month gang-related trial of charges brought 
under the RICO statute, containing allegations of both murder and 
conspiracy to murder. Gang-related violence has broken out in the 
immediate vicinity of my courthouse and flowed even into the Federal 
building courtyard as the attached incident report of February 5, 1997 
attests. See Attachment B. appended.
    Perhaps the most dramatic evidence of the court's vulnerability 
appeared on two occasions, in March 1994 and January 1997, when bullets 
or projectiles were shot into the windows of my courtroom from a nearby 
parking garage. See Report of March 28, 1994 and letter of April 3, 
1997, appended as Attachments C and D.
    The absence of any secure mechanism for moving prisoners into the 
building or within the building during court proceedings makes our 
court facility, in my view, a disaster waiting to happen. I had hoped, 
as recently as 1995, that the buildings deficiencies could be cured 
through renovation. However, a careful study of thin option by the 
Marshals Service resulted in the conclusion that this would be 
``literally impossible without the expenditure of millions of dollars 
Even then, it in not clear that the problem would be solved.
    The dedication of scores of people in the Springfield facility, 
particularly the U.S. Marshals Service and their contract staff, has 
bought our operation time. This hard work, along with good luck, has 
kept tragedy at bay, but even the beat efforts cannot compensate for 
thin building's deficiencies, and good luck does not lent forever I 
request your committee's assistance in authorizing the funds to permit, 
as promptly as possible, the commencement of the construction of a 
adequately secure Court facility for Springfield.
    Again, I thank you and your committee for the opportunity JO peas 
on these comments.
            Very truly yours,
                    Michael A. Ponsor, U.S. District Judge,
                                        U.S. Department of Justice.
                                 ______
                                 
                            United States Marshals Service,
                                                      May 23, 1995.

    Mr. David Bibb, Deputy Commissioner,
    Public Buildings Service,
    General Services Administration,
    GSA Central Office Building,
    18th & F Streets, Northwest,
    Washington, DC 20405.

    Dear Mr. Bibb: The United States Marshals Service is actively 
supporting a new United States Courthouse in Springfield, 
Massachusetts--due to egregious safety and security conditions 
inconsistent with safe court proceedings in the current Springfield 
Federal Office Building and Courthouse.
    Intelligence available to the Marshals Service indicates, the City 
of Springfield is confronted with gang-related crime that has 
threatened to overcome the local resources. In addition to Federal and 
State gang task forces, the Governor recently dispatched uniformed 
State Troopers to the city streets to assist the Springfield Police 
Department in dealing with the explosive gang situation. At many law 
enforcement meetings, Springfield is targeted as having the worst 
organized gang problems in Massachusetts. The State District Attorney 
has reported to the State legislature that witness intimidation is a 
daily occurrence in the Springfield State Courts. As Federal 
prosecutive priorities focus on gang activities, similar threats can be 
expected in the less secure Federal court in Springfield.
    The Springfield business district immediately adjacent to the 
Federal building housing the courts has evolved into a series of 
barroom and seedy establishments frequented by vagrants and criminal 
elements. The but tong has inadequate security for this location 
generally and specifically for high security court proceedings. Only 
costly extensive and intensive deployments of manpower con bring a 
measure of perimeter security to this very vulnerable building.
    Neither the United States Marshals Service nor the GSA Federal 
Protective Service has the manpower or the funding to increase manpower 
to We appropriate security level needed. The number of criminal trials 
in thin courthouse have escalated due to the increase in crime in the 
area and the increase in members of the Federal judiciary. In order to 
keep pace with the alarming rise in crime a U.S. Marshals Service 
review was conducted recently.
    The U.S. Marshals Service Headquarters Chief of Space Management 
and Senior Architect performed an initial prisoner movement and 
security review of this facility on October 11, 1994, due to problems 
associated with Prisoner movement and security.
    The results of this site review by my staff are alarming. The 
following are just a few of the security deficiencies and problems that 
exist with securing this facility:
    The Federal Building in Springfield, that also houses the Courts is 
a bifurcated largely glass structure--with a open atrium in the middle;
    The building has multiple unsecured entrances and was not designed 
to restrict public movement. Over 20 Federal organizations are housed 
in this facility, many requiring unrestricted and special handicapped 
access to the public; such as the Veterans Administration clinic, 
Social Security, Internal Revenue Service, etc.;
    The facility does not have a secure van sallyport that will 
accommodate our vans or mini bus for loading and unloading of 
prisoners, due to the building settling during construction 13 years 
ago;
    There are no secure prisoner corridors on the upper floors of this 
Federal building leading to the Courtrooms. Dangerous prisoners are 
moved in public corridors in the presence of family, friends, 
witnesses, court personnel, and other Federal tenants;
    There are inadequate secure prisoner/attorney interview rooms;
    There are no courtroom holding cells for each courtroom. Prisoners 
must be transported to the central cellblock at every recess or break 
in court proceedings, through public or judiciary corridors;
    The courthouse: does not have dedicated prisoner elevators or 
secure circulation systems;
    The U.S. Marshals central cellblock has inadequate prisoner 
detention cells. The prisoner traffic in these facilities indicates the 
need for at least an additional 3 to 5 cells. The present cellblock 
configuration creates a dangerous situation that does not even allow 
for the proper segregation of prisoners--male, female, juvenile, 
isolation, multi-defendant, which is critical given the increased gang 
activity in this regional area;
    The public counters to separate U.S. Marshals staff from the 
general public or possible intruders are inadequate and not bullet 
resistant.
    The Current U.S. Marshals office, support and cellblock space, at 
this location is seriously deficient by at least 4-5,000 square feet 
with no workable contiguous space available for expansion.
    The above are just a few of the major security concerns that we 
have for this facility. After completion of this physical review, the 
Senior Architect prepared three concept drawings to determine if this 
facility could be reconfigured to meet the needs of the Judiciary and 
the U.S. Marshals. After review of these concept drawings, we 
determined that prisoner movement problems could not be corrected to 
current standards, a van sallyport could not be added for secure 
movement of prisoners, and separate circulation systems could not be 
incorporated to prevent prisoners, the public and Judges from using the 
same corridors. We further determined that adding prisoner elevators 
with secured vestibules and corridors, to ensure the safe and secure 
movement of the U.S. Marshals prisoners from the cellblock to the 
Courtrooms, would be literally impossible unless the General Services 
Administration was willing to fund millions of dollars to install these 
elevators ire the existing facility.
    This review determined that the current Springfield Federal 
building should not house the Federal courts and that a courthouse that 
will meet the safety and security needs of the public, Judiciary and 
U.S. Marshals should be constructed. We strongly encourage you to 
support a prospectus and fund a new United States Courthouse facility 
in Springfield, Massachusetts. The longer the public, Judiciary, U.S. 
Marshals Service, and other building tenants continue to operate under 
these conditions, the greater the continued risk for incident and loss 
at life at this location.
    If your staff needs additional information from the U.S. Marshals 
Service, please have them contact Dave Barnes, Chief, Space Management 
on (703) 603-7614.
            Sincerely,
                                Wendell C. Shingler, Chief,
                                  Administrative Services Division.
                                 ______
                                 
                              Attachment D
                          Chambers of Judge Michael Ponsor,
                              United States District Court,
                                 District of Massachusetts,
                              Springfield, MA 01103, April 3, 1997.

    P. Gerald Thacker, Assistant Director,
    Administrative Office of the U.S. Courts
    One Columbus Circle NE, Suite 7-334
    Washington, DC 20544.

    Dear Jerry: I'm not sure I have previously reported to you an 
ominous incident that occurred at the Springfield courthouse some time 
during the first week of January.
    Upon return from the New Years holiday, I found what appeared to be 
two large bullet holes in two of the windows in my courtroom. A later 
investigation suggested that the holes may have been caused by a pellet 
gun, or sling shot, or possibly some sort of firearm. Fortunately, no 
one was in the courtroom at the time the incident occurred.
    This is the second time that my courtroom windows have suffered 
damages as a result of something being fired or thrown from an adjacent 
parking garage.
    The incident highlights the very onerous security deficiencies at 
the Springfield courthouse. These have already been noted in detail by 
the U.S. Marshal's Service. With upcoming high profile gang trials, the 
security deficits here are becoming a matter of increasing concern.
    I happened to be speaking to Doug Woodlock the other day and he 
suggested that I write this letter to you for consideration in 
connection filth the ongoing discussions of courthouse building 
projects.
    Please call if you have any questions.
            Best regards,
                                         Michael A. Ponsor,
                                               U.S. District Judge.
                               __________
                 Statement of Judge B. Avant Edenfield
    Members of the committee: Please let me express to you my personal 
appreciation for your kind invitation to appear before the committee 
today for the purpose of discussing the proposed courthouse annex 
project to be located in Savannah, Georgia. I have served as a member 
of the United States District Court for the Southern District of 
Georgia for nearly 20 years including one 7 year tenure as chief judge. 
During this entire time my duty station has been Savannah, Georgia. 
Savannah is a unique and historic city founded in 1733 by British 
General and philanthropist, James Edward Oglethorpe, as the first city 
in Georgia, the thirteenth British Colony in America. As an original 
colony, Georgia ultimately joined in the formation of the Union of 
States as one of the 13 original States.
    By way of historic accident, good luck, and industrious efforts on 
the part of private individuals, much of the original downtown district 
of Savannah was preserved through the centuries and is now designated 
as a National Historic Landmark District, the largest such district in 
the United States. It is a city of immense beauty and charm. The city 
plan is unique in that the original layout of the city envisioned by 
Oglethorpe survives to this day. The most prominent feature of his city 
plan is a series of squares or open-air parks which stand astride 
alternating north-south thoroughfares in the city. These squares 
initially were envisioned as public gathering places or places to which 
the residents could withdraw in the event of hostile action by the 
Spanish or by Indians in the vicinity. Over the years the squares 
evolved into a series of over 20 oases in the central business district 
which have accommodated an active and vibrant downtown residential 
population in a central business district of superior livability.
    The United States District Court for the Southern District of 
Georgia is currently housed in the United States Post Office and 
Courthouse Building which faces Wright Square, one of the squares laid 
out in the original plan established by Oglethorpe. More importantly 
the Courthouse sits on the very plot of ground which was designated by 
Oglethorpe from the inception of his plan for the city as the site of a 
courthouse. The Southern District of Georgia is one of the original 13 
courts created by the Judiciary Act of 1789 and its location on this 
site is of great historic significance. The building in which the court 
is housed was completed in 1899 and is listed on the National Register 
of historic places. At one time the building housed all, or essentially 
all, of the offices and agencies of the United States in Savannah and 
Chatham County, including the United States Post Office, the United 
States District Court, the United States Attorney's Office, Probation 
Office, the Office of the Clerk of the Court, the United States 
Bankruptcy Court, offices of our two Senators and district Congressman, 
General Services Administration, the Department of Labor, and others. 
Because of growth over the years non-court related agencies have 
gradually been relocated into other space in the Savannah area. In May 
1993, after gradual relocation of numerous non-court related agencies 
from this building, the United States Attorney's Office required 
expansion and was relocated to leased space in a nearby building. At 
present the building houses a United States postal facility, three 
United States District Judges, two United States District Courtrooms, 
one United States Magistrate with a courtroom and one United States 
Bankruptcy Judge with a courtroom, together with the of rices of the 
clerks of these courts. Two visiting District Judges and one visiting 
Bankruptcy Judge also hear cases in the present building. The United 
States District Courtrooms are slightly smaller than the United States 
Court and Design Guide minimum requirement. The magistrate and 
bankruptcy courtrooms are significantly below the design standard for 
magistrate and bankruptcy judges. In short the present building is 
inadequate for even our present needs.
    The Administrative Office of the United States Courts wishes to 
retain the current United States Courthouse building because of its 
historic significance and prominence in the heart of the Savannah 
Historic District located on one of the most visible and centrally 
located squares in the historic district. The desire to retain this 
location is shared by the City of Savannah, Chatham County, the 
Historic Savannah Foundation and other local historic and preservation 
groups and individuals.
    The prospectus for this project proposes construction of a 165,000 
square foot courthouse annex adjacent to the existing Federal building. 
The annex would provide 5 new courtrooms--2 district, 1 magistrate, and 
2 bankruptcy--in addition to offices for the United States Marshal's 
Service, United States Attorneys, United States Probation Service, and 
the General Services Administration. This project came about as a 
result of the Long Range Facility Plan of the Administrative Office of 
the United States Courts and will meet the 10-year requirements of the 
courts and court related agencies. The entire complex--including the 
Annex, the existing Courthouse, and the adjacent Corps of Engineers 
building will meet the Courts' 30-year program needs.
    Because of the desire to retain the existing Courthouse and place 
the Annex in a location so as to permit the two buildings to operate as 
a single facility, and because of the sensitive nature of construction 
in a national historic district, considerable effort has been devoted 
to the planning process. Great care has been taken to receive input 
from the community and from historic preservation interests, to be 
responsive to those concerns and to produce a project which would 
enhance and not diminish the authenticity of the historic district. 
This process has resulted in obtaining the favorable consideration of 
all the constituent groups with concern over how a project of this 
magnitude could affect the quality of the historic district.
    Through the efforts of the design team, an annex has been designed 
which will be visually similar to and compatible with the existing 
building. The relationship between the Annex and the present Courthouse 
is illustrated on the coversheet to the materials which have been 
provided to you. Two renderings of this building are found at pages 1 
and 2 of the material. This site was selected after a review of 
numerous alternative sites and was determined to be the single best 
location for the courthouse annex. Selection of this site and 
construction on it will, by necessity, require the demolition of two 
smaller Federal buildings constructed during the mid-1980's. A 
photograph of these buildings is at page 3. A map of the area and a 
summary of how this particular site was chosen begins at page 4 of the 
materials. The justification for demolition of the two adjoining 
Federal structures concluded as follows:
    The buildings were completed in 1986 at a cost of approximately 
$1.8 million (not including acquisition cost of the property). The 
current values of these two buildings is estimated to be approximately 
$1.6 million. Critics of these buildings generally agree that the 
architecture is inappropriate for the National Historic Landmark 
District (``COULD''). The tiles on the exterior of the buildings have 
been described as unsuitable for the exterior of an important public 
building in the historic district of one of America's most beautiful 
cities. This sentiment reflects the opinion of the majority of the 
citizens of Savannah . . .
    In addition to the programmatic benefits of selecting the annex 
site . . . the selection of this site will create the added benefits 
and savings associated with not having to purchase a new site. This is 
especially important in light of the fact that the other sites under 
consideration contain multiple parcels under different ownership; would 
have required extensive environmental and historical/archeological 
investigation; in many cases would have severely impacted, or possibly 
required, the demolition of existing historic structures; and would 
have resulted in significant expenses to relocate existing individuals 
or businesses. Anticipated savings resulting from not purchasing the 
next best site are approximately $3.2 million.
    To illustrate the incompatibility of the buildings scheduled for 
demolition with neighboring structures on Telfair Square, you may 
compare page 3 with pages 10, 11 and 12. The full text of this 
discussion concerning the demolition of two of the three adjoining 
Federal buildings is in your materials at pages 8 and 9. I believe that 
this decision creates a ``win/win situation'' in that two existing 
Federal buildings, which are inefficient in size and layout and which 
are visually inappropriate for their location, can be replaced by a 
structure that will be visually compatible with the neighborhood 
surrounding Telfair Square. The building will be a credit to the United 
States Government, will meet the programmatic needs of the Federal 
Judiciary in the Savannah Division of the Southern District for the 
foreseeable future, and will save taxpayers' dollars in the process.
    Construction of a building that achieves this most desirable result 
and which enjoys the approval which it has received from the Savannah 
Historic District Board of Review which concluded that the building 
meets the historic district guidelines for height and mass and visual 
compatibility is an accomplishment of which I am most proud. I extend 
credit for this to all individuals and agencies involved, including, 
but not limited to, the Congress which has appropriated funds for site 
selection and design, the Administrative Office, the General Services 
Administration, local elected officials, business leaders and the 
historic preservation community. While I recognize that achieving this 
consensus has not been without its costs, as for example, to adhere to 
the requirement that the exterior building materials be matched as 
nearly as possible to those of the existing building, nevertheless I am 
convinced that the records of the General Services Administration and 
the Administrative Office will amply illustrate that the project has 
undergone extensive review to insure that the maximum value is received 
for the Federal Government's investment in the continued vitality and 
revitalization of the Savannah Historic District, and in furtherance of 
the space needs of our Court.
    At this time if there are any questions of a specific nature I'll 
be delighted to respond.
                               __________
               Statement of Ambassador A. Peter Burleigh
    I appreciate the opportunity to appear before you this morning to 
discuss the Department of State's position on the proposed new building 
for the United States Mission to the United Nations.
    The Department is actively committed to the efforts of the United 
Nations to grapple with the complex international concerns inherent in 
the post Cold War era. The USUN Mission is a vital and visible part of 
this effort. The Mission Building--built on land which was a gift from 
John D. Rockefeller, Jr.--constitutes the platform for United States 
activities, and is located in a prime location, at 799 United Nations 
Plaza in New York City, right across from the United Nations Building.
    The existing USUN Mission Building was constructed on a 1/3 acre 
site in 1959. The present structure limits the net occupiable floor 
space. Its 39-year-old mechanical and electrical systems are in need of 
replacement to avoid potentially hazardous conditions. The age, cost to 
maintain and repair these systems, and lack of energy efficiency would 
necessitate costly replacement of the equipment in a building that no 
longer serves the U.S. Government needs.
    In an effort to determine the best solution to this problem, the 
General Services Administration studied the building and our program 
needs. They determined that the building was in a sufficient state of 
disrepair that could hinder our ability to protect our people and the 
vital mission they perform. There was no acceptable means of renovating 
the structure, or adding on to it that would meet our current and 
future requirements.
    In June 1997, GSA proposed that the existing building be 
demolished, and a new building be constructed on the same site, with 
the USUN staff relocated to nearby temporary leased space. The new 
building will maximize use of the site to provide additional space, 
while improving the net to gross occupiable square footage by 29 
percent. The new USUN-Mission building will provide increased space (an 
anticipated yield of 107,000 occupiable square feet compared to the 
existing 46,000) that will give us desperately needed staff offices and 
special purpose and support space for meetings, conferences, the U.N. 
General Assembly and other diplomatic functions. It will enhance the 
physical security of the building and provide essential protection to 
the information we manage. I cannot overemphasize the importance of 
protecting information which is integral to the diplomatic negotiations 
process.
    Due to the lack of space in the existing building, much of the 
special purpose space has been converted to of floe use, resulting in 
staff being displaced for meetings, events and for use by visiting 
dignitaries. In addition to meeting the USUN Mission needs, the 
proposed building would allow us to provide consolidated of floe space 
for staff of the United States Information Agency and the Department's 
Office of Foreign Missions, currently housed in separate leased 
buildings. The resulting rent savings will offset some of the increased 
annual charges for the new building.
    As stewards of this asset, GSA recommended the demolition of the 
existing building and construction of a new, larger building. Our 
desire to remain at this site is a sign of the U.S. commitment to the 
United Nations and a valuable symbol of our leadership in that 
organization. The Department approved of GSA's proposal and seeks your 
support and funding of this essential project. GSA stands ready to 
proceed with the A&E design of the new building in FY99. We are 
exploring options to lease temporary space for the USUN Mission in mid-
1999, with planned occupancy in January 2000. If all funding is 
provided and the schedules are not changed, we would take occupancy of 
the new USUN Mission Building in late 2003 or early 2004.
    We are aware of the financial constraints in this budget 
environment and we continually strive to be good stewards of public 
funds. We believe this is the appropriate time to undertake this 
project and request your support of the GSA budget of approximately $55 
million. The Department of State will have additional costs for this 
project, related to construction security, above standard construction, 
telecommunications, and other associated modifications. Funding for 
these items will be requested through our normal appropriations 
process.
    Let me close by stressing that, with the end of the Cold War, U.S. 
multi-lateral diplomacy has become more critical and demanding than 
ever before as we strive to ensure global peace. A state-of-the-art 
facility that provides enhanced security and telecommunications 
technology as well as additional space to accomplish our mission, is 
key to continued U.S. leadership in the United Nations in the new 
millenium.
    Mr. Chairman, I appreciate the opportunity to discuss this project 
with you and would be pleased to respond to any questions that you or 
members of the committee may have.
                               __________
  Statement of Bernard H. Berne, M.D., PH.D. on the Fiscal Year 1999 
    Capital Investment and Leasing Program of the General Services 
 Administration; The Fiscal Year 1999 Courthouse Construction Requests 
   of the Judicial Conference of the United States; aNd S. 2481, the 
                  Public Buildings Reform Act of 1998
    I am a resident of Arlington, Virginia. I serve the Food and Drug 
Administration (FDA) as a Medical Officer and as a reviewer medical 
device approval applications. I am testifying as a private individual 
and not as a representative of FDA or of any other organization.
    In 1995, Congress rescinded all construction funds for FDA's 
consolidated facility, which the General Services Administration (GSA) 
was planning to build in Clarksburg, Montgomery County, Maryland. 
Following this recission, in 1997, GSA selected the former Naval 
Surface Warfare Center (NSWC) in White Oak, Montgomery County, 
Maryland, as its preferred alternative for the major FDA consolidation. 
GSA has no funds available to construct this facility.
    White Oak is a very poor location for the FDA facility. Metrorail 
is three miles away. Area roads are highly congested. Public 
transportation to the NSWC is infrequent. No other major Federal 
facility is nearby.
    GSA and FDA are planning a country club in White Oak's affluent 
suburbs. FDA's 130-acre campus will have a visitor center and other 
amenities. Adjacent Federal property will contain a golf course and a 
woodland. Congress must stop this extravaganza.
    The Southeast Federal Center in Washington, DC is now available for 
a major Federal headquarters. Adjacent to a Metro station and close to 
the Capitol, this site appears ideal for FDA's facility. The site has 
sufficient planned density to accommodate all of FDA's space 
requirements.
    Executive Orders 12072 and 13006 and the policies of the National 
Capital Planning Commission (NCPC) require that GSA and FDA give the 
Southeast Federal Center preference over the White Oak site. However, 
GSA often disregards these policies and Executive Orders 12072 and 
13006 in urban areas throughout the United States.
    Executive Orders 12072 and 13006 require Federal space and Federal 
use of space to serve to strengthen the nation's central cities, to 
make them attractive places to live and work, and to encourage their 
development and redevelopment. It is essential that Federal agencies, 
including GSA, comply with these Executive Orders in order to help 
revitalize economically depressed areas in all cities within the United 
States, including Washington, DC.
    On February 17, 1998, your committee held a Field Hearing in 
Helena, Montana, on the Federal Public Building Leasing Process. At 
that hearing, officials of the Cities of Helena, Billings, and Butte, 
Montana and of the National Trust for Historic Preservation testified 
that GSA had disregarded the requirements of Executive Orders 12072 and 
13006 by locating new courthouses and other Federal facilities outside 
of the central business areas of the central cities of Helena, 
Billings,and Butte, Montana, and Clarksburg, West Virginia.
    GSA has similarly disregarded these Executive Orders when leasing 
and constructing numerous Federal buildings in the Washington, DC, 
area. The FDA consolidation is just one of these examples of such 
disregard in the National Capital Region.
    I presently work in an FDA building that GSA leases in an 
unincorporated suburb outside of Rockville, Maryland. This building is 
not within any city. Its leasing was a clear violation of Executive 
Orders 12072, since GSA did not advertise for space in Washington, DC, 
before it signed the lease for this building 6 years ago.
    Your committee needs to address this serious problem in the 
Washington, DC area. To help restore the District's economy, Congress 
needs to assure that GSA and other Federal agencies comply with 
Executive Orders 12072 and 13006 in the National Capital Region when it 
reviews individual projects that are included within GSA's Fiscal Year 
1999 Capital Investment and Leasing Program.
    Because past actions and requests by conference committees on 
Appropriations have encouraged GSA to evaluate sites for the FDA 
consolidation that are in Montgomery County, Maryland, GSA has not 
evaluated any sites in the District of Columbia for the FDA 
consolidation. This is improper, since no legislation presently exists 
that requires FDA to consolidate in Montgomery County, Maryland, or in 
any other specific location.
    The legislation authorizing FDA's consolidation (P.L. 101-635) does 
not specify any location for the consolidated facility.
    The only legal provisions that have ever required FDA to locate any 
such facility in Montgomery County were contained in appropriation laws 
that have now been superseded.
    In 1995, Congress rescinded all funds previously appropriated to 
construct the Montgomery County facility. The rescission therefore 
removed any legislative requirement that FDA consolidate in that County 
or in any other specific location.
    Congress has not appropriated any funds to support property 
acquisition or construction for FDA's major consolidated facility since 
the 1995 rescission. No FY-1998 legislation or FY-1999 appropriation 
bill designate any funds to acquire property for or to construct any 
FDA building.
    GSA's Fiscal Year 1999 Capital Investment Program contains no 
proposal to fund any part of the FDA consolidation. Despite this, GSA 
is continuing to support and promote a consolidation of FDA at White 
Oak.
    Your committee needs to apply its jurisdiction under the Public 
Buildings Act of 1959 (P.L. 86-249) to this project. You need to 
enforce Section 7 of the Public Buildings Act, which requires your 
committee to ``insure the equitable distribution of public buildings 
throughout the United States''.
    To accomplish this goal, members of your committee must require 
that a prospectus be approved for the entire FDA consolidation before 
Congress appropriates any funds for GSA to acquire the White Oak site 
or to award contracts for any decontamination or construction on this 
or any other site of any new FDA facility.
    Members of your committee must assure that appropriations 
legislation does not contain provisions that exempt the FDA 
consolidation from the prospectus requirement. Past appropriations 
legislation, which were later rescinded, have contained such 
provisions.
    Your committee must also assure that Congress does not appropriate 
any funds to GSA for any FDA consolidated facility before your 
committee approves a prospectus for the project. Some people 
incorrectly believe that authorizing legislation for this project 
somehow permits GSA to construct this facility without receiving your 
committee's approval of a prospectus.
    It is important for your committee to recognize that the project's 
authorizing legislation (P.L. 101-635) contains no provisions that 
exempt any FDA consolidated facility from the requirements of the 
Public Buildings Act of 1959.
    P.L. 101-635 authorizes the Secretary of Health and Human Services 
to acquire and construct a single consolidated facility. It authorizes 
GSA to do nothing except to consult with the Secretary.
    It is possible that Congress can appropriate funds to the Secretary 
of HHS to build this facility in the absence of a prospectus. However, 
the project clearly requires prospectus approval before Congress can 
appropriate funds to GSA to begin construction.
    Your committee has requested GSA to provide an 11(b) report to your 
committee for this project. To the best of my knowledge, GSA has not 
yet submitted this request. GSA is, however, now preparing to submit to 
Congress a ``business plan'' to support the funding of a public-private 
partnership that will construct and operate an FDA consolidation at 
White Oak.
    The 11(b) report and/or ``business plan'' should contain all of the 
elements required for a prospectus. Your committee needs to treat the 
11(b) report and/or business plan as a prospectus.
    Your committee should allow public witnesses to testify on the 
11(b) report and/or business plan. To assure compliance with the Public 
Buildings Act, your committee should vote on a resolution that 
considers the 11(b) report and/or business plan to be a prospectus and 
that proposes its approval or disapproval.
    Your committee needs to assure that no funds are ever again 
appropriated in a manner that would allow GSA to construct this 
facility before your committee approves a prospectus.
    In a related matter, GSA has informed the National Capital Planning 
Commission that it plans to begin construction in 1998 on an 
administrative and laboratory facility for FDA's Center for Food Safety 
and Applied Nutrition (CFSAN) and Center for Veterinary Medicine (CVM) 
in College Park, Prince George's County, Maryland.
    The CFSAN/CVM facility will not be a component of the major FDA 
consolidated facility. It is therefore not authorized by the FDA 
Revitalization Act. Despite this, GSA has stated that this project is 
fully funded.
    GSA is not correct. The FY-1996 Treasury Appropriations Act 
appropriated funds for an FDA facility in Prince George's County, 
Maryland. GSA plans to use these funds for the CFSAN/CVM project.
    However, the Appropriations Act contained a provision that limited 
GSA's use of these funds to the preparation of a proposed prospectus 
for the project. Despite this provision, GSA intends to use these funds 
for site acquisition and construction in the near future.
    GSA has never submitted a prospectus for the Prince George's County 
CFSAN/CVM facility, and your committee has never approved one. This 
facility, which is not authorized by any legislation, would relocate 
about 800 FDA employees from downtown Washington, DC, to College Park, 
Maryland. Further, its construction would be inconsistent with the FDA 
Revitalization Act, which authorized only a single FDA consolidated 
facility.
    A GSA official has informed me that GSA has submitted an 11(b) 
report to your committee that describes the College Park project. Your 
committee needs to consider this as a prospectus.
    Your committee needs to take immediate action to prevent GSA from 
expending funds from the FY-1996 Treasury appropriation to construct 
this project and inform GSA that it cannot begin construction unless 
your committee approves a prospectus and GSA subsequently receives a 
new appropriation for the project. GSA apparently intends to violate 
the law and to use these funds in the absence of an approved 
prospectus. This will be a misuse of appropriated funds.
    GSA and other agencies often evade their responsibilities to submit 
a prospectus as required by the Public Buildings Act by claiming that 
authorizing legislation, such as the FDA Revitalization Act, exempts 
them from the Public Buildings Act. I therefore request that you amend 
S. 2481 to eliminate such exemptions.
    I ask the Committee on Transportation and Infrastructure to take 
the following actions:
    1. Please oppose any future appropriation of funds for GSA to 
decontaminate, prepare, or acquire any site for any part of the FDA 
consolidation until your committee has approved a prospectus for the 
entire consolidation in accordance with the provisions of the Public 
Buildings Act of 1959 and assures that GSA and FDA consolidate FDA in 
only one facility.
    2. Please amend S. 2481, the Public Buildings Reform Act of 1998, 
to prevent any appropriation and utilization of funds for the 
construction and acquisition of any public buildings (such as for the 
FDA consolidation) unless the projects fulfill all of the requirements 
of the Public Buildings Act of 1959. My statement below contains 
suggested bill language for such an amendment.
    3. Please take actions that will assure that GSA will fully comply 
with Executive Orders 12072 and 13006 in all projects that will be 
funded by GSA's Fiscal Year 1999 Capital Investment and Leasing 
Programs throughout the United States and in various courthouse 
projects that may be contained within the Fiscal Year 1999 Courthouse 
Construction Requests of the Judicial Conference of the United States;
    The above Executive Orders and NCPC regional policies presently 
require GSA to give preference for the FDA consolidation to a site in 
the District of Columbia, such as the Southeast Federal Center, rather 
than to sites in suburban Montgomery and Prince George's Counties, 
Maryland. The Executive Orders further require GSA and FDA to economize 
on their space requirements to assure compliance with their provisions. 
GSA is not presently doing this for the FDA consolidation and for many 
other projects in the Washington, DC Metropolitan Area.
    4. Please consider GSA's 11(b) report and/or business plan on the 
FDA consolidation to be a prospectus, invite non-governmental public 
witnesses to testify on the report and/or business plan and take a vote 
on a resolution to approve or disapprove a project prospectus.
    5. Please oppose any future appropriation of funds to support an 
FDA consolidation at the White Oak Naval Surface Warfare Center in 
Montgomery County, Maryland.
    6. When Congress considers the FY-2000 appropriations to GSA, 
please ask the Treasury Subcommittee of the Senate Committee on 
Appropriations to appropriate $4,000,000 to GSA's Federal Buildings 
Fund for the study of a major FDA consolidation in the District of 
Columbia, with an initial focus on the Southeast Federal Center and its 
vicinity.
    7. Please ask GSA or the General Accounting Office to appraise the 
value of the White Oak site and to estimate the revenues that the 
Government can gain from a sale of the site. Such a sale can add 
additional resources to the Federal Buildings Fund and can help support 
the FY-1999 GSA Capital Investment and Leasing Programs.
    8. Please take action to prevent GSA from expending Federal funds 
to construct FDA's CFSAN/CVM facility in College Park, Prince George's 
County, Maryland, until your committee has considered a resolution for 
approval or disapproval of a prospectus for the project and until 
Congress has appropriated funds following any approval of the 
prospectus. Please consider GSA's 11(b) report on the College Park 
CFSAN/CFM project to be a prospectus, hold a public hearing concerning 
the report, and invite non-governmental witnesses to testify at the 
hearing.
                        Explanation of Requests
    1. Please oppose any future appropriation of funds for GSA to 
decontaminate, prepare, or acquire any site for any part of the FDA 
consolidation until your committee has approved a prospectus for the 
entire consolidation in accordance with the provisions of the Public 
Buildings Act of 1959.
    The Public Buildings Act of 1959 requires the approval of a 
prospectus for all major GSA building projects before funds can be 
appropriated for construction and site acquisition.
    Provisions in the 1992, 1993 and 1995 Treasury, Postal Service, and 
General Government Appropriations Acts (P.L. 102-141, P.L. 102-393, and 
P.L. 103-329) permitted GSA to use the funds made available in those 
Acts for the FDA consolidation and for certain other projects, even 
though no prospectuses for these projects had been approved. These 
provisions released GSA from its obligation to comply with the Public 
Buildings Act of 1959 when planning the early phases of the FDA 
consolidation.
    However, the 1995 Rescission Act (P.L. 104-19) rescinded all 
construction and site acquisition funds for the Montgomery County, 
Maryland, phase of the FDA consolidation. Further, Congress did not 
appropriate sufficient funds in the appropriations acts prior to 1995 
to allow GSA to complete FDA's CFSAN/CVM facility in Prince Georges 
County. Therefore, these provisions no longer affect the major FDA 
consolidation and the Prince George's County facility.
    Members of your committee must assure that such provisions do not 
appear in any future Appropriations Acts. Such provisions make a 
mockery of the Public Buildings Act.
    To the credit of Congress, the 1996 and 1997 Treasury 
Appropriations Acts (P.L. 104-52 and P.L. 104-208) contained no such 
exemptions. Provisions in these laws state that any appropriated funds 
shall not be available for the construction, repair, alteration, and 
acquisition of any large public buildings project if your committee had 
not approved a prospectus for the project before the Acts had taken 
effect. Members of your committee should assure that the FY-1999 
Treasury Appropriations Act contains this provision.
    In 1995, members of the House of Representatives debated the need 
for a prospectus for the FDA consolidation project when the 1996 
Treasury, Postal Service, and General Government Appropriations bill 
came to the floor of the House (Congressional Record, July 19, 1995, p. 
H7200-H7206). Some members of Congress appear to believe that the 
consolidation's authorizing legislation (P.L. 101-635) may exempt the 
consolidation from the prospectus requirement.
    This belief is incorrect. The FDA Revitalization Act (P.L. 101-
635), which authorized the consolidation, contains no provision which 
exempts the project from the Federal Buildings Act.
    Further, P.L. 101-635 amended the Federal Food, Drug, and Cosmetics 
Act. Because of this, P.L. 101-635 specifically authorized the 
Secretary of Health and Human Services (HHS) to acquire and construct 
the consolidated facility and to enter into contracts for such 
activities. P.L. 101-635 did not authorize the GSA Administrator to 
take any action on the project except to consult with the HHS 
Secretary.
    Despite the language of P.L. 101-635, Treasury, Postal Services and 
General Government Appropriations Acts have in the past made funds 
available to the GSA's Federal Buildings Fund for the FDA 
consolidation. For this reason, GSA, and not HHS, is planning to 
conduct the consolidation.
    However, P.L. 101-635 does not authorize the Administrator of GSA 
to construct any of FDA's consolidated facilities. GSA can only 
construct FDA's facility if your committee approves a project 
prospectus before Congress appropriates construction funds to GSA.
    The project cannot be exempt from the prospectus requirements of 
the Public Buildings Act unless Congress appropriates funds to HHS to 
construct the facility or unless Congress specifically exempts a GSA 
appropriation from the requirements of the Public Buildings Act.
    Members of your committee must oppose the enactment of any bills 
which appropriate funds for the FDA consolidation or for any other 
major project if your committee has not yet approved a prospectus for 
the project. Such bills give GSA blank checks to construct costly pork 
barrel projects without adequate oversight by your committee. They 
defeat the purpose of the Public Buildings Act of 1959.
    Your committee needs to assure proper planning, site selection, and 
Congressional oversight of the FDA consolidation as required by the 
Public Buildings Act of 1959. Members of your committee should oppose 
any appropriations for any phase of the FDA consolidation until your 
committee has approved a prospectus that describes all phases of the 
FDA consolidation.
    This prospectus needs to contain plans to consolidate all of FDA's 
components, including CFSAN and CVM, into a single facility at a single 
location. Such a project will comply with the FDA Revitalization Act 
(P.L. 101-635). GSA's present plans are not in compliance with this 
Act.
    2. Please amend S. 2481, the Public Buildings Reform Act of 1998, 
to prevent any appropriation and utilization of funds for the 
construction and acquisition of any public buildings (such as for the 
FDA consolidation) unless the projects fulfill all of the requirements 
of the Public Buildings Act of 1959. My statement below contains 
suggested bill language for such an amendment.
    Section 7(a) of the Public Buildings Act, as amended, requires the 
Administrator of the General Services Administration (GSA) to transmit 
a prospectus of each proposed project to Congress before Congress 
appropriates more than $500,000 to construct or acquire Federal 
buildings.
    However, Congress has appropriated funds to the Federal Buildings 
Fund for the FDA consolidation and for other building construction 
projects on a number of occasions without receiving any such 
prospectus. This practice needs to be stopped.
    Avoidance of the requirements of the Public Buildings Act of 1959 
permits Congress to appropriate funds for ``pork barrel'' projects 
without proper oversight and control and without distributing public 
building construction projects equitably throughout the United States. 
This is poor management. It produces conditions that are unfair to 
taxpayers in many areas throughout the nation.
    Congress must properly manage the process used to appropriate funds 
for the construction of Federal buildings. Further, it must assure that 
such building projects are equitably distributed throughout the nation 
and in compliance with Federal Executive Orders, Federal regulations, 
and regional Federal policies, such as those developed by NCPC.
    Despite the provisions of the Public Buildings Act, in certain 
instances, Congress appropriates large amounts of Federal funds for 
building construction projects that lack an approved prospectus. 
Congress has done this even where specific authorizing legislation, 
such as that for the FDA consolidation, contains no provision that 
exempts the project from the Public Buildings Act of 1959. This appears 
improper.
    Section 2 of the Public Buildings Act requires the GSA 
Administrator to construct buildings ``in accordance with this Act''. 
Section 7(a) of the Act states that `` . . .  no appropriation shall be 
made to construct any public building'' unless the requirements of the 
Section are met. However, Congress does not always follow this mandate 
when enacting Appropriations legislation.
    Congress needs to use S. 2481, the Public Buildings Reform Act of 
1998, to clarify the law to eliminate such legislative inconsistencies, 
to reduce ambiguity, and to promote good property management. The 
appropriation process for the FDA consolidation project provides an 
excellent example of the need for such a clarification.
    I therefore request that your subcommittee and committee amend S. 
2481, the Public Buildings Reform Act of 1998, so that it contains an 
amendment to Section 7 of the Public Buildings Act of 1959 (P.L. 86-
249; 73 STAT. 478)(40 U.S.C. Sec. 606) that will add a new paragraph 
(e) that states:
    ``(e) Notwithstanding the enactment of any Act which authorizes the 
construction of any public building or the acquisition of any building 
to be used as a public building, all appropriations made for such 
purposes shall be made in accordance with the provisions of this 
section, unless such authorizing Act provides otherwise.''
    I further request that your subcommittee and committee amend S. 
2481, the Public Buildings Reform Act of 1998, so that it contains an 
amendment to Section 210(f) of the Federal Property and Administrative 
Services Act of 1949, as amended (40 U.S.C. Sec. 490(f)) (Federal 
Buildings Fund), that will add a new paragraph (f)(7) that states:
    ``(7) No moneys deposited into the fund shall be used for the 
construction of any public building or for the acquisition of any 
building to be used as a public building unless such funds have been 
appropriated in accordance with the provisions of Section 7 of the 
Public Buildings Act of 1959, as amended.''
    3. Please take actions that will assure that GSA will fully comply 
with Executive Orders 12072 and 13006 in all projects that will be 
funded by GSA's Fiscal Year 1999 Capital Investment and Leasing 
Programs throughout the United States and in various courthouse 
projects that may be contained within the Fiscal Year 1999 Courthouse 
Construction Requests of the Judicial Conference of the United States;
    The above Executive Orders and NCPC regional policies presently 
require GSA to give preference for the FDA consolidation to a site in 
the District of Columbia, such as the Southeast Federal Center, rather 
than to sites in suburban Montgomery and Prince George's Counties, 
Maryland. The Executive Orders further require GSA and FDA to economize 
on their space requirements to assure compliance with their provisions. 
GSA is not presently doing this for the FDA consolidation and for many 
other projects in the Washington, DC Metropolitan Area.
    It is the responsibility of your committee when reviewing 
prospectuses to assure that the projects are being conducted in 
accordance with all applicable laws and policies. To do this, you must 
assure that no funds are appropriated for any major project before a 
prospectus is approved.
    Executive Orders 12072 and 13006 and the policies of the National 
Capital Planning Commission (NCPC) require that GSA and FDA give the 
Southeast Federal Center preference over the White Oak site. However, 
GSA often disregards these policies and Executive Orders 12072 and 
13006 in urban areas throughout the United States.
    Executive Orders 12072 and 13006 require Federal space and Federal 
use of space to serve to strengthen the nation's central cities, to 
make them attractive places to live and work, and to encourage their 
development and redevelopment. It is essential that Federal agencies, 
including GSA, comply with these Executive Orders in order to help 
revitalize economically depressed areas in all cities within the United 
States, including Washington, DC.
    On February 17, 1998, your committee held a Field Hearing in 
Helena, Montana, on the Federal Public Building Leasing Process. At 
that hearing, officials of the Cities of Helena, Billings, and Butte, 
Montana and of the National Trust for Historic Preservation testified 
that GSA had disregarded the requirements of Executive Orders 12072 and 
13006 by locating new courthouses and other Federal facilities outside 
of the central business areas of the central cities of Helena, 
Billings,and Butte, Montana, and Clarksburg, West Virginia.
    GSA has similarly disregarded these Executive Orders when leasing 
and constructing numerous Federal buildings in the Washington, DC area. 
The FDA consolidation is just one of these examples of such disregard 
in the National Capital Region.
    I presently work in an FDA building that GSA leases in an 
unincorporated suburb outside of Rockville, Maryland. This building is 
not within any city. Its leasing was a clear violation of Executive 
Orders 12072, since GSA did not advertise for space in Washington, DC, 
before it signed the lease for this building 6 years ago.
    Your committee needs to address this serious problem in the 
Washington, DC area. To help restore the District's economy, Congress 
needs to assure that GSA and other Federal agencies comply with 
Executive Orders 12072 and 13006 in the National Capital Region when it 
reviews individual projects that are included within GSA's Fiscal Year 
1999 Capital Investment and Leasing Program.
    I am explaining the specific laws, Executive Orders, regulations 
and policies that apply to the FDA consolidation below.
    4. Please consider GSA's 11(b) report and/or business plan on the 
FDA consolidation to be a prospectus, invite non-governmental public 
witnesses to testify on the report and/or business plan and take a vote 
on a resolution to approve or disapprove a project prospectus.
    On September 27, 1996, the Committee on Transportation and 
Infrastructure of the U.S. House of Representatives passed a resolution 
pursuant to Section 11(b) of the Public Buildings Act of 1959 (P.L. 86-
249) that requested GSA to provide report to Congress that will 
describe GSA's plans for the FDA consolidation. To the best of my 
knowledge, GSA has not yet submitted such a report for the White Oak 
project.
    The 11(b) report and/or business plan should contain all of the 
elements required for a prospectus. Your committee needs to treat the 
11(b) report as a prospectus. Your committee should invite public 
witnesses to testify on the issues raised in the report and should vote 
on a resolution to approves or disapprove GSA's proposal.
    As noted above, the purpose of the prospectus is to allow your 
committee to assure the equitable distribution of public buildings 
throughout the United States. GSA is proposing to relocate over 800 
Federal employees out of the District of Columbia at a time that DC is 
losing many Federal employees and Federal agencies.
    Your committee needs to consider whether these relocations ``assure 
the equitable distribution of public buildings'' when it receives the 
11(b) report. Your committee also needs to assure that adequate public 
transportation will be available to the site and that the project will 
comply with all provisions of the Public Buildings Act of 1959, as 
amended.
    5. Please oppose any future appropriation of funds to support an 
FDA consolidation at the White Oak Naval Surface Warfare Center in 
Montgomery County, Maryland.
    The present need for this project is questionable. The CFSAN/CVM 
buildings in Prince George's County will house those FDA Centers that 
now contain most or all of the FDA offices and laboratories that are 
reported to be in poor facilities.
    Many FDA offices, including my own, are in excellent buildings. 
None of my coworkers complain about their present offices. 
Nevertheless, we would all relocate to the Montgomery County 
consolidated facility.
    My coworkers and I rarely need to visit other FDA centers while 
reviewing medical device applications. The need to consolidate seems 
small.
    White Oak is three miles from the closest Metrorail station. In 
contrast, FDA's largest office building is presently only half a mile 
from a Metro station. FDA will lose many experienced employees if it 
moves to White Oak.
    The Naval Surface Warfare Center is in an affluent suburban 
residential neighborhood. The White Oak area does not require Federal 
aid to support its development.
    The Congressional Concurrent Resolution on the Budget for Fiscal 
Year 1996-2002 assumes a 30 percent reduction in funds for Federal 
Buildings construction in its seven year plan to balance the Federal 
budget (Conference Report for H. Con. Res. 67: H. Rept. 104-59, June 
26, 1995, p. 84). House and Senate Committees on Appropriations need to 
address this programmed reduction in discretionary spending.
    President William J. Clinton urged Congress to further reduce 
spending on Federal building projects when he vetoed the first 1995 
rescission bill (H.R. 1158). The President still does not appear to 
support costly Federal construction projects, as he has not included 
any funds for the FDA consolidation in his FY-1999 budget request.
    There is no urgent need for a major FDA consolidation. Congress 
needs to implement its Budget Resolution and the President's policies 
by appropriating no new FY-1999 funds for FDA's Montgomery 
consolidation. It should, instead, appropriate a small amount of funds 
for GSA to study the feasibility of consolidating FDA at the Southeast 
Federal Center.
    6. When Congress considers the FY-2000 appropriations to GSA, 
please ask the Treasury Subcommittee of the Senate Committee on 
Appropriations to appropriate $4,000,000 to GSA's Federal Buildings 
Fund for the study of a major FDA consolidation in the District of 
Columbia, with an initial focus on the Southeast Federal Center and its 
vicinity.
    Rescissions in P.L. 104-19 and P.L. 104-52 removed most or all of 
the funding for site preparation and construction at the Southeast 
Federal Center. GSA's FY-1999 Capital Investment Program and pending 
appropriations legislation propose that $10,000,000 be made available 
for site remediation at the Federal Center. This Federal property is 
therefore available for the FDA consolidation.
    The Southeast Federal Center is adjacent to the Washington, DC, 
Navy Yard. It is next to the Navy Yard Metro Station and is only a mile 
from the Capitol building.
    GSA officials have refused my repeated requests to evaluate the 
Southeast Federal Center site as an alternative site for the 
consolidation. It appears that GSA will only consider this site if 
Congress appropriates funds for a study of an FDA consolidation at this 
site.
    Without such an appropriation, GSA will continue to promote the 
division of FDA into separate facilities at White Oak and College Park. 
This will remove Federal workers from the District of Columbia and will 
place most at a suburban location (White Oak) that is miles away from 
Metrorail and from any city.
    FDA did not evaluate any sites other than the White Oak NSWC when 
it issued its Final Environmental Impact Statement (FEIS) for the 
project. GSA's FEIS supported a selection of NSWC for the consolidation 
without evaluating any sites in Washington, DC Only Congress or a 
Federal court can change GSA's direction.
    A National Capital Planning Commission (NCPC) plan has designated 
the Southeast Federal Center as an important site for new offices. NCPC 
expects this new economic development to ``assist the transformation of 
the Southeast Federal Center and adjacent Navy Yard into a lively urban 
waterfront of offices, restaurants, shops and marinas'' (``Extending 
the Legacy'', Plan for Washington's Monumental Core, NCPC, March 1996).
    The goal of NCPC's plan is to preserve and enhance Washington's 
Monumental Core, which is centered at the U.S. Capitol building. An FDA 
consolidation at the Southeast Federal Center can revitalize a decaying 
DC neighborhood and help achieve NCPC's goal.
    The Southeast Federal Center and its nearby depressed commercial 
area can hold buildings up to 14 stories high. A comparison of GSA's 
approved site plans for the Southeast Federal Center and of FDA's space 
requirements indicates that the Southeast Federal Center can 
accommodate the entire FDA consolidated facility, and can include the 
CFSAN and CVM components that GSA is planning to relocate to College 
Park.
    The legislation that initiated the FDA consolidation (P.L. 101-635) 
authorizes only a single consolidated FDA administrative and laboratory 
facility. Indeed, Senate Report No. 101-242 (Feb. 1, 1990), which 
accompanied the authorizing legislation, states, ``the FDA needs to be 
consolidated in a building.'' P.L. 101-635 did not anticipate or 
authorize a 130-acre FDA campus and two satellite facilities.
    FDA does not require a 130-acre campus for its consolidation. Large 
high-rise buildings can readily house most or all of FDA's offices, 
laboratories, and ancillary facilities.
    Cities throughout the Nation contain many such research and office 
centers. Over 2000 National Institutes of Health (NIH) research 
laboratories are located in a single 14-story building that the 
government constructed in 1981 in Bethesda, Maryland. A single 18-story 
building in Rockville, Maryland, now houses many of FDA's offices, 
including the Office of the Commissioner.
    Congress and the Secretary of Health and Human Services (HHS) can 
efficiently oversee FDA's activities if FDA consolidates at the 
Southeast Federal Center. The Southeast Federal Center is close to both 
Maryland and Virginia. An FDA consolidation there will enhance the 
economies of three jurisdictions (DC, Maryland, and Virginia). In 
contrast, a consolidation at White Oak would benefit Maryland at the 
expense of the District and Virginia.
    The median annual household income in the White Oak residential 
neighborhood exceeds affluent Montgomery County's median at $65,000. 
Southeast Washington's median household income is much lower. Federally 
supported economic development is far more critical to Southeast DC 
than to White Oak.
    Please recommend a survey of other sites in the District if GSA 
finds that FDA cannot feasibly consolidate at and near the Southeast 
Federal Center.
    A redirection of planning funds to study sites in the District 
would place the project in compliance with Executive Orders Nos. 12072 
and 13006. It would also be consistent with the purposes of the 
National Capital Planning Act of 1952 and the policies and 
recommendations that NCPC has developed to implement it.
    Executive Order No. 12072 and its implementing regulations direct 
the locations of Federal facilities in urban areas, including the 
National Capital Region. They require Federal agencies to locate and 
use their space and facilities so that the facilities ``shall serve to 
strengthen the Nation's cities'' and ``shall conserve existing urban 
resources, and encourage the development and redevelopment of cities.''
    President Clinton's Executive Order 13006, May 21, 1996, (Locating 
Federal Facilities on Historic Properties in Our Nation's Central 
Cities) reaffirmed and extended Executive Order 12072, by stating:
    ``Through the Administration's community empowerment initiatives, 
the Federal Government has undertaken various efforts to revitalize our 
central cities, which have historically served as the centers for 
growth and commerce in our metropolitan areas. Accordingly, the 
Administration hereby reaffirms the commitment set forth in Executive 
Order No. 12072 to strengthen our nation's cities by encouraging the 
location of Federal facilities in our central cities.''
    The Executive Orders require GSA and FDA officials to ``economize 
in their requirements for space''. They require Federal agencies in 
urban areas, such as the Washington Metropolitan Area, to strengthen 
the nation's cities and to encourage the locations of such agencies in 
the urban areas' central cities, such as Washington, DC The Orders 
discourage or prohibit the location of Federal facilities in outlying 
cities such as College Park and in unincorporated areas such as White 
Oak.
    41 CFR 101-17.5 states in paragraph (h), `` . . .  these policies 
shall be applied in the National Capital Region in conjunction with 
regional policies on development and distribution of Federal employment 
in the National Capital Region established by the National Capital 
Planning Commission and consistent with the general purposes of the 
National Capital Planning Act of 1952, as amended''.
    GSA and FDA have long disregarded the Executive Order and NCPC's 
regional policies and recommendations when planning, leasing and 
constructing Federal buildings in the National Capital Region. To help 
resolve DC's financial crisis, Congress needs to correct this.
    A long-standing NCPC policy presently encourages government 
agencies to redistribute Federal jobs in the National Capital Region. 
This redistribution is long overdue. Congress needs to address this in 
the Federal buildings appropriations process.
    The redistribution would implement NCPC policies and 
recommendations that NCPC has developed in compliance with National 
Capital Planning Act. It would reverse recent trends and correct a 
growing imbalance of Federal employment in the National Capital Region.
    In its Proposed Federal Capital Improvements Program (PFCIP), 
National Capital Region, Fiscal Years 1997-2001 (April, 1996)(p.9), 
NCPC reports that the District of Columbia will lose 889 Federal 
employees as a result of the FDA consolidation project. This would 
accelerate a continuing transfer of Federal employment from the 
District to the Maryland and Virginia suburbs.
    According to NCPC's PFCIP (p. 10), the District's percentage of the 
total Federal employment in the National Capital Region has declined 
from 58.O percent in 1969 to 52.4 percent in 1994.
    Because of this trend, NCPC's PFCIP (p. 12) has a final 
recommendation that states, ``The Commission encourages each agency to 
adhere to the policy in the Federal Employment element of the 
Comprehensive Plan adopted in 1983 which specifies that the historic 
relative distribution of Federal employment of approximately 60 percent 
in the District of Columbia, and 40 percent elsewhere in the Region 
should continue during the next two decades. This policy is used by the 
Commission to ensure the retention of the historic concentration of 
Federal employment in the District of Columbia, the seat of the 
national government.''
    A major FDA facility at the Southeast Federal Center is consistent 
with Executive Orders 12072 and 13006, their implementing regulations, 
and with NCPC policies and recommendations. A facility at White Oak is 
inconsistent with all of these.
    FDA now plans to move about 800 Federal employees in its Center for 
Food and Applied Nutrition (CFSAN) from the District of Columbia to a 
new facility in College Park, Prince George's County, Maryland. To 
reverse the accelerating decline of the nation's capital city, Congress 
must mitigate such relocations by directing the major FDA consolidation 
to the District of Columbia by appropriating funds for GSA and FDA to 
consider the Southeast Federal Center as a site for the FDA 
consolidation.
    7. Please ask GSA or the General Accounting Office to appraise the 
value of the White Oak site and to estimate the revenues that the 
Government can gain from a sale of the site. Such a sale can add 
additional resources to the Federal Buildings Fund and can help support 
the FY-1999 GSA Capital Investment and Leasing Programs.
    Congress needs to receive an appraisal of the value of the former 
White Oak Naval Surface Warfare Center (NSWC), which GSA now controls. 
This could prepare the government for a sale of part or all of NSWC. It 
could also help Congress evaluate the real cost of an FDA consolidation 
at White Oak.
    A sale would support the original purpose of the base closure. Many 
taxpayers expect such closures to help to balance the Federal budget 
rather than to make a base available for a costly new Federal facility.
    GSA could contribute the proceeds from such a sale to the Federal 
Buildings Fund. Such proceeds could help resolve the shortfall in the 
Fund or could help support the redevelopment of the Southeast Federal 
Center for FDA or for another Federal agency.
    8. Please take action to prevent GSA from expending Federal funds 
to construct FDA's CFSAN/CVM facility in College Park, Prince George's 
County, Maryland, until your committee has considered a resolution for 
approval or disapproval of a prospectus for the project and until 
Congress has appropriated funds following any approval of the 
prospectus. Please consider GSA's 11(b) report on the College Park 
project to be a prospectus, hold a public hearing concerning the 
report, and invite non-governmental witnesses to testify at the 
hearing.
    The Treasury, Postal Service and General Government Appropriations 
Act, 1996 (P.L. 104-52) provided $55,000,000 for GSA to develop an FDA 
facility in Prince Georges County, Maryland. GSA is planning use these 
funds to begin construction of this facility in College Park, Maryland, 
within the next few months.
    However, no legislation has authorized construction of this 
facility at this time. The CFSAN/CVM facility is not a part of the 
major FDA consolidation authorized by P.L. 101-635.
    P.L. 104-52 contains a provision that states:
    ``Provided further, That funds available to the General Services 
Administration shall not be available for expenses in connection with 
any construction, repair, alteration, and acquisition project for which 
a prospectus, if required by the Public Buildings Act of 1959, as 
amended, has not been approved, except that necessary funds may be 
expended for each project for required expenses in connection with the 
development of a proposed prospectus.''
    A GSA official has informed me that GSA has submitted report to 
Congress under Section 11(b) of the Public Buildings Act of 1959 that 
describes the College Park CFSAN/CVM project. However, neither your 
committee nor the Committee on Transportation and Infrastructure of the 
U.S. House of Representatives have ever approved a prospectus for the 
project.
    GSA can therefore only use the funds appropriated in P.L. 104-52 to 
develop a proposed prospectus for the project. GSA cannot legally use 
these funds to construct the facility or to acquire property for it.
    Despite this restriction, GSA informed NCPC in a letter dated 
September 25, 1997, that the agency planned to begin excavation of the 
project's building foundations shortly after November 6, 1997. GSA's 
September 29, 1997, Schematic Site and Building Plan Submission to NCPC 
stated that the project is fully funded based on an all inclusive 
project budget of $84,000,000. In a letter to NCPC dated January 5, 
1998, GSA stated that its goal is to start the concrete foundations of 
the building on April 1, 1998, and to finalize the construction 
documents for the superstructure award scheduled for September, 1998.
    GSA's statement that the project is fully funded in the amount of 
$84,000,000 is incorrect. While some funds may be available from 
appropriations made prior to 1996, the agency cannot use any of the 
$55,000,000 appropriated in P.L. 104-52 for construction purposes.
    It is apparent that GSA incorrectly believes that this project is 
fully funded. However, your committee has not approved a prospectus for 
the project. Therefore, the $55,000,000 is not available to help cover 
the $84,000,000 project's cost.
    Because the project is not part of the major FDA consolidation, the 
FDA Revitalization Act does not authorize it. This Act authorizes a 
only a single consolidated facility, and further authorizes the 
Secretary of HHS (and not the Administrator of GSA, to construct the 
facility.
    The College Park project would remove 800 FDA employees from 
downtown Washington, DC, without your committee's approval. The project 
will separate CFSAN and CVM from the remaining FDA components, since 
these will consolidate in another location.
    Additionally, the College Park project is inconsistent with the FDA 
Revitalization Act (P.L. 101-635), which authorizes only a single FDA 
consolidated facility. The College Park project will clearly decrease 
FDA's future efficiency.
    Your committee needs to take action and investigate this matter 
immediately. GSA will be misappropriating Federal funds if it uses any 
funds from P.L. 105-52 to construct the CFSAN/CVM facility. Your 
committee needs to act to prevent this violation of Federal law before 
GSA begins construction or awards the construction contracts that its 
letters to NCPC describe.
    Please therefore consider the 11(b) report to be a prospectus, hold 
a public hearing concerning the report, invite non-governmental 
witnesses to testify at the hearing, and take a vote on a resolution to 
approve or to disapprove the prospectus.
                         additional information
    The following observations further support my requests:
    1. The government long ago designated its Southeast Federal Center 
as a site for a new Federal facility. However, nothing has been built 
there yet. An FDA facility would stimulate the revitalization of this 
DC area.
    2. As noted above, the National Capital Planning Commission's new 
1996 plan for Washington's Monumental Core states in the category of 
Economic Development, ``Assist the transformation of the Southeast 
Federal Center and adjacent Navy Yard into a lively urban waterfront of 
offices, restaurants, shops and marinas''.
    An FDA consolidation at the Center would help implement this Plan. 
The government could rent space in the ground floors of FDA's office 
buildings to operators of shops and restaurants.
    3. Unlike White Oak, the Southeast Federal Center is near a Metro 
station. Development at this site would encourage the use of Metrorail. 
This would increase the use of the area's financially troubled public 
transit system and reduce air pollution and traffic congestion.
    If the consolidation occurs at the Southeast Federal Center, many 
more FDA workers will likely choose to use Metrorail than presently do. 
This would benefit the Washington Metropolitan Transit Authority 
(WMATA) and local, State, and Federal governments.
    In contrast, an FDA facility at White Oak would encourage the use 
of private automobiles. The roads near White Oak are already highly 
congested.
    The sections of I-95 and the Capital Beltway that serve White Oak 
rank among the most congested highways in the National Capital Region. 
They are the sites of frequent accidents and traffic jams.
    The White Oak area is principally residential. For this reason, few 
buses run from Metro stations to the White Oak Naval Surface Warfare 
Center in the morning and from it in the afternoon. Thus, most FDA 
employees would find it difficult to use public transportation to 
commute to and from work at White Oak.
    New public transportation routes are costly. There can be no 
assurance that bus service will improve if FDA moves to White Oak.
    If FDA consolidates at White Oak, WMATA will lose revenues from FDA 
employees who now use Metrorail and Metrobuses on a daily basis. Local, 
State and Federal governments will have to pay for this, since WMATA is 
heavily subsidized.
    4. White Oak's distance from Metrorail and from the core of the 
National Capital Region will induce many employees to work at home 
under FLEXIPLACE. This will defeat the purpose of the consolidation.
    5. The Southeast Federal Center is in a decaying urban commercial 
area that is in great need of the economic development that the FDA 
consolidation would bring.
    Southeast Washington is one of the most economically distressed 
areas of the nation's capital city. As is well known, the District of 
Columbia is itself in great need of economic development.
    According to a table in the March 1996 DEIS (p. 3-55), the District 
of Columbia had in 1994 the lowest average household income ($30,727) 
of nine jurisdictions in the Washington, DC, Metropolitan Area.
    In contrast, the White Oak site is in an affluent residential 
neighborhood that is not in great need of economic development. 
According to a March 29, 1996, Maryland-National Capital Park and 
Planning Commission staff report on the White Oak DEIS, the 
neighborhood's median household income exceeds the median income for 
Montgomery County at $65,000 per year.
    According to the Washington Post (April 3, 1996), the White Oak 
neighborhood already boasts a community swimming pool, tennis courts, 
and four tot lots. A map in the March 1996 DEIS shows that a 
neighborhood community center abuts the Naval Surface Warfare Center 
near the FDA site. The FDA c consolidation would add a federally-owned 
golf course to these amenities.
    The DEIS (p. 3-55) states that Montgomery County, Maryland, had in 
1994 the second highest average household income ($64,596) of nine 
listed Washington, DC Metropolitan Area jurisdictions. Montgomery 
County therefore does not appear to be in great need of large Federal 
employment centers that might otherwise be located in the District of 
Columbia.
    There is a great economic contrast between Southeast Washington and 
White Oak. Federal development would serve a far better purpose at the 
Southeast Federal Center than it would at White Oak.
    6. FDA can place its laboratories and offices in compact and 
efficient 14-story buildings at the Southeast Federal Center. In 
contrast, its buildings at White Oak would be only five to six stories 
high.
    FDA's present headquarters are in a 18 story office building (the 
Parklawn Building in Rockville, MD). The Office of the Commissioner of 
Food and Drugs is in this building, which is half a mile from the 
Twinbrook Metro station.
    The National Institutes of Health has a 14 story research 
laboratory building that was built in 1981 at its Warren Magnuson 
Clinical Center in Bethesda, Maryland. The National Cancer Institute 
has some of its nationally-renowned laboratories in the 13th floor of 
this building, which, according to an NIH brochure, holds 2000 separate 
laboratories.
    It is therefore likely that FDA can consolidate its laboratories 
and offices in buildings up to 14 stories high in the Southeast Federal 
Center. If needed, GSA can purchase additional property nearby at low 
cost. Neighboring properties do not appear to be in good condition.
    7. The Navy Yard Metrorail Station is on Metro's Green Line. The 
station is only three stops from Maryland's Southern Avenue Metrorail 
station and only two stops from Virginia's Pentagon Station. An FDA 
facility at the Southeast Federal Center will therefore benefit the 
economies of both Maryland and Virginia, as well as the District.
    In contrast, an FDA facility at White Oak would benefit only 
Maryland. It is too far DC and from Virginia to provide any economic 
benefits to either of these jurisdictions. Instead, it would draw 
Federal employees and associated businesses away from Virginia and DC.
    8. An FDA consolidation at suburban White Oak would violate former 
President Jimmy Carter's Executive Order No. 12072, 43 F.R. 36869, Aug. 
16, 1978. The Executive Order requires Federal facilities and Federal 
use of space in urban areas to serve to ``strengthen the Nation's 
cities''. It also orders Federal agencies to ``economize on their use 
of space''.
    The Executive Order also mandates that the process for meeting 
Federal space needs in urban areas (such as the National Capital 
Region) ``shall give first consideration to a centralized community 
business area and adjacent areas of similar character.'' The small 
White Oak commercial area is not within any city and is not within any 
centralized business district. Further, GSA is planning to construct 
FDA's facility in an area of the NSWC that is distant from the White 
Oak commercial area.
    As noted above, Executive Order 13006 encourages Federal agencies 
to locate their facilities in central cities. Therefore, to be 
consistent with this Order, FDA should be consolidating in the 
Southeast Federal Center or at another site within Washington, DC.
    The Executive Orders have provisions that make them especially 
applicable when the neighborhood of a potential urban site (Southeast 
Washington) is economically depressed while the suburban site is 
affluent, and when the urban site is adequately served by public 
transportation, while the suburban site is not. Because of its 
residential suburban location, the White Oak site is served only 
infrequently by buses that run from Metrorail stations in the morning 
and to the stations in the afternoon.
    Appropriations legislation only makes funds available for Federal 
construction in a specified location. Appropriations laws should not 
supersede Executive Orders that require preference to be given to a 
different location.
    FDA must therefore economize on its space requirements to a great 
enough extent to allow it to consolidate at the Southeast Federal 
Center, rather than at suburban White Oak. Congress should not support 
the appropriation of funds if such an appropriation would encourage GSA 
to violate the Executive Orders.
    9. The March 1995 DEIS discusses a Federal report to the Secretary 
of HHS (Final Report of the Advisory Committee on the Food and Drug 
Administration, May 15, 1991) that assessed the need for new FDA 
facilities. According to the DEIS (p. 1-8), the Committee summarized 
its chapter on resources by recommending, ``The FDA must now begin to 
correct the most urgent of its facility needs, particularly for food 
and veterinary medicine laboratories and field operations.''
    It is noteworthy that FDA is now planning to relocate its food and 
veterinary medicine laboratories to new facilities in Prince George's 
County, Maryland. Facilities for field operations would not be improved 
by an FDA headquarters consolidation. According to documentation cited 
in the DEIS, the FDA offices and centers that FDA plans to move to 
White Oak do not appear to be in great need of new facilities at this 
time.
    While some FDA facilities may need renovation or replacement, many 
do not. Senate Report 101-242, which supports the consolidation, cites 
only one example of a facility that is antiquated. This is a laboratory 
in CFSAN, which FDA plans to relocate to Prince George's County and not 
to Montgomery County.
    FDA and GSA officials may describe to you certain existing 
buildings that are inadequate. These descriptions may be correct; 
however, my personal observations indicate that the conditions of such 
buildings are not representative of most buildings that FDA now 
occupies.
    One FDA laboratory building that may need repair is on the NIH 
campus in Bethesda, Maryland. This is a laboratory of the Center for 
Biologics Evaluation and Research (CBER), which would be relocated to 
White Oak. However, this building is owned by the Federal government.
    The government will have to fund the CBER lab's renovation even if 
FDA leaves it. Further, if FDA leaves this facility, its personnel will 
lose valuable personal interactions with world-renowned personnel who 
work for NIH. They will also lose the ability to use valuable and 
unique NIH equipment. The government will gain nothing from this move.
    Some of the CBER laboratories have recently moved into a new 
building on the NIH campus. Thus, even within CBER, not all 
laboratories are in poor condition.
    In contrast to some FDA laboratories, many of the office buildings 
used by FDA are in good or excellent condition. Some are in leased 
buildings that are quite new. Some even contain amenities such as large 
atriums with palm trees.
    Such superb facilities can be observed at the Center for Devices 
and Radiological Health (CDRH) offices at 9200 Corporate Blvd. in 
Rockville. Other excellent CDRH office facilities are located at 1350 
Piccard Drive and 2094 and 2098 Gaither Road in Rockville. Still others 
can be seen at the offices of other Centers in the Metropark North 
buildings on Crabbs Branch Road in Rockville.
    The adequacy of the CDRH office facilities is documented in an 
Interoffice Memorandum sent by Electronic Mail dated 01-Feb-1995, from 
Connie J. Wilhelm-Miller, of the CDRH Office of Management Services, 
Division of Resource Management. This memo, whose primary subject is 
Smoking Policy (smokers were putting burns in the floors and walls of 
new buildings), states that ``most of CDRH's office space is fairly 
new''. My personal observations confirm the accuracy of this statement.
    A Conference Committee Report (House Report 102-234) that supported 
the 1992 Appropriations legislation (P.L. 102-141) stated that there is 
no disagreement that FDA facilities are antiquated, inefficient and 
overcrowded. This is simply incorrect. It overstates a problem that is 
being experienced by only a small portion of FDA.
    House and Senate Reports supporting the consolidation state that 
FDA's antiquated facilities are causing recruitment and retention 
problems. However, this is only true at very few places, and perhaps 
only in the CFSAN laboratory that is relocating to Prince George's 
County.
    I know of no FDA building housing an office or laboratory that will 
move to the White Oak campus that is in such disrepair that people will 
not work in it. Some buildings may need improvement, but none are that 
bad.
    Most FDA workers work only in offices. Many of these are in fairly 
new buildings that are in good condition, such as the one in which I 
work. There is little reason to expect that many of these employees 
will be happier in a new facility at White Oak.
    Limited replacement of facilities with local consolidations where 
needed may well be desirable. However, a massive consolidation of 
Montgomery County facilities is not.
    10. FDA facilities are presently dispersed. However, this does not 
create great inefficiencies. Many FDA offices with related functions, 
such as those in CDRH in Rockville, are consolidated in buildings 
within one or two miles of each other. A large number are in and near a 
single building (the Parklawn Building) near the Twinbrook Metro 
Station in Rockville, MD.
    Although there are a number of functions that involve different 
offices in different centers, most functions are carried out within one 
Center. More importantly, few interoffice functions require more than 
occasional face-to-face interactions which necessitate travel.
    In addition, travel times between existing Centers that will 
consolidate in the Montgomery County campus not great. All are 
connected by Rockville Pike and I-270. The average trip between offices 
is probably less than 1/2 hour.
    It is important not to overrate the need for consolidated 
facilities.
    The U.S. Armed Forces won the Second World War operating from bases 
and headquarters throughout the U.S. and in much of the rest of the 
world. Only a tiny percentage of defense workers and military personnel 
were located in any single facility. Decentralized agencies can and do 
often work at least as efficiently as those that are consolidated.
    Further, the great majority of product approvals require decision-
making within only a single building. It is only unusual decisions that 
require conferences in separate buildings. Only a tiny minority require 
conferences among offices in widely scattered facilities.
    Most FDA personnel therefore have no need to travel between 
different centers or offices on a regular basis. The need for 
consolidation is not great, despite the statements made in 
Congressional Committee Reports.
    A number of present FDA centers are located near Metro stations, 
such as Medical Center, Shady Grove, and Twinbrook. The large Parklawn 
Building is an example of this. Many employees can therefore now travel 
quickly and easily from one Center to another, as well as to meetings 
at NIH and in downtown DC.
    In contrast, White Oak is 3 miles from Metrorail. Few, if any, 
people will take Metro to commute or to go to meetings at NIH or in DC.
    Most communications occur today by phone and by electronic mail. 
Electronic networks allow documents to be transmitted to anyone with a 
receiver. Indeed, many FDA personnel now regularly work at home using 
FLEXIPLACE. Using home computer modems, they can connect with FDA 
computer networks to perform most necessary functions.
    The need for a costly consolidation is not great. It cannot be 
expected to greatly increase FDA's efficiency. By causing experienced 
workers to leave the agency, it may actually decrease FDA's 
effectiveness.
    11. Congress should only appropriate funds for a consolidated FDA 
facility if the consolidation would help increase the use of mass 
transportation or would aid in the redevelopment of a depressed urban 
center such as Southeast Washington, DC It is environmentally and 
economically unsound for Congress to fund the construction of a new 
facility at White Oak that is far from an urban center.
    12. Most FDA employees need to work only at a single location. The 
approval of new drugs and medical devices usually takes place within a 
single FDA Center. A major FDA consolidation, if it occurs, will 
primarily benefit a small cadre of FDA managers who often travel 
between centers and who are promoting the consolidation.
    In actuality, a major consolidation is not likely to benefit many 
FDA employees. It is even less likely that a consolidation will 
significantly speed the approval of new drugs and medical devices.
    13. During President George Bush's term in office, the Office of 
Management and Budget (OMB) opposed funding of the FDA consolidation 
because it was not worth the cost. The Administration considered it 
more cost/effective to renovate facilities as needed.
    It was a Congressional Appropriations conference committee that 
first proposed the appropriation of funds for the FDA consolidation 
(Conference Report for P.L. 102-141: House Report 102-234, Oct. 3, 
1991). The Conferees directed FDA, GSA, HHS, and OMB to work together 
to submit a funding plan for the project and urged OMB and the 
President to support the Conferees' concept of the ``consolidation''.
    The Conferees introduced the concept of building separate FDA 
facilities in Prince George's and Montgomery County. They recommended 
the appropriation of $200,000,000 in the Federal Buildings Fund to 
begin the process of dismantling the single-site consolidation that the 
FDA Revitalization Act (P.L. 101-635) had previously authorized.
    P.L. 101-635 had amended the Federal Food, Drugs and Cosmetics Act. 
It had authorized the Secretary of HHS (not the Administrator of GSA) 
to construct a single consolidated FDA facility.
    Despite this authorization, the Conferees recommended the 
appropriations of funds from the Federal Buildings Fund for the GSA 
Administrator to use to construct two FDA facilities in separate 
counties located in the State of Maryland. The Conferees also 
recommended that the appropriation for the FDA facilities be exempt 
from prospectus requirements of the Public Buildings Act of 1959.
    Appropriations Conference Committees have therefore undermined the 
FDA Revitalization Act, the Public Buildings Act of 1959, Executive 
Order No. 12072, 41 CFR 101-17.000 et seq., and the National Capital 
Planning Act of 1952. They have made it difficult for government 
officials to follow procedures that assure compliance with 
Congressional oversight legislation and site selection requirements in 
the National Capital Region and elsewhere.
    These Conference Committees have endorsed the appropriations of 
funds for more than one FDA ``consolidated'' facility, have designated 
the GSA Administrator (rather than the Secretary of HHS) as the planner 
and builder of the facilities. They have also allowed GSA to construct 
buildings without a prospectus.
    Appropriations conferees have recommended that FDA build a campus 
rather than consolidate in a single building. Additionally, they have 
caused FDA to transfer Federal jobs out of the financially distressed 
District of Columbia and into more prosperous Maryland counties and 
neighborhoods.
    This is not good planning. It is pork barrel politics at its worst. 
Congress must correct itself.
    14. Senate Report No. 101-242, Feb. 1, 1990, which supported the 
FDA Revitalization Act (P.L. 101-635) estimated that the cost of the 
consolidation would approximate $500,000,000.
    FDA and GSA now estimate the total cost of the consolidation to be 
at least $600,000,000. This would create a cost overrun exceeding the 
original $500,000,000 estimate by $100,000,000.
    15. Despite the 1995 rescission of funds for the Clarksburg 
facility, FDA's and GSA's facility engineers continue to plan for a 
large FDA campus. They do not wish to seriously economize in the 
agency's use of space.
    By creating unnecessarily large requirements for space, they are 
evading their responsibilities to consider locating the consolidated 
facility in a compact site in a central city. One such site is now 
available at the Southeast Federal Center.
    Unless Congress intervenes as it did in 1995, GSA and FDA will 
likely violate major provisions of Executive Order No. 12072 and the 
National Capital Planning Act of 1952. As noted above, these now 
dictate a preference for the Southeast Federal Center.
    16. Some reports on FDA have suggested that certain FDA facilities 
are overcrowded. This may no longer be true.
    GSA has recently leased a number of new buildings for FDA. 
Overcrowding is therefore not as acute as it was several years ago.
    17. The DEIS contains no information on the number of buildings 
that FDA will reuse at White Oak. FDA will not be able to use many of 
the existing buildings because they are contaminated, deteriorated, of 
unsatisfactory conformation, and poorly located. FDA will clearly need 
to build a number of costly structures at White Oak.
    18. Some of the planned excess capacity at the 130 acre White Oak 
facility is desired for future expansion. However, this amounts to 
nothing more than speculation.
    Expectations of FDA expansions may well be unrealistic. FDA has not 
grown significantly in recent years, except in a few specific areas. 
Further, regulatory agencies often do not grow over long periods of 
time when there is an anti-regulatory climate, when there are budgetary 
problems, or when there are pressures to privatize Federal functions.
    FDA's major growth occurred years ago in response to obvious and 
important needs. FDA can now meet most of these needs without any 
further growth. Although many agencies try to justify their own 
expansion, FDA may never be able to significantly increase its size or 
number of employees.
    A compact site such as the Southeast Federal Center is more 
consistent with proposed FDA reform legislation than is a 130 acre site 
at White Oak. This reinforces the need for Congress to direct a study 
of the Southeast Federal Center.
    19. Because FDA would acquire more land at White Oak than it 
presently needs, it will surely press for additional funding to 
construct more buildings in the future. This will increase future 
government expenditures.
    As the FDA campus adds buildings at White Oak in the future, it 
will increase the urbanization of its surrounding residential 
neighborhood. This will eventually exceed the limits imposed by current 
zoning and land use plans and will create local controversies.
    Bernard H. Berne, M.D., Ph.D.
                              ATTACHMENTS
List of Attachments
    1. Draft Environmental Impact Statement for FDA Consolidation, 
Montgomery County (GSA, March 1996): Plan for 130 acre FDA campus at 
White Oak Naval Surface Warfare Center and golf course on adjacent 
Federal property.
    2. Washington Post (April 3, 1996): Description of White Oak 
residential community amenities, including a swimming pool, tennis 
courts, five tot lots, and luxury apartments featuring individual 
washers, dryers, ceiling fans, and microwaves in kitchen.
    3. Plan for Washington's Monumental Core (``Extending the Legacy,'' 
National Capital Planning Commission, March 1996): Plan to preserve, 
revitalize and extend Monumental Core of nation's capital. Includes 
recommendation for economic development to assist the transformation of 
the Southeast Federal Center into a lively waterfront of offices, 
restaurants, shops and marinas.
    4. Executive Order No. 12072: Federal Space Management (President 
Jimmy Carter, Aug. 16, 1978; 43 F.R. 36869, U.S.C.A. 40 Sec. 490): 
Executive Order stating that the process for meeting Federal space 
needs in urban areas shall give first consideration to a centralized 
community business area and similar adjacent areas in the central city 
of the urban area, and requiring that the heads of Executive agencies 
shall economize on their use of space.
    5. Executive Order 13006: Locating Federal Facilities on Historic 
Properties in our Nation's Central Cities (President William J. 
Clinton, May 21, 1996; Federal Register, Vol. 61, No. 102, May 24, 
1996, pp. 26071-26072): Executive Order reaffirming the 
Administration's commitment to Executive Order 12072 and encouraging 
the location of Federal facilities in central cities.
    6. Proposed Federal Capital Improvements Program, National Capital 
Region, Fiscal Years 1997-2001 (April 3, 1996): Illustration of 
percentage in District of Columbia of Federal employment in the 
National Capital Region declining from 58.0 percent in 1969 to 52.4 
percent in 1994.
    Illustration shows that Maryland's Federal employment has risen and 
DC's has fallen since 1969.
    Program contains NCPC recommendation that agencies adhere to policy 
in Comprehensive Plan of 1983 which specifies that historic 
distribution of Federal employment in the National Capital Region of 
approximately 60 percent in DC and 40 percent elsewhere in Region 
should continue during next two decades.
    7. Your Guide to the Clinical Center, National Institutes of 
Health, Bethesda, Maryland (Brochure distributed by National Institutes 
of Health, 1995): A description of the 14-story Warren Grant Magnuson 
Clinical Center, which houses more than 2000 NIH laboratories. The 
building opened in 1981.
    8. The Food and Drug Administration Revitalization Act (P.L. 101-
635, Nov. 30, 1996): The authorizing legislation for that authorized 
the Secretary of Health and Human Services to enter into contracts to 
design, construct and operate a single consolidated FDA administrative 
and laboratory facility. The GSA Administrator was only authorized to 
consult with the Secretary of HHS.
    9. Public Buildings Act of 1959 (P.L. 85-249, Sept. 9, 1959): The 
Public Buildings Act requires the GSA Administrator to transmit a 
prospectus for large building projects to Congress. Sec. 7 states that 
approval of the prospectus is required ``in order to insure the 
equitable distribution of public buildings throughout the United 
States.''
    10. P.L. 104-19 (Rescissions Act, 1995). The 1995 Act that 
rescinded $228,000,000 of the funds previously appropriated for the 
Montgomery County, Maryland, FDA consolidation. The Act rescinded all 
construction funds for the facility.
    11. P.L. 104-52 (Treasury, Postal Services, and General Government 
Appropriations Act, 1996). The 1996 Act that appropriated $55,000,000 
for an FDA facility in Prince George's County, Maryland, restricted to 
the development of a proposed prospectus for the project in accordance 
with Public Buildings Act of 1959. The funds cannot be used for 
construction purposes because of this restriction.
    12. Letter from GSA to National Capital Planning Commission 
concerning FDA's CFSAN/CVM Facility, College Park, Prince Georges 
County, Maryland, Sept. 25, 1997. Letter states that excavation of 
building foundations will begin shortly after Nov. 6, 1997.
    13. Schematic Site and Building Plan Submission, CFSAN/CVM 
Facility, College Park, Prince Georges County, Maryland. Presented by 
GSA to National Capital Planning Commission, Sept. 29, 1997. Plan 
states that FDA's CFSAN/CVM facility is fully funded by GSA, that 
foundation will be excavated and constructed in 1977 and early 1998, 
and that work on building will be initiated in the fall of 1998.
    14. ``Clinton Proposes Package to Stimulate DC Economy'' (David A. 
Vise), Washington Post, March 12, 1997, p. A1. Report of President 
Clinton's statement that, to stimulate DC's economy, he had directed 
his Cabinet secretaries to help the District of Columbia, beginning 
with keeping Federal agencies in the city.
    15. ``Keeping Federal Jobs in the District'' (Letter to the Editor, 
Bernard H. Berne), Washington Post, July 14, 1997, p. A18. Letter to 
editor supporting consolidation of FDA at Southeast Federal Center.
                              Attachment 1
draft environmental impact statement for fda consolidation, 1montgomery 
          county, general services administration, march 1996
    Plan for 130-acre FDA campus at White Oak Naval Surface Warfare 
Center and golf course on adjacent Federal property.
                              Attachment 2
              washington post advertisement. april 3, 1996
    Description of White Oak Residential Community amenities, including 
a swimming pool, tennis courts, five tot lots, and luxury apartments 
featuring individual washers, dryers, ceiling fans, and microwaves in 
kitchen.
                              Attachment 3
    plan for washington's monumental core ``extending the legacy'', 
                  national capital planning commission
                               march 1996
    Plan to preserve, revitalize and extend Monumental Core of nation's 
capital. Includes recommendation for economic development to assist the 
transformation of the Southeast Federal Center into a lively waterfront 
of offices, restaurants, shops and marinas.
                              Attachment 4
   executive order 12072: federal space management, president jimmy 
 carter, aug. 16, 1978, 43 f.r. 36869; 40 u.s.c. Sec. 490; 3 cfr, 1979 
                             comp., p. 213
    Executive Order stating that the process for meeting Federal space 
needs in urban areas shall serve to strengthen the Nation's cities, 
shall give first consideration to a centralized community business area 
and adjacent areas of similar character, and that the heads of 
Executive agencies shall economize on their use of space.
                              Attachment 5
    executive order 13006: locating federal facilities on historic, 
    properties in our nation's central cities, president william j. 
clinton, may 21, 1996, federal register vol. 61, no. 102, may 24, 1996, 
                             pp. 26071-72)
    Executive Order reaffirming the Administration's commitment to 
Executive Order 12072, defining the improvement of ``central cities'' 
as the purpose of Executive Order 12072, and encouraging the location 
of Federal facilities in historic buildings in central cities.
                              Attachment 6
proposed federal capital improvements program national capital region, 
                 fiscal years 1997-2001, april 3, 1996
    Illustration of declining percentage in District of Columbia of 
Federal employment in the National Capital Region declining from 58.0 
percent in 1969 to 52.4 percent in 1994.
    Illustration shows that Maryland's Federal employment has risen and 
DC's has fallen since 1969.
    Program contains NCPC recommendation that agencies adhere to policy 
in Comprehensive Plan of 1983 which specifies that historic 
distribution of Federal employment in the National Capital Region of 
approximately 60 percent in DC and 40 percent elsewhere in Region 
should continue during next two decades.
                              Attachment 7
   your guide to the clinical center, national institutes of health, 
                bethesda, maryland, distributed in 1995
    A description of the 14-story Warren Grant Magnuson Clinical 
Center, which houses more than 2000 NIH laboratories. The building 
opened in 1981.
                              Attachment 8
  the food and drug administration revitalization act, 1p.l. 101-635, 
                           november 30, 1990
    The authorizing legislation for that authorized the Secretary of 
Health and Human Services to enter into contracts to design, construct 
and operate a single consolidated FDA administrative and laboratory 
facility. The GSA Administrator was only authorized to consult with the 
Secretary of HHS.
                              Attachment 9
      public buildings act of 1959, p.l. 85-249, september 9, 1959
    The Public Buildings Act requires the GSA Administrator to transmit 
a prospectus for large building projects to Congress. Sec. 7 states 
that approval of the prospectus is required ``in order to insure the 
equitable distribution of public buildings throughout the United 
States.''
                             Attachment 10
   rescissions act, 1995, p.l. 104-19 (109 stat. 194), july 27, 1995
    1995 Act that rescinded $228,000,000 of the funds previously 
appropriated for the Montgomery County, Maryland, FDA consolidation.
                             Attachment 11
 treasury, postal service, and general government appropriations act, 
          1996, p.l. 104-52 (109 stat. 468), november 19, 1995
    1996 Act that appropriated $55,000,000 for an FDA facility in 
Prince George's County, Maryland, restricted to the development of a 
proposed prospectus for the project in accordance with Public Buildings 
Act of 1959.
                             Attachment 12
  letter from gsa to national capital planning commission concerning 
    fda's cfsan/cvm facility, college park, prince georges county, 
                        maryland, sept. 25, 1997
    Letter states that excavation of building foundations will begin 
shortly after Nov. 6, 1997.
                             Attachment 13
   schematic site and building plan submission, cfsan/cvm facility, 
  college park, prince georges county, maryland, presented by gsa to 
          national capital planning commission, sept. 29, 1997
    Plan states that FDA's CFSAN/CVM facility is fully funded by GSA, 
that foundation will be excavated and constructed in 1977 and early 
1998, and that work on building will be initiated in the fall of 1998.
                             Attachment 14
 ``clinton proposes package to stimulate dc economy'', david a. vice, 
                    washington post, march 12, 1997
    Report of President Clinton's statement that, to stimulate DC's 
economy, he had directed his Cabinet secretaries to help the District 
of Columbia, beginning with keeping Federal agencies in the city.
                             Attachment 15
``keeping federal jobs in the district'', letter to the editor, bernard 
           h. berne, washington post, july 14, 1997, p. a18.
    Letter to editor supporting consolidation of FDA at Southeast 
Federal Center.

                                   - 

</pre></body></html>
